<html>
<title> - U.S. POLICY TOWARD BURMA: ITS IMPACT AND EFFECTIVENESS</title>
<body><pre>[Senate Hearing 111-358]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-358
 
         U.S. POLICY TOWARD BURMA: ITS IMPACT AND EFFECTIVENESS

=======================================================================



                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EAST ASIAN 
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
55-932                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS        

                  JIM WEBB, Virginia Chairman        

CHRISTOPHER J. DODD, Connecticut     JAMES M. INHOFE, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       JOHNNY ISAKSON, Georgia
BARBARA BOXER, California            JOHN BARRASSO, Wyoming
ROBERT P. CASEY, Jr., Pennsylvania   ROGER F. WICKER, Mississippi
KIRSTEN E. GILLIBRAND, New York

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Campbell, Hon. Kurt, Assistant Secretary of State for East Asia 
  and Pacific Affairs, Department of State, Washington, DC.......     5
    Prepared statement...........................................     8
    Responses to questions submitted by Senator Russell Feingold.    53
Myint-U, Dr. Thant, historian, senior fellow, Institution for 
  Southeast Asian Studies, Bangkok, Thailand.....................    18
    Prepared statement...........................................    23
Steinberg, David, distinguished professor of Asian Studies, 
  Georgetown University, Washington, DC..........................    27
    Prepared statement...........................................    31
Webb, Hon. Jim, U.S. Senator from Virginia, opening statement....     1
Williams, David C., professor, Indiana University, Bloomington, 
  IN.............................................................    38
    Prepared statement...........................................    41

              Additional Material Submitted for the Record

Hon. James M. Inhofe, U.S. Senator from Oklahoma, prepared 
  statement......................................................     4
Hon. Barbara Boxer, U.S. Senator from California, prepared 
  statement......................................................    16
Hon. Richard G. Lugar, U.S. Senator from Indiana, prepared 
  statement......................................................    52
Hon. Mark E. Souder, a U.S. Representative from Indiana, prepared 
  statement......................................................    52
International Burmese Monks Organization, letter and prepared 
  statement......................................................    54
All Burma Monks' Alliance, letter and article from Huffington 
  Post...........................................................    56
Nai Sunthorn Sripanngern, letter.................................    58
Frederick C. Gilbert, Fort Wayne, IN, prepared statement.........    59
Monland Restoration Council, letter..............................    60
Min Zaw Oo, prepared statement and graphs........................    63
International Crisis Group, prepared statement...................    74
Nongovernmental Organizations, open letter.......................    76
Thet Win, founder and president of US Collection, Humanitarian 
  Corps, prepared statement......................................    77
Chris Beyrer, M.D., MPH, director, Center for Public Health and 
  Human Rights, Johns Hopkins Bloomberg School of Public Health, 
  prepared statement.............................................    79
USA*ENGAGE, prepared statement...................................    82
National Bureau of Asian Research, US-ASEAN Business Council, 
  Refugees International, prepared statement and project report..    83
Kyi May Kaung, prepared statement................................    99
Dr. Lawrence Sein Myint, principal consultant, Fire & Risk 
  Consultants, LLC, Columbia, MD, prepared statement.............   100
U Khin Maung Htay, former chief of the Burmese Service of the 
  Voice of America, prepared statement...........................   104

                                 (iii)



         U.S. POLICY TOWARD BURMA: ITS IMPACT AND EFFECTIVENESS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2009

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jim Webb 
(chairman of the subcommittee) presiding.
    Present: Senator Webb.

              OPENING STATEMENT OF HON. JIM WEBB,
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. The subcommittee will come to order.
    This afternoon the East Asian and Pacific Affairs 
Subcommittee will examine American policy toward Burma, with 
particular reference to that country's strategic importance; 
the economic impacts of sanctions and other policies; and the 
potential effectiveness of the administration's recent decision 
to adjust policies toward the Burmese Government.
    As members of this committee are well aware, Burma sits at 
a crucial crossroads in Asia, sandwiched between India and 
China, with a long border next to Thailand and more than 1,000 
miles of coastline along the Indian Ocean. This geostrategic 
position has greatly influenced Burma's history, and will 
continue to affect its long-term role in international 
politics.
    It has also given Burma more than 100 different ethnic 
groups, and numerous geographic divisions within its borders, 
all of which have combined to bring a great deal of turbulence 
inside the country, including now more than six decades of 
constant civil war. Burma's internal tensions, and the effects 
of its geographic position between the giant states of India 
and China, were exacerbated even further by more than 100 years 
of British Colonial conquest, which ended in 1948 in the 
aftermath of World War II.
    Then, as the newly independent country transitioned toward 
a democratic government, sectional and ethnic conflict and the 
assassination of national leader General Aung San instigated 
widespread instability, leading to a military coup against an 
elected parliamentary government in 1962. Since that time, 
Burma has been ruled by a military government, now called the 
State Peace and Development Council.
    Despite enduring conflict, the Burmese people, including 
officially its present military government, still seek a 
transition to civilian government and democracy. The student-
led protests of 1988 demonstrated this desire to the world. In 
1990, Aung San Suu Kyi's party, the National League for 
Democracy, won the majority of seats in an open election, but 
these results were annulled by the military government. In 
response to these events and to the military government's 
refusal to acknowledge the results of the 1990 election, the 
United States embarked upon a policy to isolate the regime and 
to impose economic sanctions. Over the past 20 years, these 
sanctions have steadily tightened, until now they have 
terminated nearly all commercial relations between our two 
countries.
    Our diplomatic relations have likewise been restricted. We 
have not had an ambassador in Rangoon since 1992. These 
tensions are a far cry from the deep historical relationship 
that our country has shared with the Burmese people, evidenced 
by our cooperation during World War II to defend the Burma Road 
and to keep supply lines open to Allied forces, and our later 
cooperation to retrieve the remains of those Americans who had 
died and whose bodies have never been recovered. And yet, the 
promise of Burma's democracy remains unfulfilled.
    It is within this historical and political context that I 
embarked last month on the first congressional visit to Burma 
in 10 years. This trip was part of a five-nation tour to assess 
American interests in the region overall and to advance the 
United States diplomatic, commercial, and cultural ties in that 
crucial part of the world. I first visited Burma as a private 
citizen in 2001, and even then was able to see firsthand the 
impact of our sanctions policy on the Burmese people. Last 
month, I became the first American official to meet with Senior 
General Than Shwe. I also had the opportunity to meet with Aung 
San Suu Kyi, who, unfortunately, remains under house arrest.
    Since my return, I and my staff have held numerous meetings 
with groups representing the entire spectrum of views regarding 
our policy toward Burma. From these meetings and from years of 
personal thought and action, I believe it can fairly be said 
that almost everyone in the West and inside Burma share the 
objective of a democratic, stable, prosperous Burma. The 
question for us is, How do we make progress toward that goal?
    Our isolation of Burma has resulted in a lack of attention 
to the region's strategic dynamics. Burma remains flanked by 
India and China, and is widely seen as being increasingly under 
China's sphere of influence. I believe that the political 
motivations behind our isolation of Burma were honorable, based 
on a desire to see democratic governance and a respect for 
human rights inside that country. At the same time, the 
situation we face with Burma is an example of what can happen 
when we seek to isolate a country from the rest of the world, 
but the rest of the world does not follow.
    Through the limits of our diplomatic and commercial ties, 
we have also limited our connections with the people of Burma 
and prevented them from seeing the best that a free society can 
offer. We limit aid for their development and intellectual 
exploration. Moreover, we limit opportunities to push for 
positive change, because we do not talk directly to the 
government in charge. So, the question, quite frankly, is 
whether this approach has brought Burma closer to democracy 
than when sanctions were first imposed.
    In February of this year, Secretary of State Clinton 
recognized this impasse and ordered a review of administration 
policy toward Burma. This review has been concluded. The 
preliminary results were announced last week at the Friends of 
Myanmar meeting in New York. Secretary Clinton announced that 
the United States would end its isolation of Burma, would 
directly engage the military government. I believe that this 
redirection is timely. Her representative, Assistant Secretary 
of State Kurt Campbell, is here to present these results in 
more detail, and I welcome the opportunity to discuss them with 
him.
    We are holding this hearing at a critical time. As I said 
to Burma's top leaders when I met with them in August, the 
world views the regime in terms of how it treats Aung San Suu 
Kyi. In order for the elections that are planned for 2010 to be 
perceived by the international community as credible, she and 
her party should be offered the opportunity to participate 
fully and openly in the process. Obviously, this could only be 
done if Aung San Suu Kyi is released from house arrest.
    If the military government's announced intentions to hold 
elections in 2010 do indeed go forward, this could be a major 
and decisive step in the future of that country. I believe the 
United States should watch for signs of progress, that we 
should reserve hasty judgment, that we should do all in our 
power to encourage this election process to be free, fair, and 
transparent.
    We and the international community must also be prepared to 
offer advice, counsel, and hopefully support in the interest of 
meaningful and stable long-term change.
    To discuss these and other issues before the subcommittee 
we have two panels of distinguished witnesses today. First, as 
I mentioned, I'd like to welcome Assistant Secretary Campbell, 
who will speak on the first panel. On the second panel, I 
welcome Thant Myint-U, who has come today from Bangkok; Dr. 
David Steinberg; and Professor David C. Williams, all three of 
whom I will introduce in greater detail before the panel 
begins. I believe that their combined years of experience will 
help us capture the complexity of the situation that we face, 
as well as offer us guidance for the way forward in United 
States-Burma policy.
    I thank our witnesses for being here with us today, and I 
look forward to their insights.
    And again, I would urge my colleagues and others to seek a 
more effective approach toward our Burma policy, to listen 
today with open ears, and to encourage, with a spirit of 
goodwill, a new dialogue here in the Senate and a dialogue that 
would examine our objectives and take a fresh look at the 
efficacy of our policy toward Burma.
    At this point, Senator Inhofe would be giving an opening 
statement. He is in another hearing at the moment, so I would 
ask that his opening statement be included in the record.
    [The prepared statement of Senator Inhofe follows:]

 Prepared Statement of Hon. James M. Inhofe, U.S. Senator From Oklahoma

    Thank you, Mr. Chairman, for holding this hearing today on U.S. 
policy toward Burma.
    I understand that the Obama administration has apparently 
reexamined past approaches to our relations with Burma, and has decided 
upon a new policy of engagement. What that policy is and how it was 
arrived at I assume we will learn of today because up to this point 
there has been rather limited consultation with the Congress about it.
    I find it curious that there is in fact a new engagement policy in 
light of the violent crackdown on widespread demonstrations in Burma in 
September 2007; the announcement of fraudulent results of a national 
constitutional referendum held in the wake of Cyclone Nargis in May 
2008; ongoing allegations of nuclear proliferation cooperation between 
Burma and North Korea, and the arrest, detention, trial and sentencing 
of opposition leader and Nobel laureate Aung San Suu Kyi in the spring 
and summer of 2009.
    As you know, since 1988, the United States has imposed a wide range 
of sanctions against Burma. By 2004, these restrictions had terminated 
nearly all economic relations with Burma. The main sanctions currently 
are: a suspension of aid, including antinarcotics aid; opposition to 
new loans to Burma by the international financial institutions, a 
prohibition on U.S. companies from making new investments in Burma 
since 1997; a ban on imports from Burma affecting mainly imports of 
Burmese textiles but also precious stones and raw materials; a ban on 
travel to the United States by Burmese connected to the junta; and a 
ban on U.S. financial transactions with individuals and entities 
connected to the Burmese Government. In response to the suppression of 
the prodemocracy uprising in Burma in September 2007, the Bush 
administration also issued a number of Executive orders imposing 
financial and travel sanctions on named Burmese officials, Burmese 
companies, and Burmese businessmen.
    The United States has not had an ambassador to Burma since 1992 
when this committee refused to confirm the nomination of an ambassador 
because of human rights abuses. Burma is also on the U.S. list of 
uncooperative drug-producing or transit countries. In 2006, the Bush 
administration succeeded in securing U.N. Security Council 
consideration of a U.S.-drafted resolution on Burma. The resolution 
called for the lifting of restrictions on civil and political 
liberties, the release of Aung San Suu Kyi and other political 
prisoners, negotiations between the ruling junta and opposition groups 
for a democratic transition, and a cessation of attacks and human 
rights abuses against ethnic minorities. However, China and Russia 
vetoed the U.N. resolution in January 2007.
    Currently--or at least until yesterday when I understand Assistant 
Secretary Campbell met with the Burmese Attorney General and Science 
Minister up in New York--the United States strongly criticized the 
ruling military junta at international conferences attended by Burma, 
and we by and large refuse to meet bilaterally with Burmese 
counterparts.
    Keeping in mind this diplomatic history and congressional 
involvement in imposing and enforcing multiple U.S. sanctions regimes 
on Burma, any new policy seeking engagement will be viewed with great 
suspicion from inside and outside of the legislative branch. And simply 
basing a new policy on the fact that an existing policy has not 
achieved the desired results is no basis for a new strategy.
    Mr. Chairman, you have recently traveled to Burma and the region, 
and I have read that you have your own ideas regarding engagement. So 
in addition to listening to the administration's reasons for adopting a 
policy of engagement, I look forward to exploring your ideas today and 
in the months to come on this subcommittee.
    Thank you.

    Senator Webb. And then I would like to go ahead and welcome 
Secretary Campbell.
    Prior to his confirmation in June 2009, Secretary Campbell 
was a CEO and cofounder of the Center for a New American 
Security and concurrently served as a director on the Aspen 
Strategy Group. He has served in several capacities in 
government, including as Deputy Assistant Secretary of Defense 
for Asia and the Pacific; as a director on the National 
Security Council staff; as deputy special counselor to the 
President for NAFTA in the White House; and as a White House 
fellow in the Department of the Treasury. Secretary Campbell 
has been asked today to testify about the administration's new 
policy and how to chart a new course for American and Burma 
relations.
    I appreciate you being here today, Secretary Campbell, and 
the floor is yours.

 STATEMENT OF HON. KURT CAMPBELL, ASSISTANT SECRETARY OF STATE 
               FOR EAST ASIA AND PACIFIC AFFAIRS,
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Campbell. Thank you very much, Mr. Chairman. I 
appreciate this opportunity to appear before this committee. 
Thank you for your service in this capacity, and in many others 
to our Nation over a very distinguished career.
    I'd like to formally submit my prepared testimony for the 
record, and, if I may, just summarize a few key points to give 
us an opportunity for some give and take, if that's OK.
    Senator Webb. Your full statement will be entered in the 
record at this point.
    Mr. Campbell. Thank you very much, Senator.
    Mr. Chairman, thank you for inviting me here today to 
testify about United States policy toward Burma, and a possible 
new direction for United States-Burma relations in this 
critical period.
    Let me take this opportunity to brief you on the 
overarching assessments that helped shape our review. The 
administration launched a review of our Burma policy 7 months 
ago, after Secretary Clinton's comments, recognizing that 
political and humanitarian conditions in Burma were deplorable. 
Neither sanctions nor engagement, when implemented alone, have 
succeeded in improving those conditions and moving Burma 
forward on a path to democratic reform. In addition to taking a 
hard look at the concerns regarding Burma's relationship 
internally, we've also looked at some issues associated with 
North Korea, particularly in light of the passage of U.N. 
Security Council Resolution 1874, and we can talk about that 
more in our subsequent discussion.
    In the process of putting this review together, we've 
consulted widely throughout the review process with Congress; 
with other governments in the region, particularly in Southeast 
Asia, but also with China and India; key stakeholders such as 
nongovernment organizations, business leaders, academics; and 
representatives of international organizations. It's also 
important to underscore, we have consulted with the National 
League for Democracy and other democratic activists inside and 
out of Burma, and also representatives from various ethnic 
groups.
    I think it's important to say, here, just a word about 
those consultations. Over the course of the last several days, 
as we've entered a critical period, and during the period where 
Secretary Clinton rolled out some of our early findings at the 
Friends of Burma last week, I think we heard quite clearly, 
from both staff and members, that the administration did not do 
a good enough job, particularly for the last phase, on 
consultation. I think that's absolutely right. And one of the 
things that's clear is that this policy, and the overall 
approach of the United States to Burma and to the region, has 
been very firmly grounded, not just in executive policy 
decisions, but also in the will and the engagement and the 
passion of the legislative branches. And so, we need, going 
forward, to do a better job. And I want to personally suggest 
that I need to do a better job, going forward on this. And I 
commit to the people in the room, here, who work so hard on 
these issues, to do my best to attain a high goal of 
consultations, going forward.
    The conclusions of our policy review, just announced this 
week, reaffirmed many of our fundamental interests in Burma. 
We, as you know, support a unified, peaceful, prosperous, and 
democratic Burma. While our goals in Burma remain the same as 
before, the policy review confirmed that we need additional 
tools to augment those that we had been using in pursuit of our 
objectives. A policy of pragmatic engagement with the Burmese 
authorities holds the best hope for advancing our goals.
    A central element of this approach is a direct senior-level 
dialogue with representatives of the Burmese leadership. 
Through a direct dialogue we will be able to test the 
intentions of the Burmese leadership and the sincerity of their 
expressed interest in a more positive relationship with the 
United States.
    The way forward will be clearly tied to concrete actions, 
on the ground and in the surrounding region, on the part of the 
Burmese leadership addressing our core concerns, particularly 
in the areas of democracy and human rights. In that respect, 
Senator, I'd like to associate myself with the statement that 
you have just made. We will work to ensure that the Burmese 
leaders have an absolutely clear understanding of our goals for 
this dialogue and the core issues in our agenda.
    An improved United States-Burma relationship will require 
real progress on democracy and human rights. We will continue 
to press for the unconditional release of Aung San Suu Kyi and 
all political prisoners, an end to conflicts with ethnic 
minority groups, accountability of those responsible for human 
rights violations, and the initiation of a genuine dialogue 
among the Burmese Government, the democratic opposition, and 
the ethnic minorities on a shared vision for the way forward in 
Burma. This last issue is critical, since only the Burmese 
people themselves can determine the future of their country. 
Our intent is to use our dialogue with the Burmese authorities 
to facilitate that process. Only if the Government of Burma 
makes progress toward these goals will it be possible to 
improve our bilateral relationship in a step-by-step process.
    Now, it's important to understand what recent steps have 
been taken. We held our first meeting with Burmese authorities 
in New York yesterday. I led the U.S. delegation along with 
Scot Marciel, my excellent deputy, and our team. And my 
counterpart on the Burmese side was U Thaung, the Burmese 
Minister for Science and Technology, and, as many of you know, 
the former Ambassador to the United Nations. The Burmese 
permanent representative to the United Nations also 
participated in the discussion, as well as a few other 
individuals who came in specially from the capital for these 
sessions. These were substantive talks over several hours that 
lasted into the evening. We laid out very clearly our views, 
and I stressed to U Thaung that this is an opportunity for 
Burma, if it is ready to move forward.
    This was an introductory meeting, I want to underscore 
that. It will take more than a single conversation to resolve 
our differences, and we have not yet scheduled a second 
session, and no decisions have been made about venue or level 
for the next set of talks. And we will keep you informed as 
this process moves ahead. Already, after about 16 hours since 
the conclusion of these discussions, I've had many people ask 
me the question, ``Now, what are you going to do when these 
talks fail?'' I would simply say, we're at the very early 
stages of this. Let's give this at least a little bit of a 
chance, going forward.
    In parallel to the dialogue on our core democracy, human 
rights, and nonproliferation concerns, we hope to identify some 
initial positive steps the Burmese could take in other areas 
that would help build momentum in the talks and could 
potentially allow the United States to respond in an 
appropriate manner. There are a number of areas in which we've 
had a tentative discussion. We might be able to improve 
cooperation to our mutual benefit, such as in the area of 
counternarcotics, health issues, environmental protection, the 
recovery of World War II Missing-in-Action remains, and the 
potential provision of humanitarian assistance.
    Our dialogue with Burma will supplement, rather than 
replace, the sanctions regime that has been at the center of 
our Burma policy for many years. Lifting or easing sanctions at 
the outset of a dialogue, without meaningful progress on our 
concerns, would be a mistake, and would send the wrong message. 
We will maintain our existing sanctions until we see concrete 
progress, and continue to work with the international community 
to ensure that those sanctions are effectively coordinated. We 
believe any easing of sanctions now would send the wrong signal 
to those who have been striving for so many years for democracy 
and progress in Burma, to our partners in the region and 
elsewhere, and to the Burmese leadership itself.
    Through our dialogue we also will make clear to the Burmese 
leadership that relations with the United States can only be 
improved in a step-by-step process if the Burmese Government 
takes meaningful actions that address our core concerns. 
Moreover, we will reserve the option of tightening sanctions on 
the regime and its supporters to respond to events in Burma.
    I also want to underscore a point that you have made, 
Senator, on several occasions. We need to step up our dialogue, 
not only with our partners in Southeast Asia, but other 
countries who are deeply involved, both economically and 
politically, inside the country. We've already begun that 
process with Japan, and I think you will see, over the course 
of the next several months, a deeper dialogue with both China 
and India, to get a greater sense of what their goals and 
aspirations are in Burma, going forward.
    Senator, these are the essentials of our approach. We are 
at the very earliest stages, and I look forward to answering 
any questions. And again, I want to commit to you and the 
staffs that are here that we will work as hard as possible to 
consult at every level before an engagement, during, and after.
    And thank you for the opportunity to appear before you 
today.
    [The prepared statement of Mr. Campbell follows:]

  Prepared Statement of Kurt Campbell, Assistant Secretary of State, 
  Bureau of East Asian and Pacific Affairs, U.S. Department of State, 
                             Washington, DC

    Mr. Chairman, Senator Inhofe, and members of the subcommittee, 
thank you for inviting me here today to testify about U.S. policy 
toward Burma and a possible new direction for United States-Burma 
relations.
    Let me take this opportunity to brief you on the overarching 
assessments that helped shape our review. The administration launched a 
review of our Burma policy 7 months ago, recognizing that political and 
humanitarian conditions in Burma were deplorable. Neither sanctions nor 
engagement, implemented alone, have succeeded in improving those 
conditions and moving Burma forward on a path to democratic reform.
    Moreover, it was clear to us that the problems Burma presents, not 
only to its people, but to its neighbors, the wider region and the 
world at large, demand that we review and reconsider our approach. In 
addition to taking a hard look at the current situation inside Burma, 
we also focused on emerging questions and concerns regarding Burma's 
relationship with North Korea, particularly in light of the passage of 
U.N. Security Council Resolution 1874, which prohibits Member States 
from engaging in trade with North Korea in virtually all conventional 
weapons as well as in sensitive technologies, including those related 
to ballistic missiles and nuclear and other WMD programs.
    Our policy review also was informed by the fact that, for the first 
time in recent memory, the Burmese leadership has shown an active 
interest in engaging with the United States. But, let me be clear: We 
have decided to engage with Burma because we believe it is in our 
interest to do so.
    We have consulted widely throughout the review process with 
Congress, other governments, and key stakeholders such as 
nongovernmental organizations, business leaders, academics, and 
representatives of international organizations. We also have consulted 
with the National League for Democracy and other democratic activists 
inside Burma.
    The conclusions of our policy review, just announced this week, 
reaffirmed our fundamental interests in Burma: We support a unified, 
peaceful, prosperous, and democratic Burma. While our goals in Burma 
remain the same as before, the policy review confirmed that we need 
additional tools to augment those that we have been using in pursuit of 
our objectives. A policy of pragmatic engagement with the Burmese 
authorities holds the best hope for advancing our goals. A central 
element of this approach is a direct, senior-level dialogue with 
representatives of the Burmese leadership. As the Secretary previewed 
in her remarks to the Friends of Burma last week, we hope a dialogue 
with the Burmese regime will lay out a path forward toward change in 
Burma and a better, more productive bilateral relationship.
    Through a direct dialogue, we will be able to test the intentions 
of the Burmese leadership and the sincerity of their expressed interest 
in a more positive relationship with the United States. The way forward 
will be clearly tied to concrete actions on the part of the Burmese 
leadership addressing our core concerns, particularly in the areas of 
democracy and human rights.
    We will also discuss our proliferation concerns and Burma's close 
military relationship with North Korea. Burma has said it is committed 
to comply fully with U.N. Security Council Resolutions 1718 and 1874. 
Nevertheless, we remain concerned about the nature and extent of 
Burma's ties with North Korea. Full and transparent implementation of 
these resolutions is critical to global peace and security, and we will 
be looking to the Burmese authorities to deliver on their commitments.
    We expect engagement with Burma to be a long, slow, and step-by-
step process. We will not judge the success of our efforts at pragmatic 
engagement by the results of a handful of meetings. Engagement for its 
own sake is obviously not a goal for U.S. policy, but we recognize that 
achieving meaningful change in Burma will take time.
    We will work to ensure that the Burmese leaders have an absolutely 
clear understanding of our goals for this dialogue and the core issues 
on our agenda. A fundamentally different United States-Burma 
relationship will require real progress on democracy and human rights. 
We will continue to press for the unconditional release of Aung San Suu 
Kyi and all political prisoners; an end to conflicts with ethnic 
minority groups; accountability of those responsible for human rights 
violations; and the initiation of a genuine dialogue among the Burmese 
Government, the democratic opposition, and the ethnic minorities on a 
shared vision for the way forward in Burma. This last issue is 
critical, since only the Burmese people themselves can determine the 
future of their country. Our intent is to use our dialogue with the 
Burmese authorities to facilitate that process. Only if the Government 
of Burma makes progress toward these goals will it be possible to 
improve our bilateral relationship in a step-by-step process.
    In parallel to the dialogue on our core democracy, human rights, 
and nonproliferation concerns, we hope to identity some initial 
positive steps the Burmese could take in other areas that would help 
build momentum in the talks and could potentially allow the United 
States to respond in an appropriate manner. There are a number of areas 
in which we might be able improve cooperation to our mutual benefit, 
such as counternarcotics, health, environmental protection, and the 
recovery of World War II-era Missing-in-Action remains.
    Our dialogue with Burma will supplement rather than replace the 
sanctions regime that has been at the center of our Burma policy for 
many years. Lifting or easing sanctions at the outset of a dialogue 
without meaningful progress on our concerns would be a mistake. We will 
maintain our existing sanctions until we see concrete progress, and 
continue to work with the international community to ensure that those 
sanctions are effectively coordinated. We believe any easing of 
sanctions now would send the wrong signal to those who have been 
striving for so many years for democracy in Burma, to our partners in 
the region and elsewhere, and to the Burmese leadership itself. Through 
our dialogue, we also will make clear to the Burmese leadership that 
relations with the United States can only be improved in a step-by-step 
process if the Burmese Government takes meaningful actions that address 
our core concerns. Moreover, we will reserve the option of tightening 
sanctions on the regime and its supporters to respond to events in 
Burma.
    Some argue that sanctions should be lifted immediately because they 
hurt the people of Burma without effectively pressuring the regime. 
U.S. sanctions, implemented after the crackdown that began in September 
2007, have been ``targeted''--aimed not at the people of Burma but at 
the military leadership, its networks and state-owned companies, and 
the wealthy cronies that support the government often through illicit 
activities. It is also important to keep in mind the nature of the 
country's economic system. Decades of economic mismanagement by Burma's 
military leadership have resulted in high inflation, endemic 
corruption, and poor regulation, which have stifled broad-based 
economic growth. Burma had an unfriendly business environment well 
before the imposition of sanctions by the United States, the European 
Union, Canada, and others. The country will continue to be an 
inhospitable place to invest unless the government introduces serious 
reforms, rule of law, and good governance. We believe that opening up 
Burma to the outside world can benefit the forces of change working for 
a better future for the people of this troubled country.
    Our commitment to the Burmese people is unwavering. We will 
continue to address the urgent humanitarian needs of the population by 
expanding our assistance efforts in a manner designed to help those 
most in need without bolstering the regime. We know it can be done. In 
the wake of Cyclone Nargis, the U.S. Government provided nearly $75 
million in aid to the victims of the cyclone through responsible and 
effective international NGO partners. We also have broadly licensed 
financial support of not-for-profit humanitarian activities in Burma, 
and continue to take care to ensure that U.S. sanctions do not impede 
humanitarian activities by NGOs.
    Regarding the elections that the Burmese regime plans to hold in 
2010, we need to assess the conditions under which the elections will 
be held and determine whether opposition and ethnic groups will be able 
to participate fully. We do not yet know the date of the elections; the 
authorities also have not published the election laws. Given the way in 
which the Burmese Government conducted its referendum on a new 
Constitution in the immediate aftermath of Cyclone Nargis, we are 
skeptical that the elections will be either free or fair. We will 
continue to stress to the Burmese authorities the baseline conditions 
that we consider necessary for any credible electoral process. They 
include the release of political prisoners, the ability of all 
stakeholders to stand for election, eliminating restrictions on media, 
and ensuring a free and open campaign.
    We will emphasize, and ask that others do the same, that the 2010 
elections will only bring legitimacy and stability to the country to 
the extent that they are broad-based and include all key stakeholders. 
This is why it is crucial for the regime to begin an internal dialogue 
now with democratic opposition leaders and representatives of the 
ethnic minorities. It is only through dialogue that the conditions can 
be established for all of Burma's political forces to participate. We 
also intend to remain engaged with the democratic opposition to ensure 
that our engagement with the regime is not at cross purposes with their 
own objectives.
    We recognize that we alone cannot promote change in Burma. We will 
need to work with friends and partners to achieve our goals, including 
stepped up dialogue and interactions with countries such as China and 
India that have traditionally close relationships with Burma's military 
leaders. We will continue to coordinate closely as well with ASEAN, the 
EU, Australia, Canada, Japan, and other actors such as the U.N. to 
reinforce our fundamental message on reform to the Burmese regime. We 
will work with our partners to encourage Burma to be more open and to 
promote new thinking and new ideas.
    Although we hope to initiate these efforts immediately, we are 
realistic about our expectations. We must be prepared to sustain our 
efforts beyond the planned 2010 elections. Some day a new generation of 
leaders in Burma will come to power. If the country is more open to the 
outside world we can hope to influence that transition and encourage 
Burma's leaders to take a more positive, constructive, and inclusive 
path. The process of dialogue itself should give us greater insight 
into the thinking of Burma's political leadership and offer 
opportunities to influence the way in which they look at the world. 
Pressing for greater openness and exposure to new ideas and new 
thinking, particularly among members of the up-and-coming generation of 
leaders is likely, in the long run, to be the most effective means of 
encouraging change in Burma.
    Thank you for extending this opportunity to me to testify today on 
this pressing and vitally important issue. I welcome any questions you 
may have.

    Senator Webb. Thank you very much for that summary of your 
testimony, Secretary Campbell.
    Before I go into questions, let me first say that there are 
a number of other Senators who have indicated an interest in 
submitting statements for the record. The record will be open 
for 24 hours following the closing of this hearing for any 
other member who wishes to submit a statement.
    And I also should say that we've had an extraordinary 
amount of interest outside of the Congress in this hearing, and 
in this issue, and there are, at the moment, eight additional 
statements from the record from individuals and groups who had 
communicated with us and asked that their statements be part of 
this hearing record: Mr. Min Zaw Oo; the International Crisis 
Group; a long open letter from a number of nongovernmental 
organizations; Mr. Thet Win, U.S. Collection Humanitarian 
Corps; Dr. Chris Beyrer, director of the Center for Public 
Health and Human Rights at Johns Hopkins; USA Engage; the 
National Bureau of Asia Research; and U.S.-ASEAN Business 
Council; Thihan Myo Nyun, who submitted a very lengthy Law 
Review article on the impact of sanctions. All of these 
statements will be included in the record.

[Editor's note.--The Law Review article, which was too 
voluminous to include in the printed hearing, will be 
maintained in the permanent record of the committee. The 
remaining articles also mentioned above can be found in the 
``Additional Material Submitted for the Record'' section 
starting on page 52.]

    Senator Webb. And, as a courtesy to others who are here 
today, if there are statements that other groups or individuals 
wish to have included in the record, we'll have a 24-hour 
period where you can also submit statements through the 
committee and through our staff.
    Secretary Campbell, I'm going to read an excerpt from a 
letter--and I'm going to read it also to our panel, when they 
come--that was sent to me by Mr. Kent Wiedemann, who was the 
chief of the American Embassy in Rangoon in the late 1990s, was 
also at one point our Ambassador to Cambodia, and also Deputy 
Assistant Secretary of State for East Asia and Pacific Affairs. 
He sent me this letter upon my return from my Southeast Asian 
visit. And I'm going to read a couple of sentences out of this 
letter, and I'd like to get your thoughts, or the thoughts of 
the administration, on this.
    He said, ``I frequently met with Aung San Suu Kyi during my 
service from 1996 to 1999. Her aim was to form a transitional 
coalition government with the military as a first step toward 
eventual democracy. At her request, I conveyed that message to 
the SPDC senior leaders. I also relayed Suu Kyi's pledge to 
eschew any punitive legal action against them if agreements 
were reached on a political transition. Suu Kyi saw the United 
States and other international sanctions as tactical tools to 
draw the SPDC into a dialogue. U.S.-based human rights 
activists did not accept Suu Kyi's vision for political 
compromise. Instead they saw sanctions as weapons to force 
regime change. I believe that our escalation of pressure on the 
regime did much harm and little good.''
    Do you have a reaction to his observation?
    Mr. Campbell. Well, there are many sentiments reflected in 
Kent's letter. In addition to the service that you indicated, 
he also served as the Deputy Assistant Secretary of Defense, 
and I had the honor to succeed him in that job at the Pentagon. 
He's a very fine officer.
    I don't know, Senator, if I'd like to comment directly 
about what his particular views are at that juncture, but I 
think I can say a little bit about what we would expect, going 
forward.
    In our deliberations and our discussions with 
interlocutors, we've been very clear that we'd like to see an 
enhanced dialogue on a range of issues. On the 2010 elections, 
as you know Aung San Suu Kyi has, in a recent letter, indicated 
a desire to begin dialogue on sanctions. We'd like to see her 
have the opportunity to interact more freely with visitors, 
both outside of the country, like yourself, but also members of 
her own party and other groups inside Burma, and more dialogue 
between the government and herself. And we think that this is 
an appropriate next step, in terms of domestic developments 
inside the country. And we've communicated that very clearly to 
our interlocutors.
    The issues of sanctions is more complicated. I don't 
pretend to know what Aung San Suu Kyi really believes about 
sanctions in the current situation, because there's been so 
little discussion in dialogue with her. I am struck, however, 
that she has indicated that she's prepared to have a dialogue 
about sanctions, going forward.
    I would simply say that the point that you have made, and 
that Secretary Clinton has made in recent months, is that the 
sanctions effort, while providing an inconvenience in many 
respects to the regime--and there are areas that they can be 
very effective--in the overall context, has been unsuccessful 
in accomplishing the goals that, really, all of us have, vis-a-
vis Burma. We've seen a substantial increase in investment from 
China, from India, from other countries in Southeast Asia, from 
Europe, and from Japan. And so, the fact remains that the 
American sanctions, the U.S. sanctions, are an important tool 
at this juncture, but I think we fully recognize the 
limitations of that overall approach.
    I must also say that from a variety of, I think, respected 
sources, including the IMF studies, some of the observations of 
key players in our own Embassy, and other economic observers 
who've traveled and spent a lot of time inside the country, I 
think there is a view that some of the problems--in fact, a 
substantial component of the problems that Burma faces 
economically--are a result of, really, tragic mismanagement of 
the economy by the regime, and that any process that's forward-
looking over a period of years will involve not only political 
reform, but economic reform. And that kind of process will 
indeed involve a more intense engagement of the international 
community, moving forward.
    Senator Webb. Thank you for that. And I would also add, in 
terms of being careful about characterizing the comments of 
Aung San Suu Kyi, I fully agree with you. It was a situation 
that I faced----
    Mr. Campbell. Yes.
    Senator Webb [continuing]. After my meeting with her, when 
I was asked, in the media, to give her assessments on a number 
of areas, including sanctions; and out of respect for her 
inability to openly answer, I declined to do that.
    However, in the past week or so she has issued a statement, 
apparently written with the cooperation of one of her advisers, 
that in some form apparently supports the administration's new 
approach, and also has indicated a willingness to discuss 
cooperation with this regime, in terms of ways to address the 
sanctions issue. Do you have any, or does the administration 
have any, specific knowledge of what her statement----
    Mr. Campbell. Yes. And----
    Senator Webb [continuing]. Implies?
    Mr. Campbell. That's what I was referring to, Senator. We 
have seen at least purported copies of this that have been 
discussed. I think they do suggest, as you indicated, that this 
is a critical time, there are a lot of pieces that are now in 
motion that have not been in motion for some time. There is--
from our discussions yesterday--I wouldn't want to characterize 
them--certainly no breakthroughs, but a very clear 
determination that dialogue was possible on the side of Burma. 
I think the United States--we prepared intensively, we laid out 
what our goals were and how we would want to go about a 
dialogue. We've seen your trip, we've seen some other 
interactions with the United Nations, we've seen some steps at 
the Friends of Burma meeting last week at the United Nations, 
and we've seen Aung San Suu Kyi write this letter that, I 
think, does indicate a desire to move forward, to work in a 
constructive dialogue, not only with the international 
community, but with the government and other elements inside 
her country.
    And I must say, I think the point that she has made, that 
we think we understand, is that she welcomes the U.S. approach, 
but she believes that there should be a parallel dialogue with 
the opposition. And we support that. And indeed, if and when a 
team or a group goes, at some point in the future, from the 
executive branch, we would expect to have access and the 
opportunity to have a dialogue along the lines that she has set 
forward.
    Senator Webb. What is the view of the administration with 
respect to the elections process, the constitution, and the 
potential timing of implementing legislation, and the timing of 
the elections following the implementing legislation?
    Mr. Campbell. Yes. I think, as you've seen, Senator--you've 
closely scrutinized our statements, and watched carefully--
we've tried to indicate that we're really taking a measured 
approach at this juncture. We think there needs to be much 
greater clarity on behalf of the government about what their 
expectations are. They've been very unclear about certain 
aspects and manifestations of the 2010 elections.
    There is a clear desire for a greater dialogue inside the 
country. One of the things that we heard during the process of 
consultations is that there obviously is great distrust from 
some of the opposition groups and ethnic groups about this 
coming election--they viewed the referendum as being 
illegitimate--and that concerns were that, unless some 
significant changes were made in the constitution, that this 
would follow on in a similar path.
    I think right now what's important for the United States--
although we have our reservations, and we've stated those very 
clearly--but, in the current environment, we think much more 
dialogue and discussion inside the country is an essential 
first step. And even then it's not clear where we will end up. 
We communicated yesterday in our interactions that that was our 
view, that such a dialogue was of critical importance, and 
that, if it were implemented like the referendum, that, in 
fact, it would get virtually no international support or 
recognition.
    Senator Webb. What is the administration's view, in terms 
of the role of China in this process? And what would be the 
incentive for China to encourage a more open and democratic 
society in Burma?
    Mr. Campbell. Senator, that's a great question. And again, 
you're a person who focuses closely on Asian developments.
    It's hard, in the current environment, to put yourself in 
the leader's shoes in Beijing, but I would simply say that, 
looking into the future, you have several countries on China's 
periphery, on its direct borders, that face very worrisome 
futures. I mean, you pointed out the tortured history of Burma; 
ethnic divisions accentuated by British Colonial rule, lots of 
challenges there in recent decades; a nuclear-inspired North 
Korea; questions about long-term leadership issues; problems in 
Pakistan. And so, you've got many countries directly on their 
border that confront the prospect of profound internal 
instability. And we think that, at some level, China has an 
interest in a process inside the country that leads to greater 
stability, some greater openness, and greater transparency.
    We are not naive. There are limits to that. But, clearly on 
the current path, there are very real concerns about Burma's 
future.
    At the same time, I think a dialogue can be important in 
many respects. A dialogue can be important because it can 
remind a country that another country has a strong interest in 
a region. And I think the truth is that the United States has 
to step up its game, generally, in Asia, and particularly in 
Southeast Asia. And so, a dialogue with both China and India, I 
think, can yield greater information about the goals, 
assessments, and general plans of both governments.
    I am struck, Senator, just over the course of the last 
several months being deeply involved in this, because of the 
lack of dialogue, because in many respects of the lack of 
engagement in certain areas, our level of knowledge and 
dialogue is quite limited. And I think one of the goals of this 
process, going forward, is to get a much more granular sense of 
developments, both inside Burma, but in the surrounding region. 
I myself am one that believes that, in many respects, the 
Indian Ocean region is going to be of dynamic importance in the 
future, and knowing more is going to be a critical component of 
what we need to do in the future.
    Senator Webb. It's also going to be a critical component of 
what China does in the future.
    Mr. Campbell. I agree with that.
    Senator Webb. Would you see any particular incentive on the 
part of China, in terms of the economic advantage that it now 
has in Burma, if the situation were to change?
    Mr. Campbell. You know, it's probably too early to tell. 
We've really not had--our discussions to date at the highest 
level, Senator, with China, on regional issues, have focused 
more on North Korea, Iran, and Pakistan and Afghanistan. I 
think we're at the very early stages of a higher level 
dialogue, and one of the things that I would commit to the 
staff is that, as this process develops--I plan to go to China 
in the next 2 weeks to begin that process--I will report on 
what I hear back and what I think.
    If you look at the statements that have come out of the 
Foreign Ministry in the last couple of days, I think they'd 
be--about this process of engagement--I would say that they are 
measured. I think that there's a cautious welcoming of a 
dialogue. And a statement on the part of Chinese officials that 
their own view that sanctions are unhelpful will test some of 
those propositions in a direct dialogue with them over the 
course of the coming months.
    Senator Webb. I'll look forward to continuing that dialogue 
here on the subcommittee, as well.
    Do you know how much assistance the United States currently 
provides directly to Burma?
    Mr. Campbell. I know that we provided, during--in the 
immediate aftermath of the cyclone, about $75 million. We 
provide substantial assistance to the border areas. In fact, 
that, in many respects, is a part of a very strong 
congressional commitment, in Thailand in particular, to 
refugees, to civil resettlement issues, and to some 
humanitarian assistance.
    Senator, I would have to get back to you directly with the 
total amount of assistance that is given beyond what has been 
provided in the aftermath of cyclone.
    Senator Webb. One of the statements that was given to us to 
be made a part of the record is from an individual, who is a 
Burmese exile, who has written in great detail about possible 
movements in the future. And, in essence, one of the comments 
that was made is that the United States should reconsider 
funding priorities out of the economic support fund, his 
comment, ``a significant portion of which is usually channeled 
to assist exile groups conducting covert operations inside the 
country.''
    Do we have any knowledge of that?
    Mr. Campbell. We do provide--and I think, again, Congress 
has really played a leadership role--we have provided 
substantial support for displaced groups, individuals, and 
ethnic communities along the Thai border, and that has gone on 
for decades.
    And on the subsequent question that you asked, I think 
probably another forum would be better to address that 
particular issue.
    Senator Webb. All right. We'll pursue that in another 
forum, you and I.
    Does the administration have any position on the activities 
of other entities inside the country that are conducting 
military or quasi-military operations against the existing 
government right now?
    Mr. Campbell. I think we've stated very clearly our goals 
for Burma: A peaceful, democratic, stable government. And in 
our direct dialogue, we've made very clear that the United 
States has no military ambitions or objectives of any kind 
inside the country. I think sometimes, as you know, we hear, 
from their senior leadership, a sense that they are encircled, 
that the United States is planning offensive operations against 
them, and I think part of this dialogue would be to make very 
clear that there's no such thinking inside the U.S. Government.
    Senator Webb. Well, I appreciate your saying that for the 
record. I think that's something we do need to make sure that's 
being said as we pursue this process.
    My question was really relating to the different ethnic 
groups inside the country, and the level of opposition that 
might still exist to the current government.
    Mr. Campbell. Well, our longstanding policy, and statements 
generally, make clear our strong criticism of military actions 
against ethnic groups inside Burma. There are many, as you have 
underscored, Senator. Many of them are extraordinarily well 
armed and have had almost, in some respects, a semiautonomous 
existence for decades. We think that the best approach, going 
forward, is a process of internal dialogue. We recognize that 
such a process is fraught--extraordinarily difficult, and we 
believe that some initial steps are going to be necessary in 
order to bring that about.
    Senator Webb. You also made a point on Monday, and then 
again today, regarding the concern that Burma comply with its 
international nonproliferation obligations, particularly in 
regard to North Korea. Do we have any indication that Burma is 
noncompliant with these obligations?
    Mr. Campbell. Let me answer in two parts to that question, 
Senator. The first part--the first part is, in greater detail, 
we can talk about this in another venue, like the previous 
question.
    However, I can say this. I think, as we've talked about 
privately, Senator Clinton underscored in her comments at the 
ASEAN regional forum that we have seen some steps between North 
Korea and Burma that concern us, both in the provision of small 
arms and other military equipment, and there are some signs 
that that cooperation has extended into areas that would be 
prohibited by U.N. Resolution 1874. And one of the 
inspirations, and one of the goals, of this dialogue between 
the United States and Burma is to make very clear what our 
expectations are in this respect.
    It is also the case that one of the ships that we think was 
bound for Burma in the July timeframe was turned back to North 
Korea, and we think that the government played a role in that. 
And that's the kind of action that we would like to see 
replicated in many other areas.
    This is one of those areas, Senator, where I don't think 
there is conclusive evidence, but there is concern. And we will 
want to be following up on that closely. In our discussions 
with most of our regional partners, particularly Thailand, this 
is clearly an area that they would like greater transparency on 
from their next-door neighbors.
    Senator Webb. Does our State Department have indications 
that the NLD and other opposition groups are prepared to 
support the elections process?
    Mr. Campbell. I think that probably is--that goes too far, 
Senator. I think what we have are indications that they are 
prepared to sit down immediately in a dialogue about the 
elections, which, frankly, we think is an important first step, 
and an absolutely essential first step. And that would be 
something that we would seek to facilitate.
    Senator Webb. Along those lines, if the government itself 
were to request technical and other assistance with respect to 
the elections, is the State Department prepared to provide 
that?
    Mr. Campbell. I think it's premature at this juncture; but, 
under the right circumstances, we would consider it.
    Senator Webb. Secretary Campbell, thank you very much for 
your testimony today, I----
    Mr. Campbell. Thank you, Senator.
    Senator Webb [continuing]. Think it's been very valuable, 
and we'll look forward to----
    Mr. Campbell. Yes.
    Senator Webb [continuing]. Discussing a couple of these 
other----
    Mr. Campbell. Yes.
    Senator Webb [continuing]. Matters, and we'll continue to 
be very interested in hearing them.
    Mr. Campbell. And I stand ready to do that, and I do want 
to commit again that we will work as closely as humanly 
possible with you, other members of the community, and the 
staff, as we proceed ahead.
    Senator Webb. And I want to emphasize something that I know 
you are aware of, and that's my great concern about the impact 
of China in this country, and how it directly relates to the 
national interest of the United States. And I would be very 
interested in hearing your views once you return from your trip 
to China.
    Thank you very much for testifying today.
    Mr. Campbell. Thank you. Thank you very much, it's good to 
see you again. Thank you.
    Senator Webb. We'll now hear from our second panel. And 
before I introduce them, I'd like to point out that Senator 
Boxer has asked that a statement be entered into the record, 
and it will be entered into the record at this point.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California

    Mr. Chairman, thank you for holding this important hearing today. I 
am very pleased that the Obama administration has concluded a 
comprehensive review of its policy toward Burma.
    According to statements from administration officials, the new U.S. 
policy toward Burma will leave in place existing sanctions until the 
Burmese Government makes significant progress on democratic reforms. 
But it will also focus on engagement with the Burmese authorities.
    I support engagement with the Burmese Government, because I agree 
with Secretary Clinton that sanctions alone ``have not produced the 
results that had been hoped for on behalf of the people of Burma.''
    But what I do not support--and I say this is in the strongest 
possible terms--is a single dollar going to enrich the Burmese junta.
    General Than Shwe and the junta have done nothing but brutalize, 
silence, and repress the people of Burma in the nearly two decades 
since Aung San Suu Kyi and her National League for Democracy Party were 
democratically elected to lead the country in 1990. The junta went so 
far as to significantly delay the delivery of humanitarian assistance 
in the wake of Cyclone Nargis.
    I, like many others, have watched in dismay as the Burmese 
Government has targeted Buddhist monks and nuns, labor leaders, 
democracy activists, journalists, artists, and many others for simply 
speaking their minds and voicing their opinions.
    Just 2 weeks ago, Human Rights Watch released a report entitled 
``Burma's Forgotten Prisoners,'' which highlights the nearly 2,100 
political prisoners languishing in Burma's jails for committing such 
``crimes'' as peacefully expressing political views, associating with 
others, and forming independent organizations.
    Many were sentenced to decades in prison, and a few were even given 
sentences of more than 100 years. And just last month, Aung San Suu Kyi 
was sentenced to 18 additional months of house arrest--despite already 
serving 14 out of the past 20 years in confinement.
    This is simply unacceptable.
    Recently, the Burmese Government has indicated a desire to engage 
with the West, and that it will hold multiparty elections next year.
    But simply holding elections does not constitute a democracy.
    In a recent meeting with the Burmese Prime Minister, U.N. Secretary 
General Ban Ki-moon made clear that elections must be ``credible and 
inclusive.'' He also made it clear that this can only occur with the 
release of Burma's political prisoners, including Aung San Suu Kyi. I 
could not agree more.
    We must be vigilant in our efforts to ensure that any elections are 
free, fair, and fully representative of the Burmese people.
    I hope that the administration's new policy of engagement is 
successful. I hope we are closer to the day when the Burmese people can 
be free. And I look forward to continuing to work with my colleagues on 
this most important issue.
    Thank you.

    Senator Webb. And with that being said, I'm very pleased to 
welcome Dr. Thant Myint-U, Dr. David Steinberg, and Professor 
David Williams to this hearing.
    Dr. Myint-U is a historian, a former United Nations 
official. Following the 1988 prodemocracy uprising in Burma, he 
assisted Burmese refugees and asylum-seekers along the Thai-
Burma border. He then spent 2 years in Washington, in part 
working on Burma issues for Human Rights Watch and the U.S. 
Committee for Refugees. Dr. Myint-U has served in three United 
Nations peacekeeping operations, in Cambodia, the former 
Yugoslavia, and Bosnia and Herzegovina.
    Moreover, in 2000 he joined the U.N. Secretariat in New 
York, first with the Office of Coordination of Humanitarian 
Affairs, and then with the United Nations Department of 
Political Affairs, in 2004 becoming head of the policy planning 
unit in that department. He has received a number of research 
fellowships, is currently a visiting fellow at the Institute 
for Southeast Asia Studies in Singapore. He's the author of the 
best-selling, critically acclaimed, ``The River of Lost 
Footsteps,'' a personal history of Burma. And Dr. Myint-U has 
been kind enough to travel from Bangkok to participate in this 
hearing.
    We're very pleased to have you, Doctor.
    Dr. David Steinberg is a specialist on Burma, North Korea, 
and South Korea, Southeast Asia, and American policy in Asia. 
He's distinguished professor of Asian Studies at Georgetown 
University. From 1958 to 1962, Dr. Steinberg lived in Burma and 
worked for the Asia Foundation. He's also served as a member of 
the Senior Foreign Service; he was a director for technical 
assistance in Asia and the Middle East; director for the 
Philippines, Thailand, and Burma Affairs in USAID. He's the 
author of 13 books and monographs, including ``Turmoil in 
Burma: Contested Legitimacies in Myanmar,'' and ``Burma: The 
State of Myanmar.''
    Dr. Steinberg, a great pleasure to have you with us today.
    Prof. David Williams is the John S. Hastings Professor of 
Law at Indiana University. He has written widely on 
constitutional design, Native American law, the constitutional 
treatment of difference, and the relationship between 
constitutionalism and political violence. He's also the 
coeditor and primary author of ``Designing Federalism in 
Burma,'' which was published in 2005, and is widely read in the 
Burma democracy movement. He's executive director of the Center 
for Constitutional Democracy at Indiana University. Professor 
Williams consults with a number of reform movements abroad; he 
advises many elements of the Burma democracy movement on the 
constitutional future of that country.
    And we thank all of you for joining us today. Your full 
statements will be entered into the record.
    And we'll start with Dr. Myint-U.

   STATEMENT OF DR. THANT MYINT-U, HISTORIAN, SENIOR FELLOW, 
   INSTITUTION FOR SOUTHEAST ASIAN STUDIES, BANGKOK, THAILAND

    Dr. Myint-U. Thank you very much, Senator, for inviting me 
here to participate in the panel.
    I believe very strongly that the policies of the United 
States and other Western governments over the past 20 years 
toward Burma have not worked. They have not been helpful in 
moving the country toward meaningful democratic change, and at 
the same time they have largely neglected the country's 
multiple ethnic and armed conflicts, as well as its pressing 
humanitarian challenges.
    As we move toward a very welcome review and adjustment of 
American policy, I think it's important to reflect on the 
history behind today's challenges, appreciate the critical and 
complex watershed that Burma today faces, and try to identify 
pragmatic ways forward.
    Senator, there's a myth that Burma emerged from British 
rule in 1948 as a peaceful democracy with all the attribute 
necessary for later success, only to fall mysteriously into 
dictatorship and extreme poverty. But, Burma in 1948 was 
actually already at civil war, its economy in ruins. And this 
civil war has continued until today. It is the longest running 
set of armed conflicts anywhere in the world, setting the 
Burmese Army against an amazing array of battlefield opponents, 
from the mujahideen along the former East Pakistan/Bangladesh 
border to Beijing-backed Communist rebels.
    State-building in Burma since then has gone hand in hand 
with warmaking, and the military regime today remains, at its 
core, a counterinsurgency operation. It was designed and built 
up to identify enemies, contain them, and crush them when 
possible. The men in charge may be motivated by desires for 
personal profit and power, but they also believe themselves to 
be patriots holding the country together. And after two 
generations of fighting foreign-backed rebellions, they are 
primed to see foreign conspiracies behind all opposition.
    In 1962, the army overthrew the last elected government, in 
part to pursue its counterinsurgency operations unhindered by 
civilian oversight. It established what it called the Burmese 
Way to Socialism, which nationalized all major businesses, 
expelled the country's Indian merchant class, and sought to 
isolate Burma from the world, banning nearly all international 
aid, trade, and investment. The military state that we knew 
today grew up and consolidated its rule in this self-created 
isolation. It is its default condition.
    These twin legacies--ethnic conflict and international 
isolation--have been instrumental for the consolidation and 
continuation of military rule. Progress toward peace, 
interethnic reconciliation, and the reintegration of Burma into 
the global community are essential if we are going to see any 
sustainable transition to civilian government. Yet, not only 
has there been little focus on these issues, but key 
opportunities in recent years, I believe, have been missed.
    Senator, the early and mid-1990s provided a unique chance 
to move Burma in the right direction. General Ne Win, who was 
the dictator of Burma since 1962, was then old and ailing, and 
a new generation of generals had come to the fore. The Chinese-
backed Communist insurgency had collapsed, and cease-fires were 
agreed between the Burmese Army and more than two dozen 
different insurgent armies. While rejecting democratic reform, 
many in the new leadership wanted to end decades of self-
imposed isolation and move toward a more free-market economy. 
Trade and investment laws were liberalized, and tourism 
encouraged for the first time in decades. Satellite television 
soon brought the world into millions of Burmese households, and 
travel in and out of the country became routine.
    The government sought development assistance from the U.N. 
and the IFIs, but U.S. and international policy should then 
have been to lock in these tentative steps, especially the 
cease-fires and market reforms, rather than ignore them, impose 
sanctions, cut off assistance, and insist on an immediate 
democratic transition.
    I am convinced that had we embraced these changes and used 
them then as opportunities to move toward a just peace, while 
also reconnecting Burma with the world, the democracy movement 
would today be in a far stronger position.
    Senator, I believe that sanctions have not only been 
ineffective in promoting democratic reform, but they have been 
hugely counterproductive in reducing Western influence, 
reinforcing isolationist tendencies, constraining moves toward 
market reforms, and decimating the position of the Burmese 
professional, managerial, and entrepreneurial classes. The last 
generation of U.S. and U.K.-educated technocrats has now 
retired, or is close to retirement, and very few in the 
bureaucracy or universities today have any foreign training. 
The country is in many ways far less prepared for a sustainable 
democratic transition today than it was in the early 1990s.
    We have to remember this: Politics in Burma, like 
everything, else operates on a landscape cultivated by over 60 
years of war and 50 years of military dictatorship. Little will 
change without first transforming that landscape. Focusing on 
regime change at the top will simply not work. Sanctions and 
related divestment campaigns, and campaigns to minimize 
tourism, have drastically reduced chances for the emergence of 
new and outward-looking economic forces. The political economy, 
which has emerged under sanctions, based now on a few 
extractive industries and trade ties with a handful of regional 
countries, has proven particularly easy for the incumbent 
regime to control. Aid restrictions, restrictions on high-level 
contact and travel by senior Burmese officials, and embargoes 
on trade and investment all have had the direct if unintended 
consequence of reinforcing the status quo.
    Senator, I believe that Burma now faces a historic 
watershed, and, whatever happens, I am certain that the next 12 
to 18 months will be the most important time in Burmese 
politics since the failed 1988 uprising.
    The current watershed, I believe, has at least three 
principal components. First is the civil war. Burma's civil war 
may either be nearing an end or entering a new and more violent 
chapter. There still exist more than two dozen distinct ethnic-
based insurgent forces, fielding well over 40,000 troops in 
total. Vast areas of the country, in particular in the north 
and the east, are ruled by a mix of Burmese Army battalions, 
insurgent armies, and local militia.
    Though the cease-fire arrangements between the Burmese Army 
and nearly all insurgent forces remain, many are increasingly 
tenuous. In recent weeks we have seen the oldest of the cease-
fires, the 20-year agreement between the Burmese Army and the 
Kokang militia, break down. The coming months may well see 
successful efforts by the Burmese Army to pressure or persuade 
the various armed groups to accept the new constitutional 
order, but a return to full-scale hostilities, though unlikely, 
is also far from impossible.
    Second is a generational transition within the armed 
forces. Most, if not all, the present army leadership will 
retire in the coming months, to be replaced by officers in 
their late forties and early fifties. This new generation will 
be the first to have risen to senior command without any 
significant combat experience, the first without training in 
the United States, and the first for whom the West, rather than 
China, has been portrayed as their main strategic threat.
    Third is the political transition under the new 
constitution. Entirely new political structures, including 14 
state and regional governments, will be established in 2010, 
under the new constitution. Central power will at least 
nominally be bifurcated between a new and powerful President 
and a new armed forces commander in chief. General elections 
may or may not create an opening for more independent political 
voices, but the transition to a new constitutional setup will 
present, at the very least, a massive shakeup of existing 
systems of power and patronage. We do not know if the 
leadership will be able to manage the transition as they wish; 
2010 may well throw up unexpected dynamics, especially as they 
come at the same time as major changes in the army's top ranks.
    Burma's relationship with her neighbors, in particular 
China, are also changing fast. The migration of hundreds of 
thousands, if not millions, of ethnic Chinese into the country, 
the rapid expansion of Chinese business interests, and the 
construction of huge new infrastructure projects linking Burma 
to southwest China, including a massive Chinese oil pipeline 
designed to transport Middle Eastern and African oil across 
Burma to China's Yunnan province, will have an enormous impact 
on the Burmese economy and society, especially as they take 
place during a period of Western economic withdrawal.
    I have visited Burma often in recent years, at least 10 
times since the beginning of 2007. This is a country where 
political opposition is violently repressed, and where there is 
an obvious desire for greater freedom and government 
accountability. But, it is also a country where there exists an 
increasingly vibrant civil society, a heavily censored but 
largely owned private media, widespread access to satellite 
television, an energetic contemporary music scene, extensive 
religious freedom, and a weak but resilient private sector. 
There are literally hundreds of genuinely independent local 
nongovernmental organizations in Burma today, as well as 
thousands of community-based organizations.
    I say all this not to deemphasize the political repression 
that takes place. This is a country where there is very little 
political freedom and an estimated 2,000 political prisoners of 
conscience. But, outrage itself, I believe, changes very 
little, and to move toward a more results-oriented approach, we 
need to see Burma in all its complexity.
    Senator, I support very much the administration's new 
support for increased humanitarian assistance, and scaling up 
of aid, I believe, should be a top priority. Burma has the 13th 
lowest GDP per capita in the world, and its child mortality 
rate is the second highest rate outside Africa, after 
Afghanistan. The average family spends, today, an estimated 75 
percent of its small income on food. Burma has the highest HIV 
rate in Southeast Asia, and malaria is the leading cause of 
mortality and morbidity. Yet assistance to the Burmese people 
in 2007 was less than 4 U.S. dollars per capita 
internationally. Though this has increased in response to the 
cyclone last year, aid remains the lowest per capita among the 
55 poorest countries in the world. By comparison, Zimbabwe 
received 41 U.S. dollars per capita, and Sudan 55.
    Tens of thousands of people a year literally die from 
treatable diseases. The United Nations, international and 
national NGOs and organizations are all able to deliver aid 
directly to needy people, but funding has fallen far short of 
what is necessary.
    Cyclone Nargis opened up the Irrawaddy Delta to 
unprecedented and almost unlimited access by international 
organizations and INGOs and local NGOs. Almost 4,000 aid 
workers operate there today in over 2,000 villages. Their work 
is significantly strengthening local civil society, yet funding 
for recovery efforts has been only a fraction of what is 
needed. A unique opportunity to help the Burmese people 
directly and support local civil society may be wasted without 
more financial support.
    Senator, though positive change in all areas will have to 
come from the inside, I believe the outside world can make a 
difference in enabling that change and making it sustainable. I 
would suggest, first, that we need to maximize elite exposure. 
Every scenario for political change in Burma depends on at 
least a degree of support from within the military 
establishment. Yet virtually nothing has been done to try to 
influence the mindset of the up-and-coming officer corps, or 
show them that other paths to stability and development exist. 
The isolation of the country's leadership from the rest of the 
world is a key pillar of the status quo, and its removal is 
critical for any lasting political change. Dialogue and 
cooperation on issues of mutual concern, such as disaster risk 
reduction, should be used toward this end.
    Second is to engage in dialogue on economic reform. 
Supporters of sanctions are correct when they say that poverty 
in Burma is not due primarily to sanctions, but to the chronic 
mismanagement of the economy. I favor lifting all economic 
sanctions, but I also favor more robust efforts to press for 
economic and related governance reforms, separate from any 
political agenda. I believe this should start with the removal 
of all restrictions on the U.N. system and the international 
financial institutions, especially the World Bank, in engaging 
the government, including at the highest levels.
    Third, we need not to forget the private sector. 
Humanitarian assistance and all other aid is needed now, but 
Burma is a country rich in natural resources, and situated 
between Asia's emerging economic giants, and should make sure 
it avoids becoming an aid-dependent country. Scaling up 
international assistance makes no sense if at the same time we 
are holding back--we are holding back, through broad economic 
sanctions, the possibilities for private-sector growth. We need 
to shift the debate away from sanctions and toward a practical 
discussion of the kind of trade and investment that would 
actually benefit ordinary people in Burma. U.S. sanctions 
crippled the emerging textile industry and threw 70,000 or more 
people out of work. Removing the ban on imports of garments 
from Burma would be a step, I believe, in the right direction.
    And if there are specific Burmese Government obstacles that 
stand in the way of direct economic engagement with the Burmese 
private sector, beyond a few top cronies, then I believe the 
removal of these obstacles should be at the center of dialogue 
with the Burmese authority.
    Fourth, I think we need to build capacity. No sustainable 
shift from military-to-civilian rule will be possible without 
radically increasing civilian administrative capacity, and 
capacity in society more generally. We cannot underestimate the 
impact that decades of self-imposed isolation and external 
sanctions have had on education standards and technocratic 
skills. Efforts to build capacity through training and 
scholarship should be actively promoted, including through 
international organizations.
    Finally, Senator, nothing I have said should suggest that 
any changes should be made in the long-term aims that we all 
share: a peaceful, prosperous, and democratic Burma. In a 
country as ethnically and culturally diverse as Burma, only 
genuinely liberal democracy with strong local government 
institutions can, I believe, guarantee lasting stability. But--
we should not underestimate the real and practical challenges 
that exist between those aims and the situation today, but 
there can be no grand strategy from the outside, only efforts 
to use and build on opportunities as they come along. And 
seeing those opportunities will depend on being much more 
present on the ground, in direct contact with the Burmese 
people. And that is what I believe a new engagement-oriented 
approach should be all about.
    Thank you.
    [The prepared statement of Dr. Myint-U follows:]

  Prepared Statement of Dr. Thant Myint-U, Historian, Senior Fellow, 
       Institution for Southeast Asian Studies, Bangkok, Thailand

    The policies of the United States and other Western governments 
over the past 20 years toward Burma have failed. They have not been 
helpful in moving the country toward meaningful democratic change and 
at the same time have largely neglected the country's multiple ethnic 
and armed conflicts as well as its pressing humanitarian challenges.
    As we move toward a very welcome review and adjustment of American 
policy, I think it's important to reflect on the history behind today's 
challenges, appreciate the critical and complex watershed Burma now 
faces, and try to identify pragmatic ways forward.
                         war and state-building
    There is a myth that Burma emerged from British rule in 1948 as a 
peaceful democracy with all the attributes necessary for later success, 
only to fall mysteriously into dictatorship and extreme poverty. Burma 
in 1948 was actually already at civil war, its economy in ruins. And 
this civil war has continued until today. It is the longest running set 
of armed conflicts anywhere in the world, setting the Burmese army 
against an amazing array of battlefield opponents--from the mujahedeen 
along the former East Pakistan/Bangladesh border, to remnants of Chiang 
Kai-Shek's Nationalist Army, to drug-lords, to Beijing-backed Communist 
rebels, to Christian-led ethnic Karen insurgents in the jungles near 
Thailand.
    The Burmese army has been in the field uninterrupted for more than 
six decades. For the army, the history of these six decades has been 
the history of their fighting back, to hold the country together, from 
a time when they barely controlled the then-capital Rangoon, to today, 
when they believe they are within reach of a final victory.
    State-building in Burma has gone hand in hand with warmaking. And 
the military regime remains at its core a counterinsurgency operation. 
It was designed and built up to identify enemies, contain them, and 
crush them when possible. The men in charge may be motivated by desires 
for personal power and profit, but they also believe themselves to be 
patriots. And after two generations of fighting foreign-backed 
rebellions, they are primed to see foreign conspiracies behind all 
opposition.
    In 1962, the army overthrew the last elected government, in part to 
pursue its counterinsurgency operations unhindered by civilian 
oversight. It established what it called The Burmese Way to Socialism, 
which nationalized all major businesses, expelled the country's Indian 
merchant class, and sought to isolate Burma from the world, banning 
nearly all international aid, trade, and investment. The military state 
grew up and consolidated its rule in this self-created isolation. It is 
its default condition.
    These twin legacies--ethnic conflict and international isolation--
have been instrumental for the consolidation and continuation of 
military rule. Progress toward peace, interethnic reconciliation, and 
the reintegration of Burma into the global community are essential if 
we are going to see any sustainable transition to civilian government. 
Yet not only has there been little focus on these issues, but key 
opportunities in recent years have been missed.
         the end of burmese socialism and missed opportunities
    The early and mid-1990s provided a unique chance to move Burma in 
the right direction. General Ne Win, dictator of Burma since 1962 was 
old and ailing and a new generation of generals had come to the fore. 
The Chinese-backed Communist insurgency had collapsed and cease-fires 
were agreed between the Burmese army and more than two dozen different 
insurgent forces.
    While rejecting democratic reform, many in the new leadership 
wanted to end decades of self-imposed isolation and move toward a more 
free-market economy. Trade and investment laws were liberalized and 
tourism encouraged for the first time in decades. Satellite television 
soon brought the world into millions of Burmese households and travel 
in and out of the country, both legally and illegally became routine. 
The government sought development assistance from the U.N. and the 
International Financial Institutions. U.S. and international policy 
should have been to lock in these tentative steps, especially the 
cease-fires and market reforms, rather than ignore them, impose 
economic sanctions, cut off assistance, and insist on an immediate 
democratic transition.
    U.S. policy's near singular focus since 1988 on support for the 
democracy movement led by Daw Aung San Suu Kyi is understandable, 
especially given ongoing repression and her party's decisive win in the 
1990 elections. In the early 1990s I was a staunch supporter of the 
toughest approach possible toward the regime and argued for 
comprehensive sanctions. I believe I was wrong and I had changed my 
mind by 1993 when I saw that sanctions were unlikely to ever really 
pressure the regime and were instead impeding the positive momentum 
that was there.
    There was political repression in Burma, but that's been the 
constant since 1962. What was different in the 1990s was the end of 
fighting across the north and northeast and the opening up of the 
economy. I am convinced that had we embraced these changes and used 
them as opportunities to move toward a just peace while also 
reconnecting Burma with the world, the democracy movement would be in a 
far stronger position today.
                       the problem with sanctions
    Sanctions have not only been ineffective in promoting democratic 
reform, they have also been hugely counterproductive in reducing 
Western influence, reinforcing isolationist tendencies, constraining 
moves toward market reforms, and decimating the position of the Burmese 
professional, managerial and entrepreneurial classes. The last 
generation of U.S. and U.K. educated technocrats has now retired or is 
close to retirement, and very few in the bureaucracy or universities 
today have had any foreign training. The country is far less prepared 
for a sustainable democratic transition today than it was in the early 
1990s.
    We have to remember this: Politics in Burma like everything else 
operates on a landscape cultivated by over 60 years of war and nearly 
50 years of military dictatorship. Little will change without first 
transforming that landscape. Focusing on regime-change at the top will 
simply not work. Sanctions and related divestment campaigns and 
campaigns to minimize tourism have drastically reduced chances for the 
emergence of new and outward looking economic forces. The political 
economy which has emerged under sanctions, based now on a few 
extractive industries and trade ties with a handful of regional 
countries, has proven particularly easy for the incumbent regime to 
control. Aid restrictions, restrictions on high-level contacts and 
travel by senior Burmese officials, and embargos on trade and 
investment all have had the direct if unintended consequence of 
reinforcing the status quo. And to say that the government's own 
policies are also to blame do not absolve the role that U.S. and other 
Western sanctions have played in entrenching poverty and engendering a 
political economy that is the antithesis of one that could have thrown 
up positive social change.
    We need also to differentiate between punishment and pressure for 
change. Sanctions may be seen as a form of punishment, in the sense 
that the regime doesn't like them. But sanctions do not constitute 
pressure for change, quite the opposite, they strengthen the hand of 
those who are uninterested in further engagement with the outside world 
and in particular the West. Real pressure comes with increasing the 
regime's international exposure, creating new desires, and placing 
tough options on the table. Having to choose between Western sanctions 
and a handover of power is simple. But with greater international 
exposure, a choice between real policy change and improved governance 
on the one hand or a future as an impoverished dependency of China on 
the other won't be as easy.
                         the present watershed
    Burma now faces a historic watershed, and whatever happens, I am 
certain that the next 12-18 months will be the most important time in 
Burmese politics since the failed 1988 uprising.
    The current watershed has at least three principal components:
    (1) First is the civil war. Burma's civil war may either be nearing 
an end or entering a new and violent chapter. There still exist more 
than two dozen distinct ethnic-based insurgent forces, fielding well 
over 40,000 troops in total. Vast areas of the country, in particular 
in the north and east are ruled by a mix of Burmese army battalions, 
insurgent armies and local militia. Though the cease-fire arrangements 
between the Burmese army and nearly all insurgent forces remain, many 
are increasingly tenuous. In recent weeks we have seen the oldest of 
the cease-fires, the 20-year agreement between the Burmese army and the 
Kokang militia break down. The coming months may well see successful 
efforts by the Burmese army to pressure or persuade the various armed 
groups to transform themselves into quasi-autonomous militia and accept 
the new constitutional order. But a return to full-scale hostilities, 
though unlikely, is also far from impossible.
    (2) Second is the generational transition within the armed forces. 
Most if not all the present army leadership will retire in the coming 
months to be replaced by officers in their late 1940s and early 1950s. 
This new generation will be the first to have risen to senior command 
on the basis of their administrative rather than any significant combat 
experience, the first without training in the United States, and the 
first for whom the West, rather than China, has been portrayed as the 
main strategic threat.
    (3) Third is the political transition under the new Constitution. 
Entirely new political structures, including 14 state and regional 
governments will be established in 2010 under the new Constitution. 
Central power will at least nominally be bifurcated between a new and 
powerful president and a new armed forces commander-in-chief. General 
elections may or may not create an opening for more independent 
political voices, but the transition to the new constitutional setup 
will present at the very least a massive shakeup of existing systems of 
authority and patronage. We do not know if the leadership will be able 
to manage the transition as they wish. 2010 may well throw up 
unexpected new dynamics, especially as they come at the same as major 
changes in the army's top ranks.
    Burma's relationships with her neighbors, in particular China, are 
also changing fast. The migration of hundreds of thousands if not 
millions of ethnic Chinese into the country, the rapid expansion of 
Chinese business interests, and the construction of huge new 
infrastructure projects linking Burma to southwest China, including a 
massive Chinese oil pipeline, designed to transport Middle Eastern and 
African oil across Burma to China's Yunnan province, will have an 
enormous impact on the Burmese economy and society, especially as they 
take place during a period of Western economic withdrawal. Burma is 
already a major exporter of energy to Thailand in the form of natural 
gas. Burma may soon also export large quantities of natural gas to 
China and hydroelectric power to China, India, and Thailand. How well 
and how transparently revenues from energy exports are managed will be 
a key test of any future government.
    On China, we have to remember that the present army leadership grew 
up fighting the Communist Party of Burma, a well-armed Chinese-
supported insurgent force that once threatened huge parts of the 
eastern uplands. There is no love lost between Beijing and Naypyitaw. 
The present leadership rose up the ranks seeing China as their No. 1 
strategic threat and the United States as their ally. Many see their 
present dependence on China as an anomaly, a tactical move that needs 
correction.
    I have visited Burma often in recent years, at least 10 times since 
the beginning of 2007. I've traveled extensively around the country, 
without escort and few restrictions, and have met hundreds of people, 
from senior army officers to dissidents to businessmen to local aid 
workers, including friends and family, some well-off, others struggling 
each day to feed their families. This is a country where political 
opposition is violently repressed and there is an obvious desire for 
greater freedom and government accountability. But it's a also a 
country where there exists an increasingly vibrant civil society, a 
heavily censored but largely privately owned media, with dozens of 
newspapers and magazines, widespread access to satellite television and 
foreign movies, an energetic contemporary music scene, extensive 
religious freedom, and a weak but resilient private sector. There are 
literally hundreds of genuinely independent local nongovernmental 
organizations in Burma today, and thousands of community-based 
organizations, all working to improve living conditions for ordinary 
people, a young country of 55 million, one of the most ethnically 
diverse in the world. I say all this not to deemphasize the political 
repression that exists. Make no mistake--there is little or no 
political freedom in Burma and the continued detention of an estimated 
2,000 prisoners of conscience is rightly seen as unacceptable. But 
outrage alone changes little. And to move toward a more results-
oriented approach we need to see Burma in all its complexity.
    I said that Burma is at a watershed. The cease-fires could collapse 
leading to a new round of interethnic conflict, a new generation of 
generals could emerge hostile to the world as well as their own people, 
and plight of ordinary people could worsen still, even while the rest 
of Asia moves forward. The demise of current leaders could lead to 
elite fracture and even state collapse. Alternatively, if more 
pragmatic views prevail, a freer and more prosperous future may not be 
so far away. The difference will be determined inside the country, but 
I believe that there are key areas where help from the outside will be 
significant, as outlined below.
          the importance of increasing humanitarian assistance
    The administration's support for increased humanitarian assistance 
is extremely welcome and scaling up aid should be a top priority. Burma 
has the 13th lowest per capita GDP in the world and its child mortality 
rate is the second-highest rate outside Africa, after Afghanistan. The 
average family spends an estimated 75 percent of its small income on 
food. Burma has the highest HIV rate in Southeast Asia, and malaria, a 
treatable and preventable disease, is the leading cause of mortality 
and morbidity.
    Yet assistance to the Burmese people in 2007 was less than USD 4 
per capita. Though this has increased in response to last year's 
Cyclone Nargis, aid remains the lowest per capita among the 55 poorest 
countries in the world. By comparison, Zimbabwe receives USD 41 per 
captia and Sudan USD 55. Tens of thousands of people a year die from 
treatable diseases. The United Nations, international and national 
nongovernmental organizations are all able to deliver aid directly to 
needy people. But funding has fallen far short of what is necessary.
    Cyclone Nargis opened up the Irrawaddy Delta to unprecedented and 
almost unlimited access by international organizations and 
international and national nongovernmental organizations. Almost 4,000 
aid workers operate there today in over 2,000 villages. In addition to 
providing life-saving assistance and helping villagers restart their 
lives and livelihoods, their work is significantly strengthening local 
civil society. Yet funding for recovery efforts has been only a 
fraction of what is needed. A unique opportunity to help the Burmese 
people directly and support local civil society may be squandered 
without more financial support.
    In providing humanitarian assistance, I believe very strongly that 
we must put all other agendas aside and simply provide aid as best we 
can to those who require help most and continuously press for access to 
all needy communities. I believe the United States should not only 
significantly increase humanitarian assistance but actively encourage 
other donor governments to do the same.
                            enabling change
    Though positive change in all areas will have to come from within, 
the outside world can make a difference in enabling that change and 
making it sustainable. I would suggest:
    (1) Maximize elite exposure. Every scenario for political change in 
Burma depends on at least a degree of support from within the military 
establishment. Yet virtually nothing has been done to try to influence 
the mind-set of the up and coming officer corps or show them that other 
paths to stability and development exist. The isolation of the 
country's leadership from the rest of the world is a key pillar of the 
status quo, its removal is critical for any lasting political change. 
Dialogue and cooperation on issues of mutual concern--such as disaster 
risk reduction--should be used toward this end.
    (2) Engage in dialogue on economic reform. Supporters of sanctions 
are correct when they say that poverty in Burma is not due primarily to 
sanctions but to the chronic mismanagement of the economy. I favor 
lifting all economic sanctions, but I also favor more robust efforts to 
press for economic and related governance reform, separate from any 
political agenda. This should start with a removal of all restrictions 
on the United Nations system and the International Financial 
Institutions, especially the World Bank in engaging the government, 
including at the highest levels. Efforts to build up the administrative 
capacity necessary to turn the economy around should be supported, not 
hindered. As new ministers take up their positions in 2010, they must 
at least understand the need for more broad-based development, the 
impact of their own policies, and the options for poverty reduction 
going forward.
    (3) Don't forget the private sector. Humanitarian assistance and 
other aid is needed now, but Burma, a country rich in natural resources 
and situated between Asia's emerging economic giants, should make sure 
it avoids becoming an aid-dependent country. Scaling up international 
assistance makes no sense if at the same time we are holding back 
through broad economic sanctions the possibilities for private sector 
growth. We need to shift the debate away from sanctions and toward a 
practical discussion of the kind of trade and investment that would 
most benefit ordinary people. U.S. sanctions crippled the emerging 
textile industry and threw 70,000 or more people out of work. Removing 
the ban on the import of garments from Burma would be a step in the 
right direction. And if there are specific government obstacles that 
stand in the way or direct economic engagement with the Burmese private 
sector (beyond a few top cronies), than the removal of these obstacles 
should be at the center of dialogue with the authorities.
    (4) Build capacity. No sustainable shift from a military to 
civilian rule will be possible without radically increasing civilian 
administrative capacity and capacity in society more generally. We 
cannot underestimate the impact that decades of self-imposed isolation 
and external sanctions have had on education standards and technocratic 
skills. Efforts to build capacity--through training and scholarships--
should be actively promoted, including through international 
organizations.
                           a democratic burma
    Nothing I have said should suggest any changes in the long-term 
aims we all share--a peaceful, prosperous, and democratic Burma. In a 
country as ethnically and culturally diverse as Burma, only a genuinely 
liberal democracy with strong local government institutions can, I 
believe, guarantee lasting stability. A free and economically vibrant 
Burma at Asia's crossroads is a worthy goal. But we should not 
underestimate the real and practical challenges that exist between 
those aims and the situation today. There can be no grand strategy from 
the outside, only efforts to use and build on opportunities as they 
come along. And seeing those opportunities depends on being more 
present on the ground, in direct contact with the Burmese people. This 
is what a new engagement-oriented approach should be all about.

    Senator Webb. Thank you very much, Dr. Myint-U.
    Dr. Steinberg, welcome.

STATEMENT OF DAVID STEINBERG, DISTINGUISHED PROFESSOR OF ASIAN 
         STUDIES, GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Dr. Steinberg. Thank you very much, Senator.
    I'm glad my testimony will be included in the record. I 
will talk about it rather than read it.
    Senator Webb. It will be entered in full at this point in 
the record, and you may speak as you wish.
    Dr. Steinberg. Thank you, sir.
    I'm honored to be here, and I applaud the Obama 
administration for trying to engage Burma, and I believe that 
your trip to Burma was an important element of this engagement.
    Secretary Clinton has said that sanctions and engagement 
have been tried, but both have not worked. We have tried 
sanctions and ASEAN has tried engagement, but ``worked'' for us 
has meant regime change; ``worked'' for ASEAN has been regime 
modification. But, by isolating Burma over this period, we've 
allowed the military to justify their hold on power by creating 
a garrison state to protect it against foreigners--who have not 
their interests in mind--and enforce national unity.
    We look at Burma, and the Burmese look at the situation, 
quite diametrically opposed. There are irreconcilable 
differences between our views. So, I think we should put that 
aside and concentrate on the future, and start concentrating on 
the well-being of the Burmese people. That's where we should 
begin.
    Sanctions and dialogue, as the administration says, are not 
necessarily contradictory, but they are a kind of temporary 
state. We all want the same end. We've heard it today, but all 
of us believe in a democratic country with the well-being of 
the people improved. In general, United States policy had 
concentrated on one aspect, and that is democracy and human 
rights, but there are other aspects, as well.
    I have been asked to talk about three issues: The prospect 
for political reform, potential role of the United States in 
promoting democracy in the forthcoming elections; economic and 
strategic implications of unilateral sanctions; and steps that 
can be taken, and should be taken, to improve United States-
Burmese relations. Let me address each of these.
    On the question of political reform and the potential role 
of the United States, there's a short-term role and a longer 
term role. The short-term role, we should do what we have been 
doing: Calling for the release of political prisoners, free 
campaigning, inclusion in the elections, suggesting the U.N. 
and ASEAN have election monitors--I don't think that would be 
approved, but I think it should be suggested in any case. But, 
there are dim prospects for political change, I would argue, 
before the elections. The dilemma for the National League for 
Democracy in participating is very clear. By participating they 
basically negate the 1990 elections they won; by not 
participating they are marginalized even further than they have 
been. So, it's very difficult for them, I don't think there's a 
question about that.
    I believe that the elections will take place, and I believe 
the government plan has been to keep Aung San Suu Kyi under 
house arrest until those elections. Will that change as a 
result of the U.S. opening, and, in fact, Aung San Suu Kyi's 
letter to the senior general? I am not sure. But I think their 
plan, at least as I heard it in the spring, has been in that 
manner.
    Whether the junta will deal with her on sanctions before 
the elections seems to be up to the senior general, and we 
certainly welcome Aung San Suu Kyi's letter, which I think was 
an appropriate step at this particular juncture.
    In the long term, we have to think about our relations with 
Burma in a different way. There is enormous fear and suspicion 
of the United States in that country. There is real fear of 
invasion. We regard that as being absolutely impossible and 
inappropriate, but they do believe it, as has been told to me 
by Cabinet members on a number of occasions. We continue to use 
vituperative language about the regime. We talk about regime 
change, we talk about outposts of tyranny; this reinforces the 
problem, I think, of trying to negotiate with them.
    The Burmese also feel they have been held to a higher 
standard than other authoritarian regimes. Where, they would 
argue, is the opposition party, even a truncated one, in China, 
in Vietnam, or in Laos?--just to pick countries in the region.
    We need to do some things in the long run, one of which is 
to strengthen civil society. That is very, very important, and 
I think there is a lot that we can do in that regard, inside 
the country. There's a need to increase humanitarian 
assistance, basic human needs--health, nutrition, agriculture, 
education--these are in very bad shape in that country.
    There is an enormous need for human resource development, 
as Thant Myint-U just mentioned. One percent of the 
population--an educated 1 percent of the population, not 
counting the workers in Thailand and other countries--has left 
the country. These would have been the basis for a new 
government coming in-country, the cadre of people to run 
government, to run the private sector; and basically they have 
to train a new generation if the country is to progress.
    And one thing we have to understand also, is the future 
role of the military. All avenues of social mobility in that 
society are military-controlled. In order to get people who are 
ambitious, and families who want their children to prosper, we 
have to be able to provide alternative avenues of mobility in 
that society. That has not happened, and so that even families 
with people who are opposed to the regime would want one son in 
the military, because that's the only avenue to get ahead 
within the society.
    If we look at someplace like South Korea, we saw that it 
took a generation, basically, to develop these other 
alternative avenues of social mobility, including the private 
sector, autonomous private institutions, NGOs, education, and 
so forth. This is very important. But, it indicates that, for 
the long-term, we have to understand the important role that 
the military will play in that society, in or out of power.
    On the economic side, the implications of the proposed 
universal sanctions has been a loss of influence; the increase 
of the power of other states, such as China; no improvement in 
the working conditions of the Burmese people; and it has 
affected the United States by having us lose jobs, in terms of 
whatever exports we could have had; and it has, more 
importantly I think, affected the people in that society badly, 
as Thant Myint-U said.
    We have strategic issues, as well as democratic ones, but 
we have not articulated our strategic interests to the American 
public. In a democracy, it's important that we have the public 
behind us; and we have the public behind us on democratic 
issues, but certainly we have not articulated in public 
authoritatively within the administration, as far as I know, 
until recently, the questions of a strategic interest.
    Burma is suspicious of all the neighboring states, 
including also the United States and the United Kingdom. All of 
us have been engaged in supporting insurrections or dissidents 
at one time or another. And the Burmese feel that very, very 
strongly, so they're very, very suspicious.
    Burma is the nexus between India and China. While relations 
between India and China are, at the moment, good--they did 
fight a war in 1962--they are likely to be economic rivals in 
the future, and it seems to me that we should understand that 
Burma is critical, from an Indian point of view. From a Chinese 
point of view, access to the Bay of Bengal and their natural 
resources is also critical.
    Chinese penetration is enormous. Two planned pipelines, a 
couple of dozen hydroelectric projects, the narcotics, which go 
into China, not to the United States anymore--the ``National 
Drug Threat Assessment of 2009'' of the United States says that 
no heroin has entered the United States that can be chemically 
traced to Burma since 2006.
    But, there are nontraditional security aspects--health, 
migration--and we should be concerned about those. But, the 
United States has overly stressed one aspect of the problem. 
Three administrations have invoked the following phrase, ``The 
actions and policies of the government of the Union of Burma 
continue to pose an unusual and extraordinary threat to the 
national security and foreign policy of the U.S.'' I submit 
that that language is excessive and inaccurate. It is there 
because, since the Economic Emergency Powers Act of 1997, it 
has to be used if the executive branch is going to impose 
sanctions. We have used that in the case of North Korea, by the 
way.
    I think that China and all of us in the region are 
concerned about the stability in the country. India has changed 
its policy toward Burma from the most vociferous critic of the 
regime, to one that provides aid and assistance to the Burmese 
military, not only to counter China, but because of its own 
insurgencies in the northeast. So, there's a critical nexus 
here that we should understand.
    Now, what might be done? I think the--things have to happen 
in a staged series. We have talked in the past sometimes of 
goodwill, ``If you do good things, we will--we, the United 
States, will do good things.'' I don't think that works. I 
think we need to take a staged approach--``If you do A, we will 
do B.''
    I think one of the things the United States might do to 
begin the process is to approve the appointment of a Burmese 
Ambassador to Washington. One was designated, but he never was 
approved. And it had nothing to do with the sanctions issue, it 
had to do, in 2004, with the ouster of Gen. Khin Nyunt. And 
that needs to be changed.
    I would argue that we should nominate a United States 
Ambassador to Burma. I know that it would have to have Senate 
approval, and that would be very difficult, maybe even 
impossible, but I think if we're going to have dialogue, we 
should have dialogue at the highest level.
    We should support civil society in that country and 
increase humanitarian assistance. There are avenues of 
cooperation that are possible, that are apolitical, that we 
might take. There's cooperation in environmental protection. 
Burma needs that very badly. Disaster assistance planning as 
well. They need enormous assistance on human resource 
development--training, which we do very well. There are the 
missing-in-action issues, Secretary Campbell has mentioned 
them. There's antiterrorism training. And there's law and human 
rights training, which the United States has decried, but 
Australia has tried in a number of places. And it's important 
to have people in place when the situation changes--when the 
new government comes in at some time, when things open up. We 
need people who already understand the human rights situation.
    And we need to especially help the minority areas because 
the minority areas have been the most deprived, and minority 
issues, I would argue, in that country, are the most important 
single issue facing that state. We tend to concentrate on the 
political issues, but, in the long run, the minority questions, 
I think, are paramount. And I think we should pay special 
attention to the Rohingya problem on the Bangladesh border, 
because they are the most deprived. They are stateless, in 
Burmese terms.
    I believe we also should, by the way, change the name from 
Burma to Myanmar. We may not like it. I think it was an 
unnecessary change by the Burmese, especially the year they 
changed it was the year they tried to invite tourism in, and 
that seemed to be counterproductive. And I think we should be 
thinking of all of this in terms of building for a future 
government that will be more open and liberal. It may be a 
civilianized military government, it may be a more civilian 
government, but, over time, I think that we will see changes in 
that society.
    And for the Burmese, I would have suggested to them, and I 
would suggest again, that the first thing they might do is to 
change the international NGO regulations they instituted in 
January 2006. They were unnecessarily controlling, they were 
basically set aside in the Nargis campaign; but at the same 
time; they still exist. If the Burmese were to say, ``We would 
change these regulations, and eliminate them, and develop new 
regulations in concert with the international NGO community,'' 
that would be very, very reassuring, and would allow more 
humanitarian assistance.
    Let me make just a few points on general issues. We should, 
I think, as U.S. policy, not be dependent on any individual or 
group, however benign, on the development of our foreign 
policy. I think this is very important, as a general rule; it 
would also apply to Burma.
    I don't think we should vilify regimes, even if we don't 
like them, because it makes negotiations more difficult, and 
undercuts our ability to achieve our objectives.
    We should be prepared, also, in this particular case, to 
answer criticisms that negotiations give some legitimacy to the 
government. We are dealing with a nuanced situation, where 
we're looking at a kind of an equation, where, yes, the 
government may get a little legitimacy by having negotiations 
with the United States, but if we can help the people of Burma, 
then I think that that is more important than the issue of 
dealing with the minor kinds of legitimacy that the government 
might get. This, I think, we have to understand.
    And let me end, sir, by quoting the last paragraph of my 
statement, because I think it is important. It deals with the 
question of unity and minority issues. We should also negotiate 
with the Burmese on the basis that their primary national goal 
of the unity of the Union is a shared goal of the United 
States, and that we do not want to see the Balkanization of 
Burma, but that the actions of their own government, and the 
attitudes of some of the military, convey the impression that 
they are an occupying army in some minority areas, and this 
undercuts the willingness of some of the minorities to continue 
under Burman rule, and thus the ability of that government to 
reach its goal. It is in the interest of the region and the 
world not to see the breakup of that country, but that unity 
can only be achieved through internal respect and dignity among 
all the peoples of the state, and through real developmental 
efforts, to which the United States could contribute under 
conditions to be negotiated. I'm not sanguine about early 
progress, but what has been done in the past months, and this 
hearing, are important beginnings and should be continued and 
expanded.
    Thank you very much, Senator.
    [The prepared statement of Dr. Steinberg follows:]

Prepared Statement of David I. Steinberg, Professor, School of Foreign 
             Service, Georgetown University, Washington, DC

    Mr. Chairman and members of the subcommittee, it is an honor to 
have been asked to participate in what I feel has been a long overdue 
dialogue on Burma/Myanmar \1\ problems. I believe there are no easy 
answers to improving relations and making progress toward our several 
goals in that country, but I am, and continuously have been, a firm 
believer in dialogue on this issue within the United States, between 
the United States and other states, as well as with the Burmese 
themselves; both the government and the opposition. I thus applaud the 
Obama administration's decision to engage Burma/Myanmar.
---------------------------------------------------------------------------
    \1\ In 1989, the military changed the name of the state from Burma 
to Myanmar, an old written form. The opposition, followed by the U.S., 
has never accepted that change as from a government they regard as 
illegitimate. The U.N. and other countries use Myanmar; thus, the name 
of the country has become a surrogate indicator of political 
inclination. Here, both are used and without political implications. 
Burmese is used for the citizens of that country and as an adjective.
---------------------------------------------------------------------------
    I am supportive of this new look, including Senator Webb's trip to 
Burma/Myanmar. I believe this also reflects the views of a growing 
number of Burmese country specialists. It is, as I have written, only a 
first step. Secretary of State Clinton's statement that sanctions and 
engagement have both been tried and neither has worked is accurate, but 
for different actors. The United States continuously tried sanctions, 
gradually strengthening them in response to deteriorating conditions 
within that country. ASEAN's position has also evolved; it first tried 
``constructive engagement'' that seemed mere economic exploitation. But 
``worked'' for the United States meant regime change, and for ASEAN it 
later meant regime modification. This strategic divergence has perhaps 
both hindered achieving the changes in that country we seek and made 
more difficult an effective relationship with ASEAN. Of course, trying 
to force a government to leave power in the hope that one would then 
engage them is a nonsequitur. The new position, articulated by the 
Secretary of State, that sanctions and dialogue are not necessarily 
contradictory is accurate as far as it goes; it is a relatively 
temporary state, however, that should be resolved over some reasonable 
period, but it does not preclude other actions that might mitigate 
tensions and differences.
    I believe most foreign observers want to see Burma/Myanmar make 
democratic progress and improve the well-being of the diverse Burmese 
peoples. We are aware of and deplore the misguided economic, social, 
and ethnic policies that for a half-century have made what was 
predicted to be the richest nation in the region into the poorest. We 
share goals on its political and economic future, but have differences 
in the tactics needed to secure these objectives. But by isolating 
Burma/Myanmar, we have in effect played into the hands of Burmese 
military leaders who thus justify their position that a garrison state 
under their control is necessary because of perceived foreign threats 
and the potential break up of the Union.
    The United States in the past has not tried engagement and 
dialogue, although the United States now want them and the National 
League for Democracy (NLD) has called for them for some time. We now 
believe that the military must be part of any political solution; this 
is a new, evolved, and more positive position, and one now shared by 
the NLD and Aung San Suu Kyi. Our consideration of Burma/Myanmar has 
concentrated on governance issues to the virtual exclusion of a broad 
range of problems that should be analyzed. Indeed, by concentrating 
essentially on politics we may have missed opportunities to affect 
positively other deplorable conditions in that country.
    We understand and sympathize with those who have suffered egregious 
human rights abuses. We understand the plight and frustration of those 
exiles who want a better Burma, and who place political change as the 
primary factor in this process. This approach, however, has not worked, 
and, in contrast, I would suggest we start by focusing on the Burmese 
people--their sorry condition and how to alleviate their plight. There 
is a major socioeconomic crisis in that state, one that was early 
recognized by the U.N. but exacerbated by the Nargis cyclone, and one 
that requires pervasive reform and extensive assistance. It is also one 
that the government denies.
    In this hearing, I have been asked to testify on three basic 
points:
          (1) Prospects for political reform and the potential role of 
        the United States in promoting democracy and the upcoming 
        elections;
          (2) The economic and strategic implications of unilateral 
        U.S. sanctions;
          (3) Steps that can and should be taken to improve the United 
        States-Burma relationship.
(1) Prospects for political reform and the potential role of the United 
        States in promoting democracy and the upcoming elections
    If we are to evaluate the prospects for reform, we must first 
understand that the present attitudes and positions of the U.S. and 
Burmese Governments are virtually diametrically opposite with starkly 
divergent appraisals of the past and present reality. Both sets of 
perceptions reflect differing cultural backgrounds and different 
priorities, even how power and authority are viewed. Trying to 
reconcile these irreconcilable perceptions will not be productive now; 
it is time to concentrate on how to affect the future.
    We may distinguish short-term potential U.S. responses to 
encouraging the democratic aspects of the forthcoming 2010 elections 
from those that could foster democracy in the longer term. These two 
aspects of reaction are not seamless, but could produce antithetical 
results if unbalanced. Concentrating on the short-term period before 
the 2010 elections and possible disappointments therein, while ignoring 
the longer term future, may obscure more distant democratic 
opportunities. Considering only the longer term approach could vitiate 
chances, however tenuous, for early progress. The results of the 
planned 2010 elections might result in a new political dynamic, one 
that eventually opens some political space that could evolve into more 
effective governance. We should not ignore that possibility.
    The prospects for political changes before the 2010 elections, 
however, seem dim. The military will not renegotiate the new 
constitutional provisions approved in 2008, as the NLD has demanded. 
Whether the NLD would participate in the elections if allowed, is still 
uncertain. Various parties, both those government backed and 
opposition, are in the process of formation in advance of articulated 
state regulations. These elections from the junta's viewpoint are in 
part designed to wipe out the 1990 election results which the NLD 
swept, so the NLD has a dilemma: To participate destroys their previous 
claim to authority, but to abstain marginalizes them even further. The 
political endgame is fast approaching, and the NLD needs to salvage its 
position or it may disintegrate or split. Whatever happens to the NLD, 
other opposition parties will participate and have some voice (rather 
sotto voce) in the new government, but one in which the military will 
have veto power on critical issues. There is no question but that the 
government and the legislature emerging from the 2010 elections will be 
dominated by the military, which will have 25 percent of the seats 
reserved for active-duty officers and thus can prevent unwanted 
amendments to the Constitution, which require 75 percent approval. 
Military control will be taut on issues it regards as vital to the 
country and over its own defense affairs, but may allow some avenues 
for debate and compromise.
    The United States should recognize that these elections will take 
place, and that their results, however fair or unfair, will strongly 
influence the future of Burma/Myanmar over the next half-decade and 
longer. We must deal with that reality. We should continue to call for 
the release of all political prisoners, the early promulgation of a 
liberal political party registration law and voting legislation, the 
ability of all parties to campaign openly and relaxation of the press 
censorship law so that parties may distribute campaign literature. We 
should encourage the U.N. and ASEAN to request permission to monitor 
the elections and vote counting. Although unlikely to be approved, the 
effort should be made. The United States might consider, through ASEAN 
or the U.N., to supplying technical assistance and computer software 
for accurate ballot counting. This has been done in some other 
countries. These important considerations, however, even if ignored and 
even if the military were to engage in acts against the minorities or 
opposition that are reprehensible, should not terminate dialogue and a 
staged process of attempting to improve relations to mitigate these 
vital poroblems. I believe the Burmese administration sadly had no 
intention of allowing Aung San Suu Kyi out of house arrest before the 
elections, and that her trial was unnecessary for that purpose, for the 
junta would have found some rationale for her detention in any case.
    A longer term approach to encouraging democracy in Burma/Myanmar 
should also be instituted at the same time. Yet the role of the United 
States in affecting positive change is limited by Burmese perceptions 
of the United States, the U.S. internal political process, and U.S. 
past actions related to Burma/Myanmar.
    The junta is suspicious of the United States. There are two decades 
of distrust that strongly influence present and future relations. This 
heritage may not be insurmountable, but it is significant. The Burmese 
fear a U.S. invasion, however illogical that may seem to Americans. 
This accounts for their refusal to allow the United States to deliver 
directly relief supplies to the Burmese in Cyclone Nargis. Our cry for 
regime change and the ``outpost of tyranny'' characterization are not 
forgotten. Our support for dissident groups along the Thai border 
reinforces these fears, as does the potential role of Thailand as a 
perceived surrogate and ally of U.S. policy in the region. The United 
States has held the Burmese to a different, and more stringent, 
standard that we have for other authoritarian regimes with which we 
deal in terms of the political parties, religious freedom, and even 
human rights. In the region, China, Vietnam, and Laos immediately come 
to mind. Strong congressional and public antipathy to dialogue, let 
alone more productive relationships with the regime, often center on 
the role and fate of Nobel Laureate Aung San Suu Kyi, and affect U.S. 
policy changes. Recent indications that she is willing to reconsider 
sanctions that she has in the past encouraged are welcome.
    Several approaches to longer range problems should be considered. 
The buildup of indigenous civil society through the international NGO 
community is one element in the attempt to encourage more pluralism 
over the longer term and to begin to alleviate suffering and problems 
through local organizations more cognizant of local needs. Even under 
authoritarian regimes, civil society has important functions, and 
ironically the government since 1988 has allowed more civil society 
groups, both foreign and indigenous, to function then under the 1962 
military government, although it has done so with political 
restrictions.
    More basic human needs assistance (humanitarian aid) is necessary 
(health, education, nutrition, agriculture) to help the society out of 
the economic mire in which perhaps half the population is either under 
or at the World Bank-defined poverty line. The education system may 
have been expanded, as the government claims, but the quality has been 
destroyed. Health care is dismal--said to be the world's second worst. 
Thirty percent of children are malnourished to some degree. The per 
capita foreign assistance in Burma/Myanmar is about 20 times less than 
that provided to Laos. In a country like Burma/Myanmar, where the state 
intervenes administratively and personally at virtually all levels, it 
may be necessary to work with state institutions (such as the health 
system) if the people are to be helped. Depending on how this is done, 
it may be a small price to pay to assist the population.
    In essence, by improving education and health, the groundwork of a 
more competent and vital populace will be developed that would better 
contribute to any new, and eventually more representative, government. 
Without such improvements, when changes come, as they inevitably will, 
a new more open government will be saddled with even more difficult 
problems that might have been earlier mitigated.
    Third, there is one thing the United States does well--that is 
train people. Building up human capital is a primary requirement if the 
state is to progress. Modern training in basic human needs fields and 
in economics and related disciplines is essential. The country has lost 
perhaps 3 percent of its total population through migration due to 
political and economic problems and lack of opportunity, as well as 
through warfare and the threat of violence. Although 2 percent may be 
workers and undereducated minorities, 1 percent is an educated group 
who might have been the backbone of any new liberal administration. 
Even should internal conditions improve, many, perhaps most, would not 
return because they have become rooted in other societies. Either 
directly or through ASEAN, modern training should be provided either in 
the United States or in the region. This is essential for future 
progress. The international NGOs employ some 10,000 Burmese and the 
U.N. some 3,000 more. They and others should be given the opportunity 
to acquire advanced skills so they can contribute to future development 
under improved governance.
    The United States should recognize that the military is and will be 
for a long period a cardinal socioeconomic force. The military now 
controls all avenues of social mobility in that society. This was not 
true in the civilian period. Beyond the public sector, they also have 
important economic assets in terms of military-owned and -run 
conglomerates that influence and even control large elements of 
economic activity. Those families that are ambitious and may even be 
opposed to the military in their administrative roles now send their 
sons into the military as the only real avenue of mobility and 
advancement. Alternative avenues, such as the private sector and other 
autonomous institutions, must be developed if there is to be an 
eventual balance between civilian and military authority. Real change 
will only come when these new avenues of social mobility are opened. 
This will take a long time, as it took in South Korea, and as it is now 
taking in Thailand and in Indonesia. The military will remain a vital 
element in that society for the foreseeable future. This should be 
recognized and efforts made both to help provide alternative avenues of 
mobility and also to broaden military attitudes and knowledge in terms 
of national development needs and social change. Military-to-military 
contacts are important, and I think it was wise of the United States to 
continue to have a military attache attached to the Embassy in Rangoon, 
in contrast to the EU, which withdrew them in 1996 and assigned them 
all to Bangkok.
(2) The economic and strategic implications of unilateral U.S. 
        sanctions
            (2a) Economic implications of sanctions
    Although some in the Congress wanted to impose Cuba-like sanctions 
in 1997, cooler heads prevailed. The four tranches of sanctions (1988, 
1997, 2003, 2008) have had several effects. It has denied market access 
to the United States. It has resulted in other states, especially 
China, increasing its market share. It has also resulted in a loss of 
jobs for the Burmese peoples, a country already wracked with high un- 
and under-employment. And it has not resulted in an improvement in 
human rights or working conditions for the Burmese. In addition, it has 
lost to U.S. businesses markets and some jobs that would have been 
important, but it has not injured the Burmese Government, which has 
simply substituted materials and services from other states, including 
some from our allies. Sanctions have been, admittedly, the moral high 
ground, but they have accomplished none of the U.S. objectives of 
reform and change. The present U.S. sanctions policy toward Burma/
Myanmar illustrates how easy it is to impose sanctions, and how 
difficult it is to eliminate them once imposed. Yet, while encouraging 
the private sector, we should remember that although it is an important 
avenue for development, it is not a panacea. Those who consider that 
fostering foreign investment and encouraging the indigenous private 
sector will early bring democracy had better be prepared for an 
extended wait--witness South Korea (1961-1987) and Taiwan (1949-1992).
            (2b) Strategic issues
    Sanctions and an absence of dialogue have resulted in a lack of 
public recognition, until recently, of the strategic importance of 
Burma/Myanmar in the region. The need in a democracy to discuss 
publicly the multiple bases of foreign policy has been ignored--we have 
concentrated on human rights and democracy alone. These are important, 
necessary elements of foreign policy, but not the complete picture. If 
the American public and the Congress are to support any 
administration's foreign policy, the full range of U.S. interests needs 
articulation.
    Burma/Myanmar is the nexus on the Bay of Bengal. It will be a major 
issue in future China-India relations. Both countries are rapidly 
rising in economic terms and are likely to be eventual rivals. Chinese 
extensive penetration of Myanmar prompted a complete change in Indian 
policy from being most vehemently against the junta to a supporter and 
provider of foreign aid. A secondary motive was to mitigate the 
rebellions in the Indian northeast, where rebel organizations have had 
sanctuaries in Myanmar. India bid for Burmese off-shore natural gas, 
but China has basically dominated that field and will build two 
pipelines across Myanmar to Yunnan province--one for Burmese natural 
gas and the second for Middle-Eastern crude oil. China is supporting 
more than two dozen hydroelectric dams in Burma/Myanmar with important 
potentially negative environmental effects. One strategic Chinese 
concern is the bottleneck of the Strait of Malacca through which 80 
percent of imported Chinese energy transits. Should the strait be 
blockaded, Chinese defense and industrial capacities could be 
negatively affected, and drops in employment could threaten political 
stability. Chinese activities in Myanmar mitigate this concern. In 
reverse, some Japanese military have said that the ability of the 
Chinese to import oil through Myanmar and avoid the Malacca Strait and 
the South China Sea is not in Japan's national interests. India is also 
concerned with potential Chinese influence in the Bay of Bengal through 
Burma/Myanmar.
    The Burmese have used the issue of China in their analysis of U.S. 
attitudes toward that regime. Burmese military intelligence has 
specifically written that the interest of the United States in regime 
change in Myanmar was because Myanmar was the weakest link in the U.S. 
containment policy toward China. Although the original statement was 
published in 1997, it had been reprinted 28 times by 2004. The Burmese 
have not understood that the U.S. concern was focused on human rights, 
but perhaps their statements were designed to, and have reinforced, the 
importance to the Chinese of support to the Burmese regime and thus 
increased Chinese assistance both economically and militarily. It 
should be understood, however, that Burma/Myanmar is not a client state 
of China. The Burmese administration is fearful of the roles and 
inordinate influences of all foreign governments, including the 
Chinese, the Indian, and the United States, and with considerable 
historical justification. The Chinese Government for years supported 
the insurrection of the Burma Communist Party, India is said to have 
assisted Kachin and Karen rebels and in the colonial period controlled 
much of the economy, and the Thai a multitude of insurgent groups. The 
United States previously supported the Chinese Nationalist (Kuomintang) 
remnant forces in Burma. More sustained dialogue could help us 
understand the strategic dynamics of Burma/Myanmar, including its 
obscured relationship with North Korea.
    Although the United States under three Presidents (Clinton, Bush, 
and Obama) have invoked the phrase, ``The actions and policies of the 
Government of the Union of Burma continue to pose an unusual and 
extraordinary threat to the national security and foreign policy of the 
United States,'' this statement is simply an administrative mantra and 
gross exaggeration because this language must be used (under the 
Emergency Economic Powers Act of 1997) if the executive branch wishes 
to impose unilateral sanctions (it was used recently in the case of 
North Korea). That does not mean there are no problems. Nontraditional 
security issues abound, such illegal migration, trafficking, narcotics 
(now, metamphetamines), health issues, but none of them reach the 
status of an ``extraordinary threat'' either within the region or to 
the United States. Although Burma/Myanmar was once rightly castigated 
for its heroin production (although the United States has never accused 
the government itself as receiving funds from the trade--it tolerated 
money laundering activities), the U.S. National Drug Threat Assessment 
of 2009 indicates that opium production dropped significantly since 
2002, and that since 2006 the United States could not chemically 
identify any heroin imported into the United States from Burma/Myanmar. 
Rather than assisting in the improvement of health as a cross-national 
problem, the United States refused to support the Global Fund, which 
was to provide $90 million in that country over 5 years to counter HIV/
AIDS, tuberculosis, and malaria. The Europeans instead funded the Three 
Disease Fund with $100 million of the same period to fight the same 
diseases.
    We should be concerned about the stability of the state and 
administration. China, India, ASEAN, the United States and other 
countries want stability. Although the Burmese state appears strong in 
terms of its coercived control, poor and deteriorating economic 
conditions, internal displacement of peoples, delicate and potentially 
fluid and explosive minority relations, arbitrary and repressive 
military actions, political frustration, and the influx of massive 
illegal Chinese immigrants (estimated at perhaps 2 million) and their 
increasing hold over the economy are elements that could easily result 
in internal violence, ethnic rioting (as in 1967), and deteriorating 
conditions that are against the interests of all external actors and 
the Burmese people themselves. We should be trying to convince the 
Burmese administration itself that it is the interests of their country 
to reform, for only then will stability be possible.
(3) Steps that can and should be taken to improve the U.S.-Burma 
        relationship
    The Burmese authorities have been told by many that improvement in 
United States-Burmese relations will require significant actions by the 
Burmese themselves to justify changes in U.S. policy. Political 
attitudes in the United States preclude immediate or early lessening of 
the sanctions regimen without such reciprocal actions. In the first 
instance, however, increases in humanitarian assistance (basic human 
needs, such as health, education, nutrition, agriculture) are 
essential.
    Step-by-step negotiations are a reasonable way to proceed, perhaps 
the only way. Signals have been sent by both sides that some changes 
are desirable, but good words alone will not work. And whatever the 
United States proposes must be done with the support of both the 
executive and legislative branches, in contrast to an abortive 
executive attempt to improve relations on narcotics in 2002 that 
faltered in the Congress. It should be understood that such staged 
dialogue by both sides is not appeasement, and that both sanctions and 
engagement are tactics to secure objectives, not ends in themselves.
    It should also be understood that as a general commentary on such 
negotiations, expecting the Burmese to humiliate themselves before any 
foreign power and give in to foreign demands, whether from the Chinese 
or the United States, is a recipe for a failed negotiations. Public 
posturing should be avoided, and quiet diplomacy take place to which 
the Burmese can respond to the need for progress and change within 
their own cultural milieu and with a means of explaining to their own 
people that these are indigenous solutions to indigenous problems. 
Unconditional surrender, which the United States has advocated on many 
occasions, is not a negotiating or dialogue position.
    To start the process, the United States should approve of a new 
Burmese Ambassador (previously nominated) to Washington. The last one 
left in November 2004 after the ouster of Prime Minister Khin Nyunt in 
Burma/Myanmar and had nothing to do with sanctions issues. The 
administration should also be prepared to nominate an ambassador to 
Myanmar, even though there may be strong and negative congressional 
reactions. That person would be different from the ambassadorial 
position as coordinator under the Lantos 2008 sanctions legislation, 
and the choice of that person is important if there is to be credible 
dialogue with the government, since it calls for direct talks with the 
Burmese.
    There are also areas where our interests overlap, and where 
coordinated efforts could be productive in themselves and in trying to 
build the confidence required if relations in other fields are to 
improve. We have a mutual interest in the environment, and indeed the 
United States has been working with the Burmese on protection of 
wildlife. There is much we could accomplish together and an urgent 
need. There are cooperative relations that could prove important in 
disaster preparation, for Burma/Myanmar is subject to earthquakes and 
cyclones that annually devastate the Burmese coast, although not 
normally with the force of Nargis. There is still work to be done on 
the missing-in-action U.S. soldiers whose planes went down in Burma 
flying from India to China during World War II. There are the needs of 
the minorities who have been generally excluded from development. An 
especial reference should be made to the Rohingyas, the Muslim minority 
on the Bangladesh border who have remained stateless and who have 
suffered the most. Although the United States has concentrated its 
attention on political issues and human rights in general, the minority 
question in Burma/Myanmar is the most important, long-range and complex 
issue in that multicultural state. There is a need to find some 
``fair'' manner in the Burmese context for their development, the 
protection of their cultural identity, and the sharing of the assets of 
the state. Within the unity of Burma/Myanmar, the United States might 
be able to contribute to this process. Further, improving relations 
with Burma/Myanmar will help strengthen our relations with ASEAN. The 
United States has made significant and welcome progress in the recent 
past, and the dialogue with Burma/Myanmar would help that process. The 
United States signing the ASEAN Treaty of Amity and Cooperation in July 
2009 was a forward step.
    In a variety of authoritarian states, the United States has 
supported programs that were designed to improve justice and the rule 
of law. Although this may seem counterintuitive, such programs could be 
of value in training individuals and assisting institutions to 
administer justice more fairly when they are in a position to do so. 
Although the United States objected when Australia started some human 
rights training in Burma/Myanmar (as it had done in Indonesia under 
Suharto), the exposure of key individuals with some responsibilities 
for dealing with such problems would be an investment for a time when 
they are able to use that knowledge to further goals we all share. The 
United States could join with the Australian program for ASEAN designed 
to provide counterterrorism training courses at the Jakarta Centre for 
Law Enforcement. Burma/Myanmar has cooperated with the United States on 
some counterterrorism activities, including but not limited to 
authorizing overflights of the country after 9/11.
    The U.S. use of the term for the name of the state, Burma, rather 
than the military designated term, Myanmar (an old term, but one used 
in the modern written language) is simply a result of following the 
NLD. The military regard that as an insult. Although I believe the 
change in name was a tactical error, especially during a year when the 
government was trying to encourage tourism, many states, even those of 
which we disapproved, have changed their names and place names and the 
United States has followed. It did, however, take a couple of decades 
for the United States to change Peking to Beijing.
    The Burmese need to respond to any U.S. overture. One might suggest 
to the junta that in light of the good performance of the international 
NGOs during the Nargis crisis, that the January 2006 stringent and 
deleterious regulations on their operation be waived, and that new ones 
formulated in collaboration with the NGO community. We want greater 
changes, but this start would be significant and allow the 
international NGOs to make a greater contribution to development in 
that country. Increases in humanitarian assistance, required in any 
event, would be greatly facilitated by such action.
    If the Burmese were to respond to this step-by-step process, and if 
the 2010 elections were carried out in some manner with widespread 
campaigning and participation regarded as in a responsible manner 
(admittedly a term with strong cultural roots), then the United States 
could withdraw is opposition to multilateral assistance from the World 
Bank or Asian Development Bank if that government were to adhere to the 
bank's new requirements for transparency and good governance. Burmese 
economic policy formulation is opaque, and such activities might not 
only provide needed light, but also encourage a sense of reality among 
the military leadership, some of whom are said to be insulated from the 
dire conditions in the country. The United States could modify its 
sanctions approach; some have called for more targeted sanctions that 
could be an indicator of gradual improvement of relations. If we want 
to influence the new generation in Burma/Myanmar, why do we then under 
the sanctions program prohibit the children and grandchildren of the 
military leadership from studying in the United States? These are just 
some of the people from influential families whose attitudes toward the 
United States we should hope to change. If the sanctions policy were to 
be modified and gradually rescinded, it would require significant 
reforms for that to happen.
    It is probable that not much will be possible before the 2010 
Burmese elections, that date of which has not yet been announced. Until 
then, it is likely the Burmese Government will be primarily focused on 
actions leading up to that activity and have limited interest in 
important changes. That does not mean we should not try to affect 
change in that period.
    Some general comments may be in order. It is important in any 
international negotiations that the United States not be wedded to the 
interests of any particular foreign leader or group, for although their 
objectives may be similar, their tactics, views, and immediate 
interests may differ from U.S. national interests. U.S. policy should 
not be held hostage to foreign attitudes, however benign.
    In negotiations, it is also important not to characterize the 
military as we have in the past with ``rogue,'' ``pariah,'' 
``thuggish,'' and other such terms. The regime has to be treated with 
civility or any discussions will fail. We conceive grammatically and 
politically of the military as singular, but in fact it is plural, and 
there are elements who are not corrupt, who have a sense of idealism in 
their own terms, who want to do something for their own society, and 
who recognize that improved governance internally and better relations 
externally are part of that process. We should understand the potential 
diversity of the military and seek to identify and encourage positive 
thinking on their part.
    The question will be asked whether dialogue and negotiations as 
suggested in the paper will provide an added degree of legitimacy to 
the present military regime or one evolving from the 2010 elections of 
which the United States may not approve. Any relationship involves a 
delicate equation in which one attempts to gauge the benefits and the 
disadvantages involved toward reaching the goals that have been set. In 
the case of Burma/Myanmar, I believe the advantages to the United 
States and to the peoples of Burma/Myanmar outweigh any slight fillip 
of legitimization the regime may claim. I believe the people of that 
country are more astute.
    We should also negotiate with the Burmese on the basis that their 
primary national goal of the unity of the Union is a shared goal of the 
United States, and that we do not want to see the balkanization of 
Burma, but that the actions of their own government and the attitudes 
of some of the military convey the impression that they are an 
occupying army in some minority areas, and this undercuts the 
willingness of some of the minorities to continue under Burman rule, 
and thus the ability of that government to reach its goal. It is in the 
interests of the region and the world not to see a breakup of the 
country, but that unity can only be achieved through internal respect 
and dignity among all the peoples of the state, and through real 
developmental efforts to which the United States could contribute under 
conditions to be negotiated.
    I am not sanguine about early progress, but what has been done in 
the past months and this hearing itself are important beginnings and 
should be continued and expanded.
    Thank you for giving me this opportunity to contribute to the 
process of dialogue.

    Senator Webb. Thank you very much, Dr. Steinberg. We thank 
you for your presence at this hearing today.
    Professor Williams, welcome.

STATEMENT OF DAVID C. WILLIAMS, PROFESSOR, INDIANA UNIVERSITY, 
                        BLOOMINGTON, IN

    Mr. Williams. Thank you.
    Chairman Webb, I thank you for the opportunity to testify 
on this second anniversary of the Saffron Revolution. Let me 
congratulate you on your recent trip to Southeast Asia, and let 
me express my gratitude that you want to consider the many ways 
that the United States can help promote democracy in Burma, 
beyond just the narrow issue of sanctions.
    If you will permit me a personal note, I would also like to 
thank you for trying to secure the release of Le Cong Dinh, who 
is the general secretary of the Democratic Party of Vietnam. I 
actually advise the DPV on constitutional reform. He hosted my 
family for a 2-week visit last spring, and he was arrested on 
the day we left. We pray for his well-being, and we thank you 
for your efforts in trying to get him out.
    But, we're here to talk about Burma, not Vietnam. It's 
important to focus on the realities, as you so often said, even 
when they're uncomfortable. And I'd like to highlight two 
realities that I know from personal experience. Here is the 
first: The SPDC is committing mass atrocities against the 
ethnic minorities. I know this because I advise many of those 
groups on constitutional reform, and I've seen conditions on 
the ground.
    Here's the second reality: Even if the 2010 elections are 
free and fair, which they won't be, by all accounts, they won't 
bring about civilian rule, because this constitution does not 
provide for civilian rule. A partially civilian government, 
yes; but that government won't rule. I teach constitutional 
law, and I consult in a number of countries, and this is one of 
the worst constitutions I've ever seen. But, the SPDC----
    [Laughter.]
    Mr. Williams [continuing]. The SPDC has done a good job of 
disguising what they've done, so we need to go through, article 
by article.
    Now, regarding the ethnic minorities, when you leave 
Rangoon and get up into the hills, things seem a lot different. 
Chairman, I think you'd like the Karen, because again if you'll 
permit me a personal note, they're the Scots-Irish of Southeast 
Asia. They're a hill people; they're musical; they're clannish; 
they're tough. They've long been dominated by a distant 
government, which they have learned to distrust. As a group 
they are the most loving and gentle people I know. But, they 
were, all of them, born fighting, because their government is 
making war on them as we speak, and they need our help.
    Burma's problems began in ethnic conflict, and they will 
continue until the underlying issues are addressed. The 
resistance groups are not strong enough to overthrow the 
regime, and I don't think they ever will be, but the regime is 
not strong enough to crush the resistance, either. Conditions 
in central Burma are bad, but there is suffering on a Biblical 
scale in the ethnic areas.
    The military is making war on a civilian population, and 
its actions likely constitute crimes against humanity. The 
United Nations has found that soldiers routinely commit rape 
with impunity, and rape appears to be a policy for population 
control. By one U.N. estimate, officers commit 83 percent of 
these rapes, and 61 percent are gang rapes. When outsiders try 
to investigate, officers commonly threaten to cut the tongues 
and slice the throats of any villagers who cooperate.
    But, these bald statistics cannot tell the human dimension 
of the suffering. Reading the individual accounts is 
excruciating. As just one example, Ms. Naang Khin, age 22, and 
her sister, Ms. Naang Lam, age 19, were reportedly raped by a 
patrol of SPDC troops when they were reaping rice at their 
farm. Their father was tied to a tree. Afterward the two 
sisters were taken to a forest by the troops. Their dead bodies 
were found by the villagers some days later, dumped in a hole.
    The Tatmadaw also uses forced labor, and is probably the 
greatest conscriptor of child soldiers in the world. The 
military does not generally attack the armed resistance forces, 
instead it burns or mortars villages, over 3,000 villages since 
1996. And this has been going on for years, creating one of the 
worst refugee crises in the world. One million-plus between 
1996 and 2006, and one-half million still displaced today, by 
U.N. estimates.
    One particular woman had to run for days through the jungle 
immediately after giving birth, carrying her baby in her arms. 
That baby grew up, got an American law degree, and she is now a 
research fellow in my center, and she is a miracle of survival.
    China cannot ignore the ethnic minorities, because it has 
had to deal with a wave of refugees driven there by the SPDC's 
attacks. Beijing publicly rebuked the regime for creating 
regional instability, which, of course, would be grounds for 
Security Council intervention. In other words, on this point, 
this narrow point, China and the United States appear to be on 
the same page; we all want the attacks to end.
    So, what policy recommendations follow from this reality? I 
think there are three. First, the United States should supply 
humanitarian aid, not just through Rangoon, but also across the 
borders to the ethnic minority areas. The programs in central 
Burma cannot get out into the hills, and, as a result, the 
people who are suffering the most are receiving the least.
    Second, if we are going to enter dialogue with the junta, 
we must demand an immediate end to the attacks on civilian 
populations. Otherwise, we will be directly dealing with 
murderers who are in the midst of a killing spree.
    Third, Burma will never know peace or justice until there 
are trilateral talks--and I think all three of us are agreed on 
this--between the SPDC, the Democracy Forces, and the ethnic 
minorities. We must, therefore, insist that the junta engage 
not just with the NLD but also with the minorities.
    Now, my second subject is the 2010 elections. We all would 
like to hope that they will usher in a new era of possibility. 
But, in fact, it's very unlikely they'll bring peace, and they 
won't bring civilian rule. The runup to the elections has 
already caused more violence, not less. Overwhelmingly, the 
resistance armies have rejected the SPDC's demand that they 
become border guard units after the elections, and the SPDC has 
responded by attacking the Kokang. The conflict will increase, 
as larger groups are pulled in, if the regime attacks them.
    We know for a fact that the Burmese military is gearing up 
for offenses around the country--they're right now putting in 
supplies and resources--and that the resistance groups are 
gearing up for--to resistance. The mountains will run with 
blood as the elections approach. So, the elections won't bring 
peace. They also won't bring civilian rule. Some think that we 
should try to ensure that the elections are free and fair, and 
that's a good idea, but it really matters only if the elections 
will lead to civilian rule, which they won't. The constitution 
allows the Tatmadaw to keep however much control it likes.
    Now, in my written testimony I go into the constitution at 
some length, parsing text, but, on the view that only 
constitutional law professors really enjoy parsing 
constitutional text, I'll omit that part and just get to the 
bottom line.
    A lot of people worry that the Tatmadaw will dominate the 
government because they will appoint 25 percent of the various 
legislative bodies, but that's not the big problem. There's a 
much bigger problem. The big problem is that, under the 
constitution, the civilian government has no power over the 
Tatmadaw, which can write its own portfolio. It can do anything 
it wants to do. And if it ever gets tired of dealing with the 
civilian government, it can declare a state of emergency and 
send everyone else home. In other words, it can seize control 
just as it did in 1962. The only difference: This time it'll be 
legal. This constitution is not a good-faith gesture toward 
democracy. It's a cynical attempt to buy off international 
pressure.
    So, what policy recommendations follow from this reality? 
Well, we should certainly try to ensure that the elections are 
free and fair, but our greatest focus should be on 
constitutional change, just as Secretary Campbell suggested, so 
that someday Burma might witness civilian rule. That change 
should occur before the elections, but if it must wait until 
after, then we should hold the SPDC to its word. It has always 
claimed that it could not negotiate with the opposition because 
it was only a transitional government, transitioning for 20 
years. After the elections, that excuse will be gone.
    If the United States opens dialogue with the regime, it 
must demand that the regime simultaneously open dialogue with 
its own citizens. But, in order to make demands, we must be 
able to give the regime something. If we relax sanctions now, 
rather than in response to real progress, as Secretary Campbell 
suggested, then we will have that much less to offer.
    And let us speak plainly. If we try to compete with China 
for influence over a military autocracy, we will always lose, 
because there are some things that we just won't do. We win 
only if we can shift the game, only if, through multilateral 
democracy and diplomacy, we can get the regime to stop killing 
its people, and to allow civilian rule. Making premature 
concessions won't shift the game, it will only give the game 
away.
    [The prepared statement of Mr. Williams follows:]

Prepared Statement of David C. Williams, Executive Director, Center for 
 Constitutional Democracy, John S. Hastings Professor of Law, Indiana 
            University Maurer School of Law, Bloomington, IN

    Chairman Webb, Senator Inhofe, I thank you for the opportunity to 
testify during this second anniversary of the Saffron Revolution. 
Chairman Webb, please let me congratulate you on your trip to Southeast 
Asia. I am grateful that you want to consider the many ways that the 
United States might promote democracy in Burma, beyond just the issue 
of sanctions. Finally, and on a more personal note, please let me thank 
you for trying to secure the release of Le Cong Dinh, who is the 
secretary general of the Democratic Party of Vietnam. I advise the DPV 
on constitutional reform. Dinh hosted my family for a 2-week visit in 
the spring, and on the day we left, he was arrested and remains in 
prison. We pray for his well-being and thank you for your efforts.
    But we are here to talk about Burma, not Vietnam, which is a very 
different place. And when thinking about U.S. policy toward Burma, it 
is important to focus on the realities, even when they are 
uncomfortable. I would like to highlight two realities that I know from 
personal experience.
    Here is the first reality: The SPDC is committing mass atrocities 
against the ethnic minorities. I know this because I advise many of the 
ethnic groups on constitutional reform, and I've spent a lot of time 
with them, witnessing conditions on the ground.
    Here is the second reality: Even if the 2010 elections are free and 
fair, which they won't be, they won't bring about civilian rule because 
the Constitution does not provide for it--a partially civilian 
government, yes; but civilian rule, no. I teach constitutional law, and 
I consult in a number of countries, and this is one of the worst 
constitutions I have ever seen. The SPDC has done a good job of 
disguising what they've done, but underneath the attractive labeling, 
there is a blueprint for continued military rule.
    Regarding the ethnic minorities, when you leave Rangoon and get up 
into the hills, things seem very different. I work a lot with the 
Karen, who are the Scots-Irish of Southeast Asia.\1\ They are a hill 
people, musical, clannish, and tough. They have long been dominated by 
a distant government, which they have learned to distrust. As a group, 
they are the gentlest and most loving people I know. But all of them 
were born fighting, because their government is slaughtering them as we 
speak. And they need our help.
---------------------------------------------------------------------------
    \1\ For more on the Scots-Irish, see James Webb, ``Born Fighting: 
How the Scots-Irish Shaped America'' (2005).
---------------------------------------------------------------------------
    Burma's problems began in ethnic conflict, and they will continue 
until the underlying issues are addressed. Some people seem to think 
that Burma's struggle is between one woman, Aung San Suu Kyi, who wants 
democracy, and one man, Than Shwe, who doesn't. But even if democracy 
comes to Burma, the troubles will not end until the needs and demands 
of the minorities have been answered. The resistance groups are not 
strong enough to overthrow the regime, but the regime is not strong 
enough to crush the resistance.
    Conditions in central Burma are bad, but in the ethnic areas there 
is suffering on a biblical scale, in every way comparable to Darfur. 
The military is making war on a civilian population, and its actions 
likely constitute crimes against humanity. The United Nations has found 
that soldiers routinely commit rape with impunity, and rape appears to 
be a policy for population control.\2\ By one U.N. estimate, officers 
commit 83 percent of these rapes, and 61 percent are gang rapes.\3\ 
When outsiders try to investigate, officers commonly threaten to cut 
the tongues and slice the throats of any villager who speaks to 
them.\4\
---------------------------------------------------------------------------
    \2\ See ``Crimes in Burma: A Report by International Human Rights 
Clinic at Harvard Law School'' at 51-64. This definitive report 
analyzes and synthesizes the United Nations reports documenting human 
rights abuses in Burma.
    \3\ See id. at 59.
    \4\ See id. at 60.
---------------------------------------------------------------------------
    But these bald statistics cannot tell the human dimension of the 
suffering; reading the individual accounts is excruciating. As just one 
example: ``Ms. Naang Khin, aged 22, and her sister, Ms. Naang Lam, aged 
19, were reportedly raped by a patrol of SPDC troops . . . when they 
were reaping rice at their farm . . . Their father was tied to a tree. 
Afterward, the two sisters were taken to a forest by the troops. Their 
dead bodies were found by villagers some days later dumped in a hole.'' 
\5\
---------------------------------------------------------------------------
    \5\ See id. at 55.
---------------------------------------------------------------------------
    The Tatmadaw also uses forced labor \6\ and is probably the 
greatest conscriptor of child soldiers in the world.\7\ The military 
does not generally attack the armed resistance forces; instead, it 
burns or mortars villages, over 3,000 villages since 1996.\8\ And this 
has been going on for years, creating one of the worst refugee crises 
in the world--1 million-plus between 1996 and 2006 and \1/2\ million 
still displaced today.\9\ One woman had to run for days through the 
jungle immediately after giving birth, carrying her baby in her arms. 
That baby grew up, got an American law degree, and she is now a 
research fellow in my Center. And she is a miracle of survival.
---------------------------------------------------------------------------
    \6\ See id. at 15-16.
    \7\ See Human Rights Watch, ``My Gun Was as Tall as Me: Child 
Soldiers in Burma'' (2002).
    \8\ See ``Crimes in Burma,'' supra note 1, at 40.
    \9\ See id.
---------------------------------------------------------------------------
    China cannot ignore the ethnic minorities, because it has had to 
deal with a wave of refugees, driven there by the SPDC's attacks. 
Beijing publicly rebuked the regime for creating regional instability, 
which of course would be grounds for Security Council intervention. In 
other words, on this point, China and the United States appear to be on 
the same page with respect to Burma: We all want the attacks to end.
    So what policy recommendations follow from this reality?
    First, the United States should supply humanitarian aid not just 
through Rangoon but also across the borders to the ethnic minority 
areas. The programs in central Burma cannot get out into the hills, and 
as a result, the people who are suffering the most are receiving the 
least.
    Second, the State Department has told us that the regime wants 
closer relations and will appoint an interlocutor. But if we are going 
to enter dialogue with the junta, we must first demand an immediate end 
to the attacks on civilian populations. Otherwise, we will be directly 
dealing with murderers still in the midst of a killing spree.
    Third, Burma will never know peace or justice until there are 
trilateral talks between the SPDC, the democracy forces, and the ethnic 
minorities. The international community has long known this truth, but 
the regime has proved unwilling. If we are going to open dialogue with 
the regime, we must insist that they engage not just with the NLD but 
also with the minorities.
    My second subject is the 2010 elections. We all would like to hope 
that they will usher in a new era of possibility. But in fact, they 
won't bring peace or civilian rule. The runup to the elections has 
already brought more violence, not less. Overwhelmingly, the resistance 
armies have rejected the SPDC's demand that they become border guard 
units after the elections, and the SPDC has responded by attacking the 
Kokang. The conflict will only increase when the regime moves against 
larger groups: We will soon see fighting with the United Wa State Army, 
the Kachin Independence Army, and others. We know for a fact that the 
Burmese military is gearing up for offensives around the country and 
that the resistance groups are getting ready to resist attacks. The 
mountains will run with blood.
    So the elections won't bring peace; they also won't bring civilian 
rule. Some think that we should try to ensure that the elections are 
free and fair--but that really matters only if the elections will 
actually lead to civilian rule, which they won't. The Constitution 
allows the Tatmadaw to keep however much control it likes.
    I clerked for Ruth Bader Ginsburg years ago, and she always taught 
us to read laws very closely. This Constitution bears particularly 
close reading, because it is much worse than is generally reported. A 
lot of people worry that the Tatmadaw will dominate the government 
because they will appoint 25 percent of the various legislative bodies. 
But there's a much bigger problem: Under the Constitution, the Tatmadaw 
is not subject to civilian government, and it writes its own portfolio. 
It can do whatever it wants.
    The Constitution guarantees the power of the Tatmadaw in its 
section on ``Basic Principles''--a clear sign that the framers thought 
the role of the Defence Services to be fundamental. Article 20(b) 
provides that the military will run its own show without being 
answerable to anyone: ``The Defence Services has [sic] the right to 
independently administer and adjudicate all affairs of the armed 
forces.'' The Constitution defines the ``affairs of the armed forces'' 
so broadly as to encompass anything that the Tatmadaw might want to do. 
Article 6(f) provides that among the ``Union's consistent objectives'' 
is ``enabling the Defence Services to participate in the National 
political leadership role of the State.'' Article 20(e) further assigns 
the Tatmadaw primary responsibility for ``safeguarding the 
nondisintegration of the Union, the nondisintegration of National 
solidarity and the perpetuation of sovereignty.'' This regime has 
frequently found a threat to ``National solidarity'' when people merely 
disagree with it; it is prepared to slaughter peacefully protesting 
monks. There is no reason to think that after 2010, the Tatmadaw will 
think differently.
    Because the Tatmadaw's responsibilities are so broadly and vaguely 
defined, the question of who will have the power to interpret their 
scope is critical. The Constitution answers that question clearly: The 
Tatmadaw will have the power to determine the powers of the Tatmadaw. 
Article 20(f) assigns the Tatmadaw primary responsibility ``for 
safeguarding the Constitution.'' But if the military is the principal 
protector of the Constitution, then the military will presumably have 
the final authority to determine its meaning, so as to know what to 
protect. And indeed, Article 46 implicitly confirms this conclusion: It 
gives the Constitutional Tribunal power to declare legislative and 
executive actions unconstitutional, but it conspicuously
omits the power to declare military actions unconstitutional. In other 
words, the Tatmadaw has the final authority to interpret the scope of 
its own constitutional responsibilities. Most first year law students 
have read a famous portion of Bishop Hoadly's Sermon, preached before 
the King in 1717: ``Whoever hath an absolute authority to interpret any 
written or spoken laws, it is he who is truly the lawgiver, to all 
intents and purposes, and not the person who first spoke or wrote 
them.'' \10\ And under the Burmese Constitution, the Tatmadaw will be 
``truly the lawgiver,'' not the people elected in 2010.
---------------------------------------------------------------------------
    \10\ See Choper, Fallon, Kamisar, and Shiffrin, ``Constitutional 
Law: Cases--Comments--Questions,'' page 1 (Ninth Edition 2001).
---------------------------------------------------------------------------
    The Constitution further ensures that the Tatmadaw will have the 
power to control the citizenry on a day-to-day basis. Under Article 
232(b)(ii), the Commander-in-Chief will appoint the Ministers for 
Defence, Home Affairs, and Border Affairs. The military's control over 
home affairs is especially ominous because it gives the Defence 
Services broad power over the lives of ordinary citizens in their daily 
lives.
    The military's control over Home Affairs (as well as Defence and 
Border Affairs) will constitute a military fiefdom, not part of the 
civilian government in any meaningful sense. The Commander-in-Chief 
will have power to name the Ministers without interference from any 
civilian official. The President may not reject the Commander-in-
Chief's names; he must submit the list to the legislature. See Article 
232(c). The legislature may reject those names only if they do not meet 
the formal qualifications for being a minister, such as age and 
residence. See Article 232(d). Theoretically, the legislature could 
impeach those ministers under Article 233, but the Commander-in-Chief 
would merely reappoint a new minister acceptable to him.
    In addition, these ministers will continue to serve in the 
military, so they will be under orders from the Commander-in-Chief, not 
from the President. See Article 232(j)(ii). In other words, the 
Commander-in-Chief will be administering home affairs, immune from 
interference by the civilian government. Theoretically--again--the 
legislature might try to pass statutes controlling the Tatmadaw, but 
recall--again--that under Article 20(b), the Tatmadaw has the ``right 
to independently administer and adjudicate all affairs of the armed 
forces.''
    The independent power of the Tatmadaw over ordinary citizens 
includes the power to impose military discipline on the entire 
population. Article 20 provides: ``The Defence Services has the right 
to administer for participation of the entire people in Union security 
and defence.'' In other words, the military may forcibly enlist the 
whole citizenry into a militia so as to maintain internal ``security.'' 
And, again, the civilian government has no control over the military's 
operations. After the elections, Burma will be a military dictatorship 
just as much as now.
    In short, during normal times, the Tatmadaw has constitutional 
power to do anything it wants without interference from the civilian 
government. But if it ever tires of the civilian government, it can 
declare a state of emergency and send everyone else home. On this 
subject, the Constitution uses a bait-and-switch approach: in one 
section, it creates a process for declaring a state of emergency in 
which the civilian government will have a role; but in another section, 
it specifies that the military may retake power entirely on its own 
initiative. Thus, in Chapter XI, the Constitution provides for the 
declaration of a state of emergency in which the military would assume 
all powers of government, see Article 419, but it would require 
Presidential agreement before the fact, see Article 417, as well as 
legislative ratification afterward, see Article 421. But in Chapter I 
on Basic Principles, Article 40(c) provides for a very different, 
alternative process in which the Commander-in-Chief can act at his own 
discretion: ``If there arises a state of emergency that could cause 
disintegration of the Union, disintegration of national solidarity and 
loss of sovereign power or attempts therefore by wrongful forcible 
means such as insurgency or violence, the Commander-in-Chief of the 
Defence Services has the right to take over and exercise State 
sovereign power in accord with the provisions of this Constitution.'' 
(emphasis supplied). To be sure, the Tatmadaw may seize power only if 
``national solidarity'' is threatened, but as already shown, the 
military has unreviewable authority to decide whether such a threat 
exists.
    In other words, the Tatmadaw can seize control just as it did in 
1962, and this time it will be legal. The whole Constitution is based 
on a ``wait and see'' strategy: If the civilian government does what 
the Tatmadaw wants, then it will be allowed to rule; if not, then not. 
This Constitution is not a good faith gesture toward democracy; it's a 
cynical attempt to buy off international pressure.
    So what policy recommendations follow from this reality? We should 
certainly try to ensure that the elections are free and fair, unlike 
the referendum on the Constitution, if the regime will permit us. But 
our greatest focus should be on constitutional change, so that someday 
Burma might witness civilian rule. That change should occur before the 
elections, but if it must wait until after, then we should hold the 
SPDC to its word: it has always claimed that it could not negotiate 
with the opposition because it was only a transitional government--for 
20 years. After the elections, that excuse will be gone.
    If the United States opens dialogue with the regime, it must demand 
that the regime simultaneously open dialogue with its own citizens. But 
in order to make demands, we must be able to give the regime something. 
If we relax sanctions now, rather than in response to real progress, 
then we will have that much less to offer--as Secretary Clinton and the 
66 cosponsors of the sanctions have recognized. And let us speak 
plainly: If we try to compete with China for influence over a military 
autocracy, we will always be at a disadvantage because there are some 
things we just won't do. We win only if we can shift the game, only if 
through multilateral diplomacy we can get the regime to stop killing 
its people and to allow civilian rule. Making premature concessions 
won't shift the game; it will only give the game away.

    Senator Webb. Thank you very much, Professor Williams, for 
being with us today. And, for the record, I don't think there 
is anyone in this process who is advocating continuing current 
abuses by any government, nor is there anyone that I know of 
who is advocating lowering the standards of the United States 
to those of China when it comes to international relations.
    Let me ask you a question. You indicate that you're 
involved in the democracy movement in Vietnam.
    Mr. Williams. It may be too strong to say there's a real 
movement in Vietnam. There are people who want democracy. And 
there's something called----
    Senator Webb. I don't think it's too strong, I've been----
    Mr. Williams. OK. Well, good, I'm glad to----
    Senator Webb [continuing]. Working on it for 18 years----
    Mr. Williams [continuing]. I'm happy to hear that, good.
    Senator Webb. Actually for 40 years----
    Mr. Williams. OK.
    Senator Webb [continuing]. Since I fought there as a 
marine, Professor.
    Mr. Williams. Yes, I know.
    Senator Webb. And I started working with respect to 
democracy in Vietnam 18 years ago, on my first visit to Hanoi.
    Mr. Williams. Yes.
    Senator Webb. I don't take a back seat to you or anybody 
else when it comes to aspiring for democratic governments in 
that part of the world.
    Mr. Williams. I'm sure that's right.
    Senator Webb. Do you favor sanctions against Vietnam?
    Mr. Williams. I do not.
    Senator Webb. Do you favor sanctions against Burma?
    Mr. Williams. I favor keeping sanctions against Burma, and 
relaxing them only in response to real progress.
    Senator Webb. But, in conceptual terms, you are not opposed 
to the idea of lifting sanctions.
    Mr. Williams. In response to real progress, I am in favor 
of the idea of lifting sanctions.
    Senator Webb. OK. Well, let me just say to you, I was one 
of those who resisted lifting the trade embargo against 
Vietnam, for a number of years. And when I first went back to 
Vietnam in 1991, the conditions inside Vietnam were worse than 
I saw in Burma in 2001. And I think probably the major 
contributor to the openness that we have seen--however 
imperfect--in Vietnam was lifting the trade embargo; allowing 
people from Western society to interact with people on the 
street, allowing situations such as an open Internet--there are 
now an estimated 40 million Internet users in Vietnam--you have 
to take what you can get, no matter what the eventual 
aspirations are that all of us share, wouldn't you agree?
    Mr. Williams. I would agree. We've got to focus on what we 
can get, that's right.
    Senator Webb. Actually, Dr. Steinberg, I was going to start 
with you. I can't resist this. I received a letter, when I 
returned from this last Southeast Asian trip, from an 
individual in London who is a historian, who had among his 
books written a very favorable biography of Aung San Suu Kyi. 
And at the end of his letter, I thought of you because of the 
fact that you had lived in Burma for 4 years, beginning in 
1958. He said, ``Scroll back to the mid-1950s, and those who 
could afford it traveled from Bangkok to Rangoon to shop. Burma 
was still a democracy; Thailand was under the cosh of the 
military. Today the situation is exactly reversed. Why?''
    I mean, that--it's his ``why,'' not my ``why.'' What 
happened?
    Dr. Steinberg. I think that his statement is accurate. If 
all of us had sat in the Mayflower Hotel bar and tried to think 
at that time which country would develop most rapidly, 
Thailand, Burma, or South Korea, we all would have said Burma. 
South Korea would have been out of it completely.
    And the reason I think that Burma has failed has been 
twofold. One, of course, is absolutely disastrous economic 
policies and, I would argue, disastrous social policies, toward 
the minorities especially developed over time, and not only 
authoritarian rule, but authoritarian rule by a single man, 
General Ne Win, who was absolutely a dictator with whom nobody 
could disagree. And the result his whim was, in fact, law. And 
although he in fact, had a lot of experience traveling abroad, 
he had very limited concepts of what was going on. He was very 
good at manipulating people, and stayed in power. He was in 
power, in fact, from 1961 until he died in--well, he died in 
2002, but until 1988, and then he was behind the scenes in 
power even for some years after that.
    But, these policies have been unique in the sense that 
there is no mechanism in that society for dissent. Under Ne 
Win, there was no mechanism for dissent. Under the present 
government, there is no mechanism for dissent. There's no 
Chinese Imperial Censorate to tell the emperor, ``That's not a 
good idea, don't do it that way.'' There's no free press that 
in the modern world says the same thing. This means that there 
is arbitrary rule, and arbitrary rule based on ignorance leads 
to disaster.
    Senator Webb. Thank you.
    I'd like to go back to an important point that Professor 
Williams made, that Burma's problems began in ethnic conflict, 
and will continue until the underlying issues are addressed. 
And I'm wondering the thoughts of the panel on, first of all, 
how important the ethnic conflict issues are, as opposed to the 
political issues that we invariably discuss here, in terms of 
resolving the problem, and what steps we could take.
    And, Dr. Myint-U, maybe I can start with you on that.
    Dr. Myint-U. I think, in the long term, the ethnic issues 
are extremely important. It is a country where the ethnic 
majority Burmese people are anywhere between 60 and 70 percent 
of the population. You have so many other ethnic groups, you 
have many of the ethnic groups--many of the armed groups are 
based on specific ethnic communities. None of the underlying 
issues that began the ethnic conflict in the 1940s and 1950s 
have been addressed, and I think it'll be very hard to see them 
addressed unless we have a much more open political system, if 
not an actual democracy.
    I think--in the short term, though, I think certain 
improvements can be made without addressing these underlying 
issues. As you know, the fighting in Burma, which went on for 
many decades, largely ended in the late 1980s and 1990s, except 
on the Thai border. The cease-fires remain intact. We'll know 
over the coming year or so whether those cease-fires collapse, 
or whether--or if the government will be able to deal--or the 
Burmese Army will be able to do a deal with the leadership of 
some of these groups to move the cease-fires forward to 
something a little bit more sustainable.
    Though I think in the short term it's unlikely that we'll 
see a resumption of full-scale hostilities, but I think 
whatever happens in the short term, this need to address the 
underlying ethnic grievances, the sense of discrimination, not 
just by the ethnic groups that are fighting now, but by other 
big ethnic minority communities in Burma, religious minority 
communities in Burma, will remain.
    And again, we haven't even begun the process of any sort of 
dialogue between minority communities, or between those 
communities and the Burmese majority, because of the lack of 
political freedom that exists in the country right now.
    Senator Webb. Dr. Steinberg.
    Dr. Steinberg. I agree that the ethnic issues are the most 
important issues facing the country over the longer term. 
Unfortunately, the military has said, since 1962, that 
federalism is an anathema; it is the first step on the road to 
secession. In fact, federalism--some form of federalism by some 
name is, in fact, I would argue, necessary for the future of 
that country. And the NLD platform in 1989 called for a form of 
federalism, even though the NLD is basically a Burman party. 
And there is a need for the minorities who have been separated 
to get together. They have tried that on a number of occasions. 
But, the Burmans are terribly fearful of the secession issue. 
This is their primary objective, the unity of the country.
    So, I am trying to explain, when I have contact with the 
military, that--``Forget the issue of U.S. interests, but talk 
about your own interests. You're not going to get unity the way 
you're going. You are destroying the very concept you are 
trying to initiate.'' The atrocities on the border are 
certainly true. The disdain that the military have for some of 
the minorities, the glass ceilings that exist within the 
military and civilian government for some of the minorities, 
both religious and ethnic, are real, and they are felt very 
strongly by the people.
    Senator Webb. Professor Williams.
    Mr. Williams. Well, we're all in agreement on this issue, 
that this is critical to the future of Burma, both long term 
and short term. I agree with Professor Steinberg that some kind 
of federalism is the only possible solution. I also agree that 
the current regime, and many ordinary Burmans, are very 
uncomfortable with the idea.
    On the ethnic side, I would like to say, just because it's 
often misrepresented, I think a lot of ordinary ethnic people 
do want independence. None of the leaders formally want 
independence. Sometimes they say that, but they know they're 
going to be part of a single country. And that's critical, and 
that has to be the basis for future negotiations. It's going to 
be one country, but with some devolution of power.
    I would also add that, in a certain sense, that's what 
Burma has had for some time now. What those cease-fires are, in 
a certain sense, is they're federalism on the ground. And all 
of a sudden a lot of those powerful ethnic armies are realizing 
that this is about to roll backward.
    I agree with Dr. Thant Myint-U that it would be great if 
the military would figure out some way to maintain those cease-
fires. That will almost surely be unconstitutional, because the 
constitution provides that the Tatmadaw will be the only 
military force in Burma. And so, there's a crisis brewing here.
    The other difficulty that happened is that there are some 
very large ethnic armies, very well equipped. Much of that 
money is off methamphetamines and opium. The regime has, in the 
past, played ball with those groups. It's taken a cut off of 
the drug proceeds and allowed them to do their own thing. Those 
are the people in the pipeline right now for conflict, because 
all of a sudden the regime wants to undo those cease-fires. And 
that could be terrible, bloody fighting in the next little bit.
    Senator Webb. Thank you.
    I should have made this my first follow-on question--I'd 
like to give Dr. Myint-U and Dr. Steinberg the opportunity to 
discuss their view of the issue that Professor Williams raised 
about the notion that the election process will not provide a 
civilian government. What are your thoughts on that? Either 
one.
    Dr. Steinberg. The new constitution will provide military 
control, as Dr. Williams has said, over the society. It will be 
civilianized. The military are training all kinds of military 
people to assume what we would regard as civilian positions. 
Now, in that government, there will be some openings. But, at 
the same time, as Dr. Williams has said, the military will 
control its own budget, its own personnel, its own activities. 
The civilians will have no control over that. And the military 
have a--basically a get-out-of-jail-free card. Nobody can be 
tried for any actions committed officially in the previous 
administration.
    So, it is a flawed constitution. It does, though, offer 
some avenue for some minority--I mean, minority parties and 
opposition parties, which are now being attempted to be formed, 
or formulated, even before the law on political party 
formulation has been set forth.
    We don't know what's going to happen in the elections. I 
assume that the government assumes that it will win. But, 
remember that, in the 1990 elections, in which certainly the 
campaigning was completely unfair, they counted the votes 
fairly, otherwise how would the opposition get 80 percent of 
the seats? So, therefore, it's a little bit more mixed.
    One other thing that I wanted to mention on the question of 
narcotics. I do not believe the United States Government has 
ever claimed that the Burmese Government officially, at the 
center, gets money from the narcotics trade. Individual 
military and those in local areas, I'm sure certainly do; 
otherwise, the trade couldn't exist. But I think that is a 
distinction that we should make. Burma is not a narcostate, in 
those terms.
    Senator Webb. Thank you.
    Dr. Myint-U.
    Dr. Myint-U. Yes, I think it--I think the answer to the 
question really depends on whether or not General Than Shwe is 
around, or not. I think if he's around, and active, then he's 
going to be the man in charge. And the difference between ex-
military, military, army, parts of this new government, may not 
make that much difference if he's, overall, in charge. I think 
he's going to try to bring younger blood into the top ranks of 
the army; he's going to try to make sure that the army 
commander in chief, the new one, is going to be someone who is 
going to be loyal to him. And then I think many of the current 
top generals will retire from the army, but be given new posts 
in the civilian government. It'll be a civilian government, in 
the sense that most of the people will be civilians, but many 
of these people will be people with former army backgrounds.
    And I think if General Than Shwe steps back, or he becomes 
ill, or is no longer active, or when he finally dies, then I 
think you'll have a very different picture. Because what he is 
setting up, essentially, is a system that guarantees that there 
will not be a single strongman who replaces him while he's 
still alive. But, what that means is that when he's no longer 
there, you will have a very fractured system on the ground. And 
where that leaves the country afterward is very difficult to 
tell.
    If you look at the local--state and regional governments, 
it sets up a local assembly and a local chief ministership--
what you're going to have there is, you're going to have 
regional army commanders, some of these younger officers who 
are in their forties right now, who become brigadier generals 
to become regional army commanders, and their incentives will 
be still with the army, and their loyalty will still be with 
the army. Next to them, though, you will have a chief minister, 
who will likely be an ex-general, who will be older than them, 
10 years more senior to them. So, it remains a question mark--
and their incentive structure will no longer be with the army, 
but will likely be with local business interests, or other 
interests, in their region or state--so, it remains a big 
question mark, in terms of who's going to be in charge at that 
point. Is it going to be the army guy, or is it going to be his 
former superior in the army, who's nominally a civilian?
    So, again, as long as General Than Shwe is in charge, or 
there in the background, I think a lot of these differences 
might not make that much difference. But, the moment he goes, 
or loses a degree of control, this constitution will set up, 
again, a very fractured system, both at the local level and at 
the top, for better or for worse.
    Senator Webb. Well, intellectually, the questions are, 
first of all, whether this document and the implementing 
legislation are basically final documents, No. 1. No. 2, 
whatever the document ends up being as the final document, even 
if it is this document, is it a transitional process, or, as 
Professor Williams was intimating, is it--I don't want to put 
too strong a word in your mouth, Professor Williams--but 
basically fraudulent? And if we don't do this, what do we do? 
What's the step forward?
    Dr. Steinberg. I think the Burmese military regard this as 
a final document. The NLD executive committee, with whom I met 
in March, said they want to see the constitution renegotiated. 
I said I don't believe the military will ever do that before 
the elections. So, they regard it as final at the moment.
    A transitional process? Over time, perhaps. Yes, it will 
take 75-percent vote in the assembly to amend the constitution, 
and the military have 25 percent of the seats automatically, 
and will pick up a good many more through the elective process. 
But, that does not mean that things will not change over time. 
And this is the only game in town. We can say, ``We won't deal 
with you,'' and go back to isolation, and pretend that the 
elections never were held, or we can say, ``OK, what can we do 
to make things better?'' And again, I go back to what I said 
earlier, concentrate on the Burmese people. They are in a 
socioeconomic crisis. The U.N. has said this for years, the 
international NGOs have said that. So, we need to start 
somewhere, and it seems to me one starts by saying, How can we 
alleviate their poverty and their social conditions, at the 
same time, try and move the military and the new government, 
this mixed government, to some understanding of its own issues? 
I argue that the leadership of the military is partly in a 
Potemkin Village society. I believe that they are not informed 
of the real problems facing the people, by their own mid-level 
people.
    I know that--I have been told by the government that 
statistics are manipulated, because the target is to please the 
military.
    Senator Webb. And in terms of governmental systems, and 
particularly in East Asia, these processes are unavoidably 
incremental. And this is one of my points with respect to the 
involvement that I've had over the years in Vietnam. Let's not 
forget that the Vietnamese Communists agreed in 1972 to 
internationally supervised elections, at the Paris Peace Talks. 
We obviously haven't gotten there yet. You can't even really 
have an active opposition party in Vietnam yet. But, again, our 
aspirations should not be deterred by the different roads that 
we have to take to achieve them. And this is the reason, from 
my perspective, in good faith, I believe that the 
administration's proposal right now, its decision to engage, is 
beneficial. And if it does not work, we're not anywhere 
different than we were 5 days ago.
    Dr. Steinberg. I would agree.
    Senator Webb. And if it does work, step by step, over a 
period of time, we have the potential to assist the Burmese 
people and the country of Burma, which has such a rich history, 
in achieving the level of prosperity and freedom and full 
participation in international affairs that they deserve. And 
for me, that is my bottom line on the process that is now in 
place.
    Dr. Steinberg. I would agree with that.
    Senator Webb. And I will give each of you gentlemen a 
chance to have one final observation, and we're going to end 
the hearing on these notes.
    Mr. Williams. Just in response to your most recent question 
about the nature of this constitution, it's not too strong to 
say that I think it's a fraudulent constitution. But, though it 
may have been born in fraud, that doesn't mean it can't become 
a transitional constitution. And that's what we all need to 
hope, that there will be some sort of process, some dialogue, 
among Burmese people, on transforming this into a genuinely 
democratic constitution, rather than a recipe for further 
military dictatorship. The goal of our government, and I heard 
Secretary Campbell say this earlier, ought to be to try and 
take this document, move it from fraud into transition, in a 
step-by-step process by, in fact, yes, directly talking to the 
regime, as Aung San Suu Kyi has said she would do, for a very 
long time.
    Senator Webb. Dr. Myint-U.
    Dr. Myint-U. I'm not too worried about the constitution as 
a constitution. I mean, as Professor Williams said, you know, 
past constitutions have been torn up by the military. They can 
do that to this constitution, as well, in the future.
    I think the most important thing in thinking about 2010 is 
not thinking about this as necessarily a first step toward--in 
a democratic transition, but to think about 2010 as a huge 
reorganization of this system that's going to throw up 
unexpected dynamics, that's going to bring fresh blood and new 
people to the top of the regime. And I think we need to think 
strategically about what happens the day after the election, 
the day after a new government is created. It will have some 
fresh faces, it will have a lot of ex-military people as well 
as military people. And I think the message needs to get to 
them that, whatever the process has been up to that point, that 
they will also be judged by their policies, their media 
policies. If, at that point, they release remaining political 
prisoners, if they move forward on economic reform and other 
issues, that that will be welcome.
    So I think we shouldn't get too hung up on the process. I 
think the elections may or may not be free and fair. I doubt 
they'll be fully free and fair. I think what's more important 
is going to be whether or not the new leadership is going to be 
pragmatic and more outward-looking, or if it's going to be 
hard-line in every way.
    I think--in general, and in conclusion, I think, you know, 
the great tragedy will be that you have this big 
reorganization, you have this generational transition, you have 
new people coming up in the leadership, but because of a lack 
of imagination of outside exposure of an unawareness of other 
options, they fall back on the status quo, and then we're stuck 
with the same situation that we've had for the past 40 years. I 
think now is when there's fluidity. But, I think if we're going 
to exploit that fluidity we have to think beyond the process 
itself, and think a little bit more creatively about how to 
exploit the changes that are going to take place within the 
system.
    Thank you.
    Senator Webb. Dr. Steinberg, you have the final word.
    Dr. Steinberg. I think the document has to move, the 
constitution has to evolve. And--but I think it is also hubris 
for the United States to think that we can move that document. 
I think we can encourage rethinking about it, but it is up to 
the Burmese themselves.
    As the Burmese always used to say, ``We do things bama-
lo,'' in the Burmese manner. Now, the military wouldn't approve 
of that, they would say, ``We do it Myanmar-lo,'' in the 
Myanmar manner. But, at the same time, it will be Burmese. They 
have been put upon as a people, and they feel that the 
foreigners have played too great a role in the economy under 
the Colonial period, let alone the Colonial period itself; in 
terms of support to dissident groups and insurrections; in 
terms of disdain for the society. All of these things are 
cumulative. And we have to understand that we should be 
encouraging the Burmese themselves to deal with this change. 
And we should provide whatever assistance we can. We all agree 
on humanitarian assistance, training, those sorts of things.
    So, we should encourage the Burmese, but let's understand 
our limitations. And I think that engagement is one way of 
beginning the process, but ensuring to the Burmese that they, 
in fact, will carry the ball.
    Senator Webb. I thank all three of you for your testimony 
today, for taking the time to be with us, and Dr. Thant Myint-U 
for making the long journey from Bangkok to be here.
    And, as I mentioned earlier, the record for this hearing 
will remain open for 24 hours, in case other members or other 
organizations wish to submit testimony.
    Thank you very much. I think this has been a very 
illuminating hearing.
    The hearing is now closed.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator From Indiana

    Thank you, Chairman Webb, for holding this hearing to review U.S. 
policy toward Burma, and I also extend appreciation to Senator Inhofe 
for his work as ranking member on the East Asian and Pacific Affairs 
Subcommittee.
    This hearing is timely given the Obama administration's review of 
the United States policy on Burma.
    As the United States contemplates policy options, we will, I hope, 
compare notes with other countries actively engaged in Burma. China, 
Japan, India, Thailand, Singapore, and South Korea are among those 
nations who are direct witness to the deteriorating education and 
health care infrastructure within Burma. The mismanagement of Burma's 
economy started long before imposition of U.S. sanctions.
    At a massive cost to themselves and the United Nations, Thailand 
and Malaysia receive hundreds of thousands of migrants and refugees, 
largely ethnic minorities, who continue to flee Burma. More than 50,000 
persons have now applied through UNHCR offices in Malaysia and Thailand 
for resettlement to a third country. Ten thousand Burmese refugees have 
now resettled in my home State of Indiana.
    The Obama administration's policy review includes reference to the 
growing North Korea-Burma relationship. The United States has a 
responsibility to our friends and allies throughout Asia to oppose 
actively the possible proliferation of weapons of mass destruction to 
or from Burma. Since I first discussed the troubling prospects of 
renewed ties between these two countries in 2004, the Foreign Relations 
Committee has repeatedly raised the issue of Burma's growing 
relationship with North Korea with a wide array of U.S. administration 
officials.
    For example, we have questioned the basis for hundreds of Burmese 
officials going to Russia for technical education which included 
nuclear technology training. The number of persons traveling to Russia 
for specialized training seemed to be far beyond the number needed for 
the eventual operation of a nuclear reactor for medical research 
purposes, intended to be built by the junta with Russian Government 
assistance.
    Burma's multiple uranium deposits, reports of uranium refining and 
processing plants, and it's active nuclear program reportedly assisted 
by North Korea collectively point to reason for concern in a country 
whose officials resist transparency.
    Dr. Sigfried Hecker, director emeritus of Los Alamos National 
Laboratory and now codirector of the Center for International Security 
and Cooperation at Stanford University recently wrote, ``The A.Q. Khan 
network connected companies, individuals, and front organizations into 
a dangerous proliferation ring. The revelations of the North Korean 
reactor in Syria, along with developments in Iran and Burma, appear to 
point toward a different type of proliferation ring--one run by 
national governments, perhaps also assisted by other clandestine 
networks.''
    Mr. Chairman, today's witnesses represent distinguished experts on 
Burma. I am pleased to introduce a Hoosier, Prof. David Williams, 
executive director of the Center for Constitutional Democracy at 
Indiana University, who has extensive background on Burma-related 
issues.
    Again, Mr. Chairman, thank you for holding today's hearing.
                                 ______
                                 

           Prepared Statement of Congressman Mark E. Souder,
                    U.S. Representative From Indiana

    Mr. Chairman, members of the committee, thank you for the 
opportunity to contribute some remarks on this important topic. I 
represent the Third District of Indiana, which is home to the largest 
concentration of people from Burma in the United States. In recent 
years, resettlement agencies have placed well over 2,000 refugees in 
Fort Wayne, IN. Fort Wayne has also become a ``community of choice'' 
amongst the refugee community, and secondary migrants have increased 
Fort Wayne's population of people from Burma to over 6,000. As a 
result, the Third District is acutely aware of the atrocities and 
suffering that the people from Burma have faced at the hands of the 
State Peace and Development Council (SPDC).
    I am disappointed that this hearing, which is intended to evaluate 
U.S. policy toward Burma and the role our country can play in 
facilitating democratic reform, did not invite testimony from a single 
representative of Burma's democracy movement or one individual who has 
endured the violence of the Tatmadow. A thorough evaluation is 
impossible without their perspective.
    Over the years, U.N. reports have documented some of the military 
regime's harrowing crimes, including widespread rape, conscription of 
child soldiers, torture, and the destruction of thousands of villages. 
It is clear that the SPDC has in part been conducting a war against its 
own citizens.
    In spite of these realities, the administration has recently 
engaged in direct dialogues with the Burmese regime and the committee's 
hearings today are in part seeking to reevaluate the role of sanctions 
in U.S. policy. I support the establishment of a peaceful and 
democratic Burma. However, it is improbable that this can be achieved 
through negotiations with the junta--a dictatorship will not act in 
good faith and broker a deal that will lead to its own demise.
    Before such dramatic changes in policy can be made, it is necessary 
for the military dictatorship to demonstrate a clear movement toward 
democracy. This must include ending the current violence against its 
citizens, installing Daw Aung San Suu Kyi to her rightful place as 
Burma's democratically elected Prime Minister, and drafting a 
constitution that creates the possibility for true civilian leadership. 
Until we see this kind of progress, the United States cannot give 
validity to this illegitimate government.
                                 ______
                                 

 Responses of Assistant Secretary Kurt Campbell to Questions Submitted 
                                   by
                        Senator Russell Feingold

    Question. Secretary Clinton has made clear that the United States 
will maintain sanctions until substantial, concrete progress has been 
made. Does this mean that the United States will continue to implement 
financial sanctions from the Treasury Department, as authorized by the 
Jade Act? What is the status of U.S. cooperation with Europe on 
implementing financial sanctions, and will this effort change given the 
policy review?

    Answer. Yes, the Treasury Department will maintain existing 
financial sanctions until Burmese authorities make concrete progress 
toward reform.
    With regard to cooperation with Europe, Treasury's Office of 
Foreign Assets Control, in coordination with the State Department, 
continues outreach to the Council of the European Union and European 
Commission staffs to exchange information and provide technical 
expertise on the implementation of economic sanctions with respect to 
Burma.

    Question. Section 7 of the Tom Lantos Block Burmese JADE Act of 
2008 (Public Law 110-286) requires the President to appoint a Special 
Representative and Policy Coordinator for Burma. The Senate has not yet 
been notified of a nomination for this position; when do you anticipate 
this will be? What role will the policy coordinator play in the 
proposed engagement policy?

    Answer. The administration places a high priority on the 
appointment of a Special Representative and Policy Coordinator for 
Burma, as required by the JADE Act, and hopes to appoint an individual 
soon. Consistent with the language of the JADE Act, the Special 
Representative would play an important role in promoting an 
international and multilateral effort to promote positive change in 
Burma. While the day-to-day responsibility for U.S. diplomacy toward 
Burma remains with the Department of State, the Special Representative 
could contribute in many ways.

    Question. Many of the opposition and ethnic groups have demanded 
negotiations to amend the Constitution before agreeing to participate 
in the elections. Does the administration support holding elections 
under the current Constitution? Under what conditions would the 
administration provide assistance to facilitate the elections? Should 
there be a substantial increase in violence as elections move forward, 
as some human rights groups have warned there may be, how would this 
effect the new policy of engagement?

    Answer. The administration unequivocally supports the initiation of 
a credible dialogue among the regime, the democratic opposition, and 
ethnic minority groups to discuss a shared vision for Burma's future. 
Our policy review reaffirmed that position. We also have raised and 
will continue to stress to the Burmese the conditions necessary for a 
democratic electoral process. For example, there should be credible 
competition (including the early release of political prisoners and the 
full participation of all political stakeholders, including Aung San 
Suu Kyi), elimination of restrictions on media, and a transparent, 
free, and open campaign, including freedom of expression, association, 
assembly, and movement. The 2010 elections will only bring legitimacy 
and stability to the country if they are broad-based and include all 
key stakeholders. At this point the Burmese have neither set a date for 
the elections nor issued an electoral law; in addition, many opposition 
and ethnic groups have not yet decided whether they will participate. 
Until more of the electoral process is known, it is too soon to 
speculate whether the United States should or would provide technical 
assistance for the elections.
    Our dialogue with the Burmese leadership has just begun. We will 
examine the conditions in Burma and evaluate the progress on our core 
concerns as we continue this process.
                                 ______
                                 
                  International Burmese Monks Organization,
                                  Elmhurst, NY, September 30, 2009.
Senator Jim Webb,
Chairman, Subcommittee on East Asian and Pacific Affairs, Senate 
        Committee on Foreign Relations, Washington, DC.
    Senator Webb: On behalf of the International Burmese Monks 
Organization (IBMO), an organization of Burmese Buddhist monks from 
over 20 countries, as well as monks who remain inside Burma, I hereby 
submit the written testimony attached to this message, to be included 
in the official record of the hearing on Burma, which you will chair on 
September 30, 2009, 2:30 pm at 419 Dirksen Office Building.
    We are disappointed that neither monks nor members of Burma's 
democracy movement were invited to testify at the hearing, even though 
you claim that ``you intend the comprehensive hearing to evaluate the 
effectiveness of U.S. policy toward Burma.'' Your hearing will not be 
comprehensive without hearing the true aspirations of the people of 
Burma.
    The IBMO is a voice of the people of Burma, as well as our fellow 
monks, who believe in the power of non-violence to bring change in 
Burma. The IBMO was formed after the Saffron Revolution in September 
2007, in which many monks, who were peacefully reciting the Lord 
Buddha's teaching of the Metta Sutra (loving and kindness), were 
brutally attacked, arrested, imprisoned, beaten, and even shot and 
killed by the Burma's military regime. The IBMO raises international 
awareness about the suffering of the people of Burma and their 
continued non-violent struggle for democracy and human rights.
            Sincerely yours,
                            Venerable Ashin Candobhasacara,
               Secretary, International Burmese Monks Organization.
    Attachment.

   Prepared Statement of the International Burmese Monks Organization

    Mr. Chairman, ranking member and members of the subcommittee, we 
are compelled to submit this testimony in writing since your hearing is 
intended to evaluate the effectiveness of U.S. policy toward Burma, yet 
no monks or members of Burma's democracy movement were invited to 
testify.
    We would like to take this opportunity to extend our deepest 
gratitude to the United States Congress, administration and people for 
their consistent and unwavering support for the nonviolent struggle for 
democracy and human rights in Burma, led by detained Nobel Peace Prize 
Recipient Daw Aung San Suu Kyi. We especially thank the 66 U.S. 
Senators and many Members of the House of Representatives who 
cosponsored the resolution to maintain sanctions on Burma contained in 
the Burmese Freedom and Democracy Act of 2003. We strongly believe that 
the United States should maintain current sanctions against the Burmese 
military regime and strengthen these sanctions to the maximum level, 
unless the regime commits to the positive changes that we all are 
trying to achieve.
    Recently, Secretary of State Hillary Clinton announced the review 
of new U.S. policy toward Burma. She said, ``We will maintain our 
existing sanctions until we see concrete progress towards reform. But, 
we will be willing to discuss the easing of sanctions in response to 
significant actions on the part of Burma's generals that address the 
core human rights and democracy issues that are inhibiting Burma's 
progress.'' This is in line with our views and we support the policy of 
using sanctions and diplomacy, together.

We would like to make the following recommendations
    Over the years, Burma's regime has shown expertise in manipulating 
the international community with hollow promises and false hopes. U.S. 
officials should be aware of the regime's tricks, and must stay focused 
on the goals stated by Secretary Clinton. U.S. direct diplomacy with 
the regime should not be an open-ended process, but should take place 
within a reasonable timeframe and with clear benchmarks. We also urge 
the U.S. Government to try to reach out those in the regime that make 
all major decisions.
    While keeping current sanctions in place, the United States should 
prepare to increase pressure on the regime if the regime refuses to 
negotiate with the democratic opposition and conducts more abuses 
against the people of Burma, including ethnic minorities. The U.S. 
should support and lead a campaign calling on the United Nations 
Security Council to impose a global arms embargo on Burma and establish 
a Commission of Inquiry to investigate crimes against humanity and war 
crimes committed by the military regime. The U.S. should also extend 
current targeted financial and banking sanctions against the regime's 
officials and Burmese business cronies who are partners of the regime. 
Finally, the U.S. also should coordinate with the European Union in 
imposing financial sanctions against targeted individuals in Burma.

Effectiveness of sanctions
    U.S. imposition of an investment ban in Burma began in 1997 and 
continues to this day, thanks to President Obama, who extended those 
sanctions in May of this year. Further economic sanctions were imposed 
in 2003, after the Depayin Massacre, in which Daw Aung San Suu Kyi and 
her entourage were brutally attacked by the regime's militias and 
scores of her party members were bludgeoned to death. The Tom Lantos 
Block Burma Jade Act was approved in 2007, in which rubies, jades, and 
precious stones from Burma are banned from entering the United States 
directly or indirectly. These sanctions are effective and hurting the 
regime's finances severely.
    The European Union has also imposed sanctions on the military 
regime, along with Australia and Canada. The United States and its 
allies together block hundreds of million dollars of earnings for the 
regime each year. Without these sanctions, this money would be used by 
the regime to enrich themselves and to strengthen its killing machine. 
The more the regime has money, the more it can expand its military in 
terms of manpower, sophisticated weapons, intelligence equipment, and 
expensive machinery. If there were no sanctions, Burma's regime may 
have already obtained weapons of mass destruction, with the help of 
other rogue regimes.
    Sanctions also deny the legitimacy the regime is seeking 
desperately. When the United States and many other countries impose 
sanctions on Burma's regime for its human rights abuses and illegal 
rule, the regime's claims of legitimacy are undermined. Perhaps most 
importantly, sanctions provide strong encouragement for Burma's 
democrats, who are risking their lives everyday to restore democracy 
and human rights through peaceful means.
    Sanctions also help change the attitude of Burma's neighbors, 
especially ASEAN. By placing sanctions against Burma's regime, the U.S. 
proves its seriousness about national reconciliation and 
democratization in Burma and it makes ASEAN members realize that ASEAN 
can't ignore human rights violations in its member countries if it 
wants to improve relations with the U.S. In recent years, ASEAN has 
started to change its tone, abandon its policy of noninterference, and 
criticize the regime for its use of violence against peaceful 
demonstrators, as well as demand the release of all political 
prisoners, including Daw Aung San Suu Kyi, and establishment of a 
meaningful political dialogue. Without U.S. sanctions, ASEAN would not 
change.
    Moreover, sanctions help preserve the natural resources of Burma 
for future generations. At present, the Burmese regime is simply 
looting the country and attempting to sell resources to the highest 
bidder. The Burmese regime is not simply corrupt and skimming profits 
off the top of international business deals--it is literally looting 
the country and keeping all proceeds for itself. By placing sanctions 
on Burma, our country's natural resources are more likely to remain in 
the hands of the people so that a true representative government and 
market-based economy can put them to good use.
    To sum up, sanctions deny money and legitimacy to the regime, help 
change the attitude of ASEAN, boost the morale of Burma's democracy 
activists, and keep Burmese resources in the hands of the people. 
Sanctions are both highly effective and necessary.

Sanctions and engagement
    The United Nations Secretary General has appointed a Special Envoy 
and sent him to Burma many times to encourage the regime to implement 
positive changes as demanded by successive General Assembly 
resolutions. However, dozens of visits by the Special Envoy in more 
than a decade and even two visits by the Secretary General himself have 
not produced any positive outcomes. This is because the Secretary 
General has no power or leverage to reinforce his diplomacy with the 
regime. This is a clear example that engagement without pressure does 
not work. At the same time, imposing sanctions and then ignoring 
diplomacy will not be effective either. Sanctions are important tools 
to help make diplomacy effective. We support the Obama administration's 
decision to use a combination of sanctions and diplomacy in our 
country.

2010 Elections
    Burma's generals are planning to hold the elections in 2010. This 
election is designed to put the regime's new Constitution, unilaterally 
written and forcibly approved in the aftermath of the Cyclone Nargis, 
into effect. The majority of the people of Burma refuse to accept the 
Constitution and reject the proposed election as well. The regime's 
Constitution does not guarantee democracy and human rights, nor does it 
protect the right of ethnic minorities to self-determination. The 
Constitution grants supreme power to the military and its Commander in 
Chief. This Constitution is designed to establish permanent military 
rule in Burma. The United States should make it clear that unless there 
are changes to the regime's Constitution, no election in Burma will be 
free and fair.
    The National League for Democracy Party, ethnic political parties 
and most of the ethnic minority groups have refused to participate in 
the election, until and unless the regime: (1) releases all political 
prisoners, including Daw Aung San Suu Kyi; (2) allows everyone to 
participate freely in the country's political process; (3) reviews and 
revises the Constitution through a tripartite dialogue between the 
military, NLD and ethnic representatives; and (4) holds free and fair 
elections under the supervision of the United Nations. We fully support 
the call made by our leaders and urge the United States and the 
international community to not recognize the elections until and unless 
the regime meets these reasonable, pragmatic demands.

Conclusion
    Changes should come from inside Burma and not be imposed by the 
international community. By lifting sanctions, the United States would 
impose its own will on the people of Burma, something President Obama 
has pledged to not do in U.S. foreign policy. We and our colleagues 
inside Burma, millions of democracy activists and monks, have been 
working tirelessly to save our country from its darkest days. Problems 
in our country are not confined within our borders, but are crossing 
international boundaries and spreading into the neighboring countries. 
Many of these problems now present threats to the peace and stability 
of the region. Under these circumstances, the international community 
has an important role to play in stopping atrocities in Burma. We are 
hoping that U.S. Government will lead the international community in 
making collective and effective action to achieve national 
reconciliation and democratization in Burma. This must begin with the 
immediate and unconditional release of all political prisoners, 
including Daw Aung San Suu Kyi, and the establishment of a meaningful 
and time-bound dialogue between the military, National League for 
Democracy Party led by Daw Aung San Suu Kyi, and ethnic 
representatives.
                                 ______
                                 
                                 All Burma Monks' Alliance,
                                     Utica, NY, September 30, 2009.
Senator Jim Webb,
Chairman, Subcommittee on East Asian and Pacific Affairs, Senate 
        Committee on Foreign Relations, Washington, DC.
    Senator Webb: On behalf of the All Burma Monks' Alliance, which was 
instrumental in staging peaceful protests of Buddhist Monks in Burma in 
September 2007, 1 would like to submit an article written by me which 
is attached for the official record of the hearing you will chair on 
September 30, 2009, 2:30 pm at 419 Dirksen Office Building.
    I am greatly disappointed that no Buddhist Monks or members of 
Burma's democracy movement were invited to testify in this hearing. The 
Burmese military regime has attempted to silence our voices, and this 
hearing would have presented a strong opportunity for the Senate to 
hear directly from the legitimate leaders of Burma.
    1 was in prison twice: three years between 1990 and 1993, and seven 
years between 1998 and 2005. 1 was arrested, severely tortured, 
forcibly disrobed and unfairly imprisoned for my peaceful activities, 
joining together with my fellow monks in calling for the regime to stop 
human rights violations in Burma and to start a meaningful and time-
bound dialogue with the democratic opposition, led by Nobel Peace Prize 
recipient Daw Aung San Suu Kyi.
    I was a founding member of the All Burma Monks' Alliance (ABMA), 
which led the peaceful protest of monks and nuns in Burma in September 
2007. As you are aware, Burma's military regime brutally crushed the 
monks' movement, killed many monks and arrested and imprisoned many 
more. I managed to escape to the Thailand-Burma border and then reached 
the United States as a refugee.
    I wrote this article in August when you visited Burma, met with the 
dictator, Than Shove, and brought Mr. Yettaw back from the prison. I 
hope my opinion, which is also shared by my fellow monks inside and 
outside Burma, will be included in the subcommittee's examination of 
the effectiveness of U.S. policy toward Burma.
            Sincerely yours,
                      Venerable Ashin Pyinya Zawta,
                               Executive Director in Exile,
                                         All Burma Monks' Alliance.
    Enclosure.

               [From the Huffington Post, Aug. 31, 2009]

                         Webb's Misguided Views

                          (By U Pyinya Zawta)

    U.S. Senator Jim Webb recently traveled to Burma to lean not on 
Burma's military regime, but to pressure my country's democracy 
movement into giving up economic sanctions--the most important tool in 
our struggle for freedom.
    Although he emphasized the necessity of the release of Aung San Suu 
Kyi, this falls far short of the demands of the U.S., the United 
Nations and the European Union for the immediate and unconditional 
release of all my country's 2,100 political prisoners.
    Webb's ignorance of the situation in my country was revealed in his 
book ``A Time to Fight'' in which he came down squarely on the side of 
the oppressors in Burma. He wrote about the demonstrations which took 
place in Burma in 2007 led by Buddhist monks such as myself.
    ``If Westerners had remained in the country this moment might never 
have occurred, because it is entirely possible that conditions may have 
improved rather than deteriorated.''
    Webb's statement is either shockingly naive or willfully 
misleading. We Buddhist monks, who Webb discounts as a ``throng,'' 
marched for an end to military dictatorship in Burma not because we 
wanted marginal improvements in our economy. We marched because we 
believe in freedom and. democracy and are willing to make sacrifices to 
reach those goals.
    Webb claims that the Burmese people would benefit from interaction 
with the outside world, as if we need to be condescendingly ``taught'' 
by Americans about our rights and responsibilities. Had Webb spent some 
time with real Burmese people apart from the military regime and others 
who share his views, he would better understand the sacrifice we made 
for democracy, and he would know that we Burmese value the longstanding 
support we have had from the U.S. Congress.
    Webb, an author, has proven extremely manipulative in his use of 
language, calling for ``engagement'' and ``interaction'' instead of 
sanctions. His implication is that the Burmese people are solely set on 
sanctions and confrontation--the exact same language used by Burma's 
military regime, which couldn't be further from the truth. The truth is 
that the world is not as black and white as Webb would have it. We want 
the United States to talk to and negotiate with Burma's military 
regime, but this shouldn't preclude increasing international pressure. 
The U.S. appears to be able to carry out this policy with other 
countries such as in North Korea where it is willing to talk to the 
North Koreans while at the same time increasing sanctions if Pyongyang 
doesn't respond. Webb is intent on driving a wedge into this process in 
the ease of Burma. We must choose, he explains, between sanctions and 
engagement--there can be no sophisticated strategy, only complete 
involvement or none at all.
    What Webb proposes--lifting sanctions on Burma--translates to 
basically handing over the Burmese peoples' natural resources to 
rapacious multinational corporations, particularly Big Oil. If the U.S. 
lifts sanctions on Burma, there will be a rush of companies into Burma 
intent on looting my country's natural heritage and the benefits of 
such ``engagement'' will flow directly to the military regime.
    In terms of human rights, Webb has remained focused only on Suu 
Kyi's freedom and ability to participate in scheduled elections in 
Burma, never mind the fact that the Burmese regime has already rigged 
the elections so that no matter who participates there will be many 
more decades of complete military rule.
    The new constitution is an air-tight document that gives no room 
whatsoever for reform from within. At the same time, Webb has 
completely ignored the purposeful, massive human rights violations 
carried out by Burma's military regime. The human rights nightmare in 
Burma includes the recruitment of tens of thousands of child soldiers, 
pressing hundreds of thousands of Burmese into forced labor and the 
widespread rape of ethnic minority women.
    Luckily for the Burmese people, Webb is not the only U.S. Senator. 
Recently, the U.S. Senate voted unanimously to extend sanctions on 
Burma. President Obama signed the bill into law.
    Secretary of State Hillary Clinton is a student of politics and 
more likely to examine the facts on the ground instead of falling for 
blanket ideological generalizations. While Webb may seek to sell out 
Aung San Suu Kyi, our courageous Buddhist monks, and all the people of 
Burma, we hold out hope that Secretary Clinton and President Obama will 
take a more nuanced view in formulating policy toward Burma.
    In particular, the U.S. should seek to negotiate with Burma's 
military regime--but, at the same time, carry forward along the lines 
of the advice offered by South Africa's Nobel Peace Prize recipient 
Desmond Tutu: seek a global arms embargo on Burma's military regime, 
start a U.N. Security Council investigation into crimes against 
humanity committed by the regime, and begin the process to full 
implementation of financial sanctions against the regime and its 
cronies.
    Webb is now despised by the people of Burma. If he succeeds in 
achieving a shift in U.S. policy to abandon sanctions, he will have 
secured his place in history as one of the most important supporters of 
Than Swe's military dictatorship.

    U Pyinya Zawta, Buddhist monk, was actively involved in the 1988 
demonstrations. He was sentenced to three years in prison in 1990 and 
again sentenced to seven years in 1998. He is one of the founding 
members of the All Burma Monks' Alliance (ABMA) which lead the 2007 
Saffron Revolution. He is now in exile in New York after fleeing the 
country due to the threat of arrest.
                                 ______
                                 
                                Sangkhlaburi, Kanchanaburi,
                                     Thailanland, October 20, 2009.
Senator Jim Webb,
Chairman, East Asia Subcommittee, Senate Foreign Relations Committee,
Washington, DC.
    Dear Senator Jim Webb: I am pleased to introduce myself to you and 
make comment on your stand and U.S. policy toward Burma.
    My name is Nai Sunthorn Sripanngern, presidium member of ENC 
(Ethnic Nationalities Council, Union of Burma) and head of Mon 
delegation in ENC. I have just arrived from a meeting with Mon leaders 
inside Burma and now on the way to ENC's CEC meeting in northern 
Thailand. I heard that some agruement from Burmese friends in exile to 
the ENC General Secretary's letter to you and I hope we will review it 
again in this meeting.
    We have no argument over Senator Jim Web's stand to lift up 
sanctions completely and new U.S. foreign policy which will be more 
likely ``carrot and stick'' policy, because both of them focus only on 
the ruling Burmese military government. But we would like U.S. policy 
makers consider on other stakeholders such as ethnic nationalities in 
making their foreign policy on Burma for a unified, peaceful, 
prosperous, and democratic Burma that respects the human rights of its 
citizens. We believe in U.N. resolution of 1994 calling for tripartite 
dialogue in solving political problem of Burma, that comprises of 
ruling Burmese military government, Burmese democracy forces led by NLD 
and ethnic nationality forces. Our Ethnic Nationalities are working 
hard for a strong foundation of their community based organizations and 
state based organizations in order to build a unified, peaceful, 
prosperous, and democratic of Burma, however many weakness and 
difficulties in their respective organizations, while Burmese military 
government and Burmese democracy forces are much stronger than ethnic 
nationality forces.
    We therefore would like to comment the U.S. foreign policy makers 
on Burma to consider how to facilitate and support ethnic 
nationalities' effort in building a strong foundation that could solve 
their political problem by themselves and then it will lead to a 
unified, peaceful, prosperous, and democratic country.
            Sincerely,
                                              Sunthorn Sripanngern.
                                 ______
                                 

    Prepared Statement of Frederick C. Gilbert, M.A., Fort Wayne, IN

    Senator Webb, Senator Lugar, and committee members, first, I want 
to thank the Committee and Senate Staff for making this possible, for 
the first time in my memory of serving our Fort Wayne Burma Community 
for 18 years.
    You have asked for our input. Thanks to Keith Luse, whose tireless 
efforts are known to you all, has made it one of his many missions to 
visit us often and deeply. We are all richer for it and for the 
dedication of Senator Lugar in charging him with such extraordinary 
respect for our peoples of Burma, now numbering nearly 5,000. As you 
embark on a historic elevation of Burma to proper Foreign Policy 
status, let this be only a beginning of more input.
    As we did with Keith, let me first ask that you come to Fort Wayne 
to host some deep consultations with our wide and varied community, 
leadership and common folk as well.
    You see, it is a lot like Burma itself. In these many years of 
service, they have taught me much about serving refugees from now 29 
nations over 34 years. The most powerful lesson is: ``I do very little 
. . . they are the real power, especially as a free people.''
    My frustration over the years has been to watch as Washington and 
the U.N have constantly focused on a narrow group of experts who have 
frankly become inbred. I refer to some as ``Chalabee Wanabees'' in 
honor of our Iraqi ``specialist'' who has become the international 
example of how not to learn about a country. Our community in Fort 
Wayne was established by the Children of '88 and their mentors who 
brought a spirit of freedom fighting I have seldom seen even among our 
usually active refugee populations. They (and I) know ABSDF and KNU and 
Mon Forces to be the essence of freedom, much like our own 
Revolutionary Forces. We were regarded as ``rabble'' by many elitists 
who were too full of themselves to see that all who fought for freedom 
were heroes. I believe they and similar ``defensive'' Burma forces are 
a prime key to the future. My first recommendation is then: Repeal the 
Material Support Legislation that has branded them as ``terrorists.'' 
Period!
    The feeble ``waivers'' are seen as pandering to some well connected 
Thai and other supporters as a way of emptying the camps and ignoring 
other minority groups of IDPs. It is also an obstacle to many in Fort 
Wayne seeking citizenship, including some very brave Shia from Iraq who 
believed us in 1991 when we asked them to ``rise against Saddam.'' 
Indeed, our own American Revolutionaries and first President could 
never become citizens under current law.
    Current Burma refugees are very different from those early 
patriots. Some call the current new Karen Moslem and Christians as real 
"refugees" rather than those in danger for fighting for freedom. They 
are the true victims of International neglect of the peoples of Burma. 
With our current economic disaster in Fort Wayne, gone are the days of 
many jobs and cheap housing that brought Burmese to Fort Wayne from all 
over the U.S. in the boom years of the mid and late '90s. For the first 
time in my many years people are saying they want to go back to the 
camp and camp folks are fleeing to avoid refugee resettlement. 
Especially considering the multitude of humanity waiting, I further 
recommend:
    A Moratorium on Burma Refugees until local communities can be 
consulted, with emphasis on local Burma community members and federal 
funds can be dedicated to long term needs in this terrible economy. Too 
often, folks from Washington see only a very narrow representative 
group who are often colored by VOLAG's narrow self-interest, especially 
from pressures from Washington headquarters. I have one hard, fast rule 
for this: if you are spending money for me and I am not made a part of 
supervising that money, you are wasting not only my wisdom but also my 
power. Placing refugees in charge of the money is the only 
accountability. Refugees are not the answer!
    U.S. Sanctions on Burma have been useless in the face of Thai, 
Chinese, Russian and Indian complicity in the genocidal history of the 
Burmese Junta. Indeed, even among our Burmese we see items from Burma 
(usually thru Thailand) bought, worn and used on a daily basis. In your 
hearing room today I am certain of that fact. With China benefiting 
from land and business confiscation all over Burma, with Thailand 
aiding in the rape of natural resources, with India, Russia and China 
arming the Junta, where are U.S. Sanctions of these third country 
participants with the Junta?
    Our Burma refugees are the first to recognize this international 
fraud, along with Darfur and many peoples of the world who see business 
and governmental exploitation in their nations flying in the face of 
human tragedies.
    Human Services, with International Supervision, must be the first 
``thaw'' in Sanctions. The International impotence in the face of the 
Cyclone and the Monks' Rebellion were the most recent examples of those 
failures. It is the next recommendation that will be the most 
difficult, as several traditional State Department practices will have 
to be changed.
    The Future of Burma Freedom depends on Free Burmese Empowered to 
Take Over. How do we do this? We ask the Burmese. In my many years 
here, in countless hours of meetings and consultations, I am never the 
one who moves the community together. However, in the face of a common 
enemy or credible opportunity, unity of action is possible. Like in our 
nation, veterans are a prime group with the respect of the People. This 
is the pride the freedom fighters carry and General Aung San is their 
national hero. The Burma Military (Tatmadaw) is held in the highest 
esteem and free Burmese all over the world who were once proud military 
people are ready to take back the Honor of Aung San.
    The Free Burmese of the World must form a New Tatmadaw with 
international support in a new defensive effort against genocide by the 
Junta. The Mon and Karen forces, at their peril, now form limited 
defensive efforts among their peoples, even at the risk of Thai 
savagery. We must recognize and support that need. Removal of the 
``material support'' legislation is key to beginning this process. 
Fighting a government that rapes your children is honorable and a most 
basic human drive. In my consultation with current and former freedom 
fighters (am I a terrorist?), one of the forces needed in a transition 
is this military force, an ex-patriot National Guard as it were. They 
could have also been a force to carry out Human Aid Assistance as in 
the Cyclone, with U.N. and international support. I know several 
hundred ready to serve right now. There is also general consensus that 
this Tatmadaw is critical to a transition to protect military staff who 
wish to fight the Junta in a transition. With this, political 
leadership is a last critical component.
    Aung San Suu Kyi is the only leader capable of instituting a Free 
Burma. Without her active and conspicuous involvement in these plans 
there will be no success. The government must free her and she must be 
free to be a candidate as in 1990, with a security force of her own 
choosing to protect her, with International protections. In a primary 
Buddhist nation, the concept of Ana (anointed or military power) and 
Awza (power that rises from the people) must be balanced in any leader. 
Like her father, Aung San Suu Kyi has both. The monk leaders of the 
Rebellion had both. When either is corrupted, the people mistrust. In 
this, the last element are the Minorities. In our Fort Wayne Burma 
Community, the ethnic minorities thrive and have become some of the 
most integrated and successful members.
    U.S. Policy must openly invite, listen to and empower all Burma 
Minorities just as we did the Kurds in Iraq! The recent formation of 
the minority Ethnic Organization is a critical sign of health in the 
extant free Burma communities. In my work here, the health of all our 
refugee minorities has been the key to locating ``best practices.''
    After next July, on retirement, I will dedicate the rest of my life 
and time to these causes and will be much more free to be open and 
honest with recommendations. My son and his wife are both now in 
Washington and this will allow many opportunities for visits in support 
of these efforts. I will soon send to the Committee more detailed 
references in support of these recommendations and I pray the committee 
members be thanked and protected in this great initiative. I have said 
for the last 20 years: Burma is the keystone to a free Asia. Without 
8888, there would have been no Tianenmen Square.
                                 ______
                                 
                         Monland Restoration Council [MRC],
                                Fort Wayne. IN, September 30, 2009.
Senator Jim Webb,
Chairman, East Asia and Pacific Affairs Subcommittee, Senate Committee 
        on Foreign Relations, Washington, DC.
    Dear Mr. Chairman: We, the Monland Restoration Council, would like 
to thank you and Senator Richard Lugar for the opportunity to express 
our views on the U.S. policy toward Burma. The Monland Restoration 
Council (MRC) was founded in 1993, by the Mon refugees who resettled in 
the United States after the 1988's people uprising for democracy in 
Burma, which was brutally cracked down upon by the Burmese military 
regime. We came together to continue our hard work for democracy and 
human rights in Burma and for the rights of self-determination of the 
Mon people.
    First and foremost, we are greatly appreciative and thankful for 
the opportunity to enjoy freedom and democracy in the United States. As 
our life here is peaceful and stable, it constantly reminds us of our 
moral responsibility to help those who have long been suffering from 
various human rights abuses, insecurity, and poverty. In this respect, 
please also let us take this opportunity to thank you and all those who 
are working hard to bring about the changes much needed in Burma.
    If we look back at the last ten years, the actions taken by the 
United States have shown the Burmese junta that their human rights 
violations are not acceptable to the civilized world. Even though the 
economic sanctions imposed by the U.S. did not achieve the political 
change in Burma, they have put the Burmese regime on edge during those 
years. Moreover, the actions have provided strong moral support to the 
opposition parties, especially to those who have been detained and 
jailed for their work to help bring democracy and to end human rights 
violations in Burma. Therefore, we have fully supported the sanctions 
against Burma as ruled the Burmese military. We have no doubt that a 
review or reevaluation of the policies based on the time and 
circumstances will lead to fruitful solutions.
    Mr. Chairman, before we offer our views on the U.S. policy, please 
let us present our analysis of the ongoing political problems and the 
current situations in Burma.
    Burma is a multi-ethnic country comprised of eight major ethnic 
groups, namely Arakanese, Burman, Chin, Kachin, Karen, Kayar, Mon, and 
Shan. Nearly one-half of the country's population is made up of the 
non-Burman ethnic nationalities. The Arakan, Burman, and Mon were once 
separate sovereign kingdoms, and all other ethnic nationalities also 
enjoyed their autonomy in their own governing systems. Later, the 
Arakan and Mon kingdoms were annexed by the Burman kingdom. Other 
autonomic regions were incorporated into Burma under the British rule. 
All the people of Burma joined hands in fighting for independence from 
the British, but none of the ethnic groups except the Burman truly 
gained independence. As of the Pan Long Agreement signed between the 
Burman and non-Burman leaders in 1947, there was a democratic federal 
union on paper. In reality, however, since Burma gained her 
independence from the British in 1948, the successive Burmese 
governments have adopted the policy of chauvinism and have never 
recognized the basic rights of non-Burman ethnic nationalities. The 
Burmese government assassinated non-Burman ethnic leaders and employed 
systematic ethnic cleansing policies against the non-Burman ethnics. 
The brutality, violence, and various kinds of oppression committed by 
the Burmese government left the non-Burman, including the Mon, with no 
choice but to resort to armed resistance. Unfortunately, this 
resistance led to over five decades of ongoing civil war in the 
country. If the current Burmese military government, also known as the 
State Peace and Development Council (SPDC), continues to deny national 
reconciliation and equal rights for all ethnic nationalities, civil 
wars will continue in Burma.
    In our view, political problems in Burma are primarily rooted in 
ethnic conflicts rather ideological conflicts (democracy vs. military 
dictatorship). Indeed, democratic values, respect for human rights, and 
freedom from oppression are the critical building blocks for every 
country or society. Clearly, in order to solve the political problems 
in Burma, one should consider the ethnic issue as equally important as 
the democratic issue. Moreover, we believe that democracy will not be 
sustainable as long as ethnic conflicts are ongoing in the country. 
While restoring democracy is vitally important, ethnic issues must be 
resolved in order to achieve a long lasting and continuing peace in 
Burma.
    The current situation in Burma not only shows no signs of 
improvement, but rather appears to be going backwards. In 1990s, many 
ethnic armed resistance groups entered into a cease-fire agreement with 
the SPDC with the aim of solving political problems through peaceful 
means. The SPDC, however, has dishonored its promises and refused to 
hold political talks. Instead, the Burmese regime has expanded its 
military forces in ethnic areas and committed various kinds of human 
rights abuses including land confiscation, forced relocation, forced 
labor, rape, and murder. The SPDC troops have used sexual violence 
against the ethnic women and girls as a weapon of war towards the 
ethnic nationalities; thus the raping, torturing and murdering of 
ethnic women and girls is widespread. As a result of the illegal land 
confiscations and economic oppression by the Burmese army, several 
thousands of ethnic women and children have become internally displaced 
persons and refugees. Many of the ethnic women and girls have fallen 
victim to human trafficking due to the deterioration of political, 
economic and social situations in their homelands.
    In addition, the SPDC has demonstrated an absolute lack of interest 
in a genuine transformation to democracy and has only pursued finding 
the means to continue to stay in power. The SPDC unilaterally drafted 
and approved the constitution of Burma and plans to hold a general 
election in 2010 in order to legitimize itself, following the steps 
laid out in its sham ``Seven Steps toward Democracy.'' Recently, the 
SPDC convicted a democratic icon, Daw Aung San Suu Kyi, for 
illegitimate reasons just to deny her role in the upcoming election. At 
the same time, the regime has pressured ethnic cease-fire groups to 
transform their armed forces into ``Border Guard Forces'' under the 
SPDC's military command. Most of the cease-fire groups, including the 
New Mon State Party, have rejected the regime's proposal because the 
SPDC has ignored the rights of ethnic nationalities, and it is apparent 
that SPDC's plans will not lead to any meaningful democratic reforms.
    The tension between the regime and the ethnic armed groups has 
risen and it leads to a fresh civil war. The recent attack on the 
Kokang ethnic group (Shan State) shows that the SPDC would not hesitate 
to militarily attack a cease-fire group who refuses to transform into 
``Border Guard Forces.'' If war between the junta's and the New Mon 
State Party's troops breaks out, thousands of Mon refugees would flee 
to neighboring Thailand, while a large number are expected to be 
internally displaced.
    We believe that the upcoming election will not solve Burma's 
political problems due to two fundamental flaws. The first is the lack 
of ethnic rights in the SPDC's constitution. Consequently, most ethnic 
parties will not participate in the election, since they do not approve 
of the one-sided constitution. The second flaw is the lack of freedom 
and fairness in the election process. While some prominent opposition 
and ethnic leaders are in jail or under house arrest and their parties 
are not allowed to conduct any political activities, the parties backed 
by the SPDC have already started their public campaigns. Further, 
unless sufficient international monitoring is in place during the 
election, the election results could easily be manipulated by the 
subordinate associations of the SPDC. Thus, in our opinion, the most 
reasonable approach for reaching meaningful political resolutions in 
Burma is a tripartite dialogue among the Burmese military regime, the 
opposition party (National League for Democracy), and ethnic 
nationalities.
    The SPDC has ignored all the voices of its own people and those of 
the international community who continually demand to solve Burma's 
political issues through dialogue. The economic sanctions imposed by 
the United States in the last ten years could not bring the SPDC to the 
table. Even though sanctions are not working, it is not right to say 
that the sanctions have failed and should be lifted completely. We do 
not believe the sanction policy failed, but rather we want to argue 
that the U.S. unilateral sanctions failed. We firmly belive that if 
U.S. sanctions are matched by the major regional players, ASEAN, China, 
and India, they will prove successful.
    Lifting the U.S. sanctions immediately would not reflect the 
reality of the situation and the aim of democratization expected by the 
people of Burma. We believe the U.S.'s new policy toward Burma, which 
implies a ``Carrot and Stick'' approach, is fundamentally more logical. 
The sanctions should still be in place and in force to use as a 
``stick'' in encouraging and in pressuring the Burmese military regime 
for a change. At the same time, the U.S. should engage with the SPDC 
and its main ally, China, as an incentive (``carrot'') in encouraging 
change and political development in Burma. However, the U.S. engagement 
in Burma should not go one-sidedly with the SPDC alone. The U.S. should 
also reach out to the opposition parties and ethnic nationalities and 
should support ethnic nationalities' coalitions such as the Ethnic 
Nationalities Council (ENC) to help strengthen the unity among the 
ethnic nationalities.
    We also welcome and appreciate the U.S. administration's commitment 
to ``push for the immediate and unconditional release of Aung San Suu 
Kyi and all political prisoners, an end to conflicts with ethnic 
minorities and human rights violations, and initiation of a credible 
internal political dialogue with the democratic opposition and ethnic 
minority leaders on reconciliation and reform.'' We believe that this 
is the right direction to help bring unity, peace, prosperity, and 
democracy to Burma.
    The people of Burma including the Mon, have suffered enough under 
the military dictatorship and decades-long civil war. All those 
sufferings will cease only with the creation of a genuine federal union 
where the fundamental rights of all citizens are respected, and all 
people can enjoy freedom and equal opportunity.
    Therefore, we respectfully recommend that the current U.S. foreign 
policy of sanctions against Burma should still be upheld, with changes 
and adjustments to how the sanctions can be applied effectively in 
order to attain the intended purpose of the sanctions. The U.S. should 
engage constructively with the Burmese military regime, the opposition 
groups and ethnic nationalities for a tangible change and political 
development in Burma, but the U.S. sanction policy should still be in 
place and in force until the democracy is restored and the individual 
(citizen's) and collective (ethnic nationalities') rights of people in 
Burma are recognized and guaranteed.
    Thank you.
            Sincerely,
                                         Jarai Mon,
                                                Chairwoman,
                                       Monland Restoration Council.
                                 ______
                                 

                    Prepared Statement of Min Zaw Oo

                               key points
<bullet> The opposition movement in Burma has been crippled after 20 
    years of the military rule.
<bullet> The only way to revitalize the efficacy of the National League 
    for Democracy (NLD) is its participation in the coming elections in 
    2010.
<bullet> Border-based exile groups, funded by the United States, are 
    conducting covert operations to incite another mass uprising inside 
    the country.
<bullet> The military regards mass protests as a paramount security 
    challenge to defeat its rule. The junta is determined to crack down 
    on any potential mass unrest.
<bullet> Hundreds of civic organizations in development sectors now 
    enjoy relative tolerance by the regime. Consequently, the extent of 
    civil society in non-political sphere is growing.
<bullet> Alternative opposition forces are too weak to emerge as a 
    national opposition front unless they form a viable coalition in 
    the 2010 elections.
<bullet> Mid-level and some senior official in the government 
    overwhelmingly support the prospect of transition away from 
    absolute military rule after 2010.
<bullet> The military is concerned with the dominance of hard-line 
    opposition members in the parliament after 2010.
<bullet> The military is also troubled by the prospect of instability 
    after the transition.
<bullet> The military appears to be determined to retake power if the 
    new government fails to tackle instability.
<bullet> Both the military and the opposition must be willing to foster 
    working trust to promote reconciliation to avoid instability or the 
    revival of military rule after 2010.
                            recommendations
<bullet> The United States should continue to promote national 
    reconciliation in Burma.
<bullet> The United States should reconsider funding priorities out of 
    Economic Support Fund a significant portion of which is usually 
    channeled to assist exile groups conducting covert operations 
    inside the country.
<bullet> The United States should financially support growing civic 
    organizations inside the country.
<bullet> The United States should tie the conditions to the removal of 
    sanctions with the legitimacy of the 2010 elections in addition to 
    measured progress in human rights.
<bullet> The United States should actively support disarmament and 
    demobilization initiatives after 2010.
<bullet> The United States should proactively strategize to restore 
    intellectual and human capacity in Burma to strengthen 
    democratization after 2010.
(1) The State of the Burmese Opposition
    The core components of Burmese opposition include domestic 
opposition movement led by the National League for Democracy (NLD) and 
exile and ethnic-minority groups based in neighboring countries, 
especially in Thailand. The NLD is still the most popular, albeit weak, 
opposition party which has potential to revive its strength in the 2010 
elections. The border-based exiles have consistently pursued a mass 
uprising strategy to overthrow the regime and conducted covert 
operations inside the country.
            (I.a) The NLD-led Domestic Opposition
    The NLD's initial strategy, right after the party had secured a 
nationwide electoral victory in the 1990 elections, was to convene a 
national Parliament with elected representatives to facilitate power-
transfer by pressuring the military to concede the party's demands.\1\ 
The call to power-transfer gradually faded away in early 2000s 
especially after the Depayin incident where proregime supporters 
clashed with NLD's followers in 2003. Subsequently, the NLD refused to 
participate in the National Convention, which was tasked with drafting 
the current constitution. Instead, the NLD has focused its call for a 
dialogue. The NLD insists that a transition in Burma be facilitated by 
a negotiated settlement, not by the regime's self-proclaimed 
``roadmap.''
---------------------------------------------------------------------------
    \1\ See paragraph 13 of the NLD's Gandi Hall Manifesto, dated July 
19, 1990. The statement also called for a dialogue, but it was an 
instrumental to hand over power to the NLD
---------------------------------------------------------------------------
    Despite adherence to its moral high ground, the NLD has lost 
crucial capacity to mobilize general public under current restrictions. 
Although Aung San Suu Kyi remained the most popular politician in 
Burma, people were hesitant to take to the streets to show their 
support to the NLD even when she was nearly killed or injured by 
proregime attackers during the Depayin confrontation. The crackdown in 
2003 dismantled the NLD's grassroots bases by incarcerating organizers 
and shutting down local offices across the country. A large majority of 
NLD members resigned from the NLD facing intimidation and systemic 
discrimination.
    Another reason for the party's frailty was the NLD's own leadership 
failure. In the last 20 years, the NLD failed to nurture younger 
generation leaders to take over aging members of Central Executive 
Committee (CEC).\2\ The NLD's youth wing was unable to attract new 
breed of talents either. Aung San Suu Kyi has become the only caliber 
to preserve the NLD's political efficacy as a major opposition party. 
Without her, the future of the NLD is bleak and obscure. Having 
realized the party's crippling debility, the NLD's leaders resolved to 
their last resort, an appeal to the United Nations Security Council.\3\
---------------------------------------------------------------------------
    \2\ Most CEC members of the NLD are in their eighties. Chairman 
Aung Shwe, 91, and U Lwin, one of the secretaries, are seriously ill. U 
Win Tin, 79, outspoken hard-liner, is suffering from a heart problem. 
Imprisoned NLD vice-chairman Tin Oo, 82, is frequently ill. See more at 
http://english.dvb.no/news.php?id=2322 and http://www.irrawaddy.org/
article. php?art_id=14490.
    \3\ NLD spokesman U Lwin said in an interview, ``The ball is now in 
the court of the U.N. . . . we'll have to see what Kofi Annan will 
do.'' Democratic Voice of Burma. September 26, 2004. ``Burmese 
Democracy Party Welcomes U.S. Senate Resolution.'' Oslo, Norway.
---------------------------------------------------------------------------
    Apparent unwillingness of the Security Council to decisively act on 
Burma has exhausted the NLD's strategic alternatives. At the onset of 
the 2010 elections, the NLD has shown some signs of divisions among its 
leaders whether to contest the military-sponsored elections. Some 
senior leaders, especially close to U Nyunt Wai,\4\ and the NLD's youth 
wing, well influenced by U Win Tin, are known to take a hard-line 
position refusing to participate in the elections in 2010.\5\ A few CEC 
members are considering contesting the election as they deem it the 
only opportunity to revitalize the NLD's organizational capacity under 
current constraints. The choice between conscientiousness and 
pragmatism may fracture the already debilitated main opposition party 
in coming months if the NLD fails to participate in the elections 
decisively. If the NLD decides to contest the elections, it is still 
capable of securing substantial number of seats in the Parliament.
---------------------------------------------------------------------------
    \4\ U Maung Maung, U Nyunt Wai's son, is the general secretary of 
the National Council of Union of Burma (NCUB), border-based umbrella 
organization. The regime frequently accused U Maung Maung of funding 
terrorist operations inside the country. Democratic Voice of Burma. 
June 27, 2004. ``Burmese Government Blames Opposition Leader's Son for 
Blasts.'' Oslo, Norway. See more at http://www.myanmar.com/
pressconference/9-4a.html and http://www.
irrawaddy.org/article.php?art_id=6638&page=5.
    \5\ Win Tin has consistently rejected the election in 2010. See 
more at http://www.
washingtonpost.com/wp-dyn/content/article/2009/09/08/
AR2009090802959.html.
---------------------------------------------------------------------------
            (1.b) Border-based Opposition Groups
    There are dozens of opposition groups residing in neighboring 
countries, especially in Mae Sot, a small border town of Thailand. 
Border-based opposition groups characterize exiles from the NLD and 
other political parties, minority advocates, ethnic and nonethnic 
insurgent groups, various rights groups, NGOs and media groups run by 
opposition-cum-journalists. Most exile groups play advocacy roles by 
disseminating information to the international community. But a few 
major groups are involved with covert operations inside the country. 
National Council of Union of Burma (NCUB) has become the constellation 
of opposition groups, and its operational wing Political Defiance 
Committee (PDC) is responsible for covert operations inside the 
country.
    Although most exile groups usually supported the NLD's political 
stance in the past, their approaches differed from the NLD, especially 
to the perspective of mass uprising. Since the exile groups were formed 
in 1989 and early 1990s, they have dreamed of emulating another mass 
uprising similar to the 1988 massive protests. Their vision of 
political transition in Burma was the collapse of the junta at the apex 
of mass upheaval. The uprising strategy calls for destabilizing 
economy, undermining security confidence among general public, mass 
mobilization and instigation, recruiting sleeper cells and operatives, 
and media campaigns.\6\ Although Aung San Suu Kyi and most NLD leaders 
were hesitant to support the border-based uprising approach, some 
senior leaders and the NLD's youth wing were sympathetic to the 
clandestine operations. In return, they received financial support from 
the border exiles.\7\
---------------------------------------------------------------------------
    \6\ These activities have been consistently embedded in operational 
plans of the National Council of Union of Burma (NCUB), border-based 
umbrella organization.
    \7\ The regime accused the NLD of its connection with outlawed 
groups. Both the exiles and the NLD categorically denied the 
allegations. But the border sources indicate that some elements in the 
NLD are linked to exile groups which train and finance the NLD members. 
The government's Press Conference No 6, 2005 [cited September 28, 
2009]. Available from http://www.myanemb-sa.net/news/press%20release/
28-8-05%281%29.htm. Phanida. 2009. ``I Was Accused of Being a Bomber.'' 
Mizzima. 2009 [cited September 28, 2009]. Available from http://
www.mizzima.com/edop/interview/2785-q-i-was-accused-of-being-a-
bomberq.html.
---------------------------------------------------------------------------
    In the last 20 years, most border-based groups have lost up to 95 
percent of their members to refugee resettlement programs. Even a few 
major groups are running their organizations with less than a dozen or 
so people. Almost every organization, except a few exceptions, at the 
border depends on funds from foreign governments and NGOs, especially 
from the United States and Europe. Consequently, the border exiles are 
susceptible to funder pressures in their campaign directions. Some 
European funders have warned their recipients that they will no longer 
be funded if they reject the coming elections. Some major groups have 
heeded funders' demands and are prepared to embrace the elections. But 
the uprising strategy is still alive and kicking. NCUB's Political 
Defiance Committee (PDC) and Federation of Trade Unions-Burma (FTUB), 
extensively funded by the National Endowment for Democracy and its 
subgranters, are likely to continue their covert operations inside the 
country in coming months.
    Attenuating border-based exile groups were revitalized by the monk 
protest in 2007 although the exiles played very little role in the 
emergence of the uprising.\8\ The crackdown on the monks antagonized 
lay people and reignited antiregime sentiment among Burmese citizens. 
Subsequently, new flows of recruits and increased funding \9\ from the 
West after the protest enabled the exiles to expand their operations 
inside the country. The purge of intelligence faction in the military 
in 2004 debilitated the regime's intelligence capabilities for several 
years until the protests erupted in 2007.\10\ Consequently, the number 
of sleeper cells and operatives inside the country increased after 
2007.\11\
---------------------------------------------------------------------------
    \8\ The outbreak of protest surprised many exile groups. Even the 
NCUB was off guard and still could not figure out how to capitalize the 
gain from the protests and carry them to an endgame by the time monks 
were taking to the streets.
    \9\ The NED and Open Society Institute increased regular funding to 
the border-based exiles during and right after the protest. See more at 
http://www.ned.org/grants/08programs/grants-asia08.html.
    \10\ According to the sources close to the regime's security 
apparatus, the regime summoned previously sacked intelligence officers 
to consult the crackdown. They were asked to train new intelligence 
operatives.
    \11\ Interview with an exile leader in Mae Sot, Thailand.
---------------------------------------------------------------------------
    Nevertheless, quantitative proliferation of recruits is modest. The 
exiles are not capable of transforming recruits into effective 
operatives for several reasons. Most veterans of the Saffron protest 
reached the border and applied refugee status to resettle in the West 
rather than returning to Burma as operatives. Some recruits, especially 
from migrant workers, joined the dissident groups for financial 
benefits. Some sleeper cells simply disappeared after taking money from 
the exiles. Most hidden cells simply become collectors of low-value 
intelligence. The quality of training was not sufficient to breed 
effective operatives inside the country either.
    Another serious drawback of the border-based exile groups has been 
financial accountability. It is almost impossible, for the Western 
financiers, to properly audit the use of funds in exiles' covert 
operations.\12\ As a result, corruption is not uncommon.\13\ Many exile 
leaders enjoy lavish lifestyle, secretly invest in businesses and 
possess pricy properties.
---------------------------------------------------------------------------
    \12\ Project coordinators cook book in most cases to secure funds 
necessary for other functions of their organizations. Cooking book is 
ethically acceptable to most dissidents along the border. The only 
difference is whether the fraud intends for the goodness of the 
organization or for personal interests. A leader who shoulders the task 
of seeking projects from NGOs said, ``I felt guilty for making faulty 
lists of expenses during last 10 years at this position.''
    \13\ In 2004, a leader from the NCUB, who is the deputy-in-charge 
of Political Defiance Committee, fled to Bangkok with over 1 million 
baht unaccounted for--it was about one-third of the NCUB's annual 
budget. However, other leaders were reluctant to investigate the fraud 
because the probe would reveal other corruptions linked to some leaders 
in the coalition.
---------------------------------------------------------------------------
    The United States annual Economic Support Fund (ESF), which was 
earmarked at approximately US$13 million, was channeled to Burmese 
exile groups in neighboring countries and refugees and internally 
displaced persons.\14\ Significant portion of ESF went to the exile 
groups via the National Endowment for Democracy and its subgranters. 
However, the impact of the ESF has yet to be questioned.
---------------------------------------------------------------------------
    \14\ Lum, Thomas. 2008. U.S. Foreign Aid to East and South Asia: 
Selected Recipients, edited by U.S. Congress. Washington DC: 
Congressional Research Service. P. 12.
---------------------------------------------------------------------------
            (1.c) Alternative Forces: Civil Society and ``Non-NLD 
                    Democrats''\15\
    In the last 20 years of political deadlock, some dissidents inside 
Burma broke rank with the mainstream opposition movement especially on 
the NLD's policy on economic sanctions and its adherence to the 1990 
election victory. This so-called ``Third Force'' consists of former 
political prisoners, elected representatives from the NLD, former 
student leaders, intellectuals, journalists and entrepreneurs. The 
third force represents mostly nonpolitical sphere of civil society, 
especially in local NGO sectors. Aftermath of the Cyclone Nargis that 
devastated the country in 2008, literally hundreds of community-based 
organizations have emerged to provide humanitarian services the 
government fails to fulfill.\16\ There are at least 120 registered 
local NGOs and over 90 international NGOs currently operating in 
Burma.\17\
---------------------------------------------------------------------------
    \15\ The term was coined by Dr. Khin Zaw Win, former political 
prisoner who was imprisoned for 11 years.
    \16\ Post, Washington. ``Strategies of Dissent Evolving in Burma.'' 
Washington Post. 2009 [cited September 26, 2009. Available from http://
www.washingtonpost.com/wp-dvn/content/article/2009/08/23/
AR2009082302437_2.html?hpid=sec-world&sid=ST2009082302845. See also 
ICG. 2008. Burma/Myanmar: Time to Normalize Aid Relations. Brussel 
International Crisis Group. P. 16
    \17\ Myanmar, NGOs in 2009. NGO Directory NGOs in Myanmar 2009 
[cited September 26, 2009]. Available from http://www.ngoinmyanmar.org/
index.php?option=com_sobi2.
---------------------------------------------------------------------------
    The government's tolerance to civil society in nonpolitical sphere 
has expanded the growth of civic institutions and their impact on the 
community. Although the regime is determined to crack down on any 
potential threat in disguise of humanitarian organizations,\18\ the 
military shows constraint on groups not related to dissident 
organizations. The censor board allows publications discussing 
democracy, political transitions, and even comments on other 
authoritarian regime, but any critiques to the junta. Many community-
based organizations are allowed to conduct various types of capacity-
building seminars, including discussions on democratization. The regime 
tacitly permits batches of young trainees to attend capacity-building 
programs run by moderate exiles in Thailand.\19\
---------------------------------------------------------------------------
    \18\ The exile groups occasionally use community-based 
organizations as cover to engage covert activities inside the 
countries.
    \19\ Vahu Development Institute, led by moderate exiles, has been 
running a series of training sessions for Burmese youngsters in Chiang 
Mai, Thailand. Dr. Zaw Oo, director of Vahu, was later allowed to 
return to Burma. See more at Moe, Wai. 2009. ``Exiled Dissident Visits 
Burma.'' Irrawaddy 2008 [cited September 26, 2009]. Available from 
http://www.irrawaddy.org/article.php?art_id=14189.
---------------------------------------------------------------------------
    Despite the growth of civic institutions, alternative forces are 
not likely to consolidate their strength to foster a viable political 
force in near future. Currently, there are at least seven soon-to-be 
political parties in addition to the NLD and a promilitary party. 
National Unity Party (NUP), the residue of former Burmese Socialist 
Program Party, is the second largest party in strength and intends to 
contest about 300 constituencies.\20\ However, it is still unclear if 
the NUP will emerge independently from the influence of the military. 
Democratic Party, recently organized by veteran opposition leaders, is 
another potential party to grow. Ethnic parties from cease-fire groups, 
such as Kachin State Progressive Party, New Mon Land Party, will field 
their candidates in constituencies populated by respective ethnic 
groups. Except the NUP, other prodemocracy parties are too weak to 
emerge as a national party unless they form a coalition.
---------------------------------------------------------------------------
    \20\ Myint, Ni Moe 2009. ``NUP To Contest Election With Fresh 
Blood.'' Mizzima 2009 [cited September 28, 2009]. Available from http:/
/www.bnionline.net/news/mizzima/7121-nup-to-contest-election-with-
fresh-blood.html.
---------------------------------------------------------------------------
(2) Security Challenges
    The regime is facing security challenges from cease-fire groups, 
still-fighting insurgent forces, and growing, albeit ineffectual, 
incidents of terrorist acts across the country. Although the government 
is militarily capable of containing insurgency in remote areas, the 
collapse of cease-fire with major armed groups can seriously impair 
security.
            (2.a) Insurgency
    The recent collapse of cease-fire between Myanmar National 
Democracy Alliance Army (MNDAA) and the regime has stirred up 
speculations that the military will extend its operations to defeat 
other cease-fire groups, especially United Wa State Army (UWSA), the 
strongest cease-fire group, if they refuse to accept the regime's 
proposal to transform their units into border guard.\21\ The collapse 
of cease-fire agreements will significantly elevate security challenges 
because the strength of cease-fire groups combined reaches between 
40,000-55,000 troops (See the appendix). Despite the speculations, the 
author of this statement assesses that both the regime and major cease-
fire groups are likely to constrain potential conflict to avoid full-
scale confrontation.
---------------------------------------------------------------------------
    \21\ Mungpi. 2009. ``Burmese Army Might Be Targeting UWSA: 
Observer.'' Mizzima 2009 [cited September 28, 2009]. Available from 
http://www.mizzima.com/news/inside-burma/2720-burmese-army-might-be-
targeting-uwsa-observer-.html.
---------------------------------------------------------------------------
    In addition to 22 official and unofficial cease-fire groups, 
approximately 2,000 troops from existing four insurgent groups are 
fighting the regime in remote part of the country. The current strategy 
of the still-fighting groups aims to survive as a political and 
symbolic-military force while pressuring the regime by various 
available means. The groups maintain small hands of fighters in 
disperse geographical areas to exert their presence and to operate 
political functions. They assist internally displaced persons in remote 
jungles, document human rights abuses committed by the government's 
troops, and coordinate with political-action teams who are infiltrating 
into the government-controlled areas. Some of them are responsible for 
smuggling banned materials, such as communication equipment and 
explosives, and transporting trained sleeper cells to populated areas. 
The government implicated all still-fighting groups with terrorist 
incidents in major cities.
            (2.b) Protest Terrorism
    The use of terrorism as a tactic is a sensitive political issue 
among Burmese opposition groups. Exile groups, even insurgent 
organizations, do not want to undermine support from the West, let 
alone risking critical lifeline of financial assistance.
    Despite the numerous bomb attacks in the past, no group, with the 
exception of the Vigorous Burmese Student Warriors (VBSW), took 
responsibility for bombings. The VBSW, a small group of radical 
dissidents who raided the Burmese Embassy in Bangkok in 1999, 
pronounced their willingness to use ``any methods'' to attack the 
regime and its supporters.\22\ VBSW receives financial support from 
individual exiles in the U.S., Canada, Europe, Australia, and Thailand. 
The regime accused that the VBSW was financed and assisted by other 
exile groups in Thailand.\23\ In addition to the BVSW, a few other 
exile groups based in Thailand, including those receiving funds from 
the U.S., are involved with sabotage operations inside the country.
---------------------------------------------------------------------------
    \22\ The VBSW continues to claim to escalate more attacks inside 
the country. See VBSW's Statement 4/2008 dated October 20, 2008, in 
Burmese.
    \23\ See more details in the government's press conference, dated 
August 7, 2009, in Yangon.
---------------------------------------------------------------------------
    The VBSW has consistently used terrorism as vindicated responses to 
the regime's repression with little regard to strategic outlook. But 
bombings and sabotages orchestrated by other opposition groups are part 
of a larger political strategy to destabilize the regime. The groups 
that fall under this description believe that well-publicized attacks 
in the heart of major cities undermine public confidence on the 
government's ability to provide security. Moreover, they believe that 
people's frustration will ignite a mass uprising, akin to the 1988 
protests.
    The average number of terrorist attacks in populated areas, 
excluding insurgency-related incidents close to conflict zones, is 
around 16 incidents per year since 2005 (See Appendix). There have been 
at least 13 Improvised Explosive Device (IED) blasts in 2009 alone. The 
perpetrators usually go after soft targets, especially the government's 
infrastructure and public venues, but hardly direct their attacks 
against military installations. Except for two attacks in 2005 which 
killed 27 and wounded 215 in Yangon and Mandalay, the fatality was 
usually low--less than five per year except 2005. The fact that almost 
all IEDs used in public venues in Burma lacked metal shrapnel indicates 
that causing civilian casualties is not the main interest of the 
perpetrators.\24\
---------------------------------------------------------------------------
    \24\ A source close to the investigation revealed that even the 
twin explosions which killed 27 people in 2005 did not package metal 
shrapnel. It was likely that the perpetrators might not properly 
understand the confinement effect of the blast in crowded shopping 
centers.
---------------------------------------------------------------------------
    Although occasional bombing is still a minor security problem to 
the regime, it regards such attacks as a part of major conspiracy 
abetted by foreign governments to overthrow the junta. Consequently, 
the regime is suspicious of other opposition members in connection with 
subversive activities. Protest terrorism fails to effectively threaten 
the regime but undermines liberalization potential under the military 
regime.
(3) The Military Regime
    Unlike General Ne Win's 1962 military coup which consolidated its 
power by institutionalizing a one-party state 12 years after the 
military takeover, the State Peace and Development Council (SPDC) 
successively claimed that it was a coup d'etat government. The junta 
has been constantly under domestic and international pressures to 
proceed to political reform.
    In the last 20 years, the military has become the most pervasive 
institution in all walks of life in Burma's sociopolitical spheres. On 
one side, the military appears to believe that it is entitled to have a 
significant role in national politics. On the other hand, the military 
feels threatened by the lack of support from general public to preserve 
its institutional interests. The only way out to resolve this dilemma 
to an end is a new constitution which guarantees the military's 
interests after a transition.
    The transition plan is based on the regime's orchestrated 
constitution which the junta forced through in a rigged referendum 
amidst the cyclone crisis in May 2008. According to the Road Map, the 
regime will hold a new election in 2010 and form a new government.
    In the military's views, any transition facilitated by mass 
uprising is a zero-sum defeat. Popular uprising is a major security 
predicament that can lead to disintegration of the country challenged 
by 50,000-strong insurgency.\25\ The military is determined to crack 
down on any potential uprising at all cost. The regime proved its 
capability to subdue mass protests without risking major institutional 
fragmentation in the recent monk uprising as well. Security forces 
remain loyal during and aftermath of all mass protests.\26\
---------------------------------------------------------------------------
    \25\ The military viewed the 1988 uprising as a major crisis 
equivalent to state failure Burma experienced right after the 
independence. Anarchy indeed ensued during the period of the uprising. 
No organization or leaders, including Aung San Suu Kyi, were able to 
command hundreds of protest organizations and angry publics.
    \26\ During the 1988 uprising, the highest rank to defect to the 
protestors was a captain without his unit.
---------------------------------------------------------------------------
    Lack of defection does not necessarily mean the regime enjoys 
unconditional support from its subordinates. Mid-level and even some 
senior official realize that a change is critically needed in the 
country.\27\ But they also understand the cost of defection, and 
especially, career military officers bitterly reject defection as 
unprofessional conduct. Generally, possible transition from absolute 
military rule after the 2010 election will be welcomed by supporters of 
the military. But many officers contemplate that the military will 
still be an influential institution in national politics.
---------------------------------------------------------------------------
    \27\ The author has engaged a series of discussions with various 
levels of government officials. All of them say the country needs a 
change.
---------------------------------------------------------------------------
    In anticipation of the transition, regional commanders ordered 
their subordinates to wrap up counterinsurgency operations against 
still-fighting roups because they expected that a new government will 
constrain their operational capacities.\28\ Senior officials, including 
ministers, have informed their subordinates and personal assistants 
that their positions may not last after the 2010 election.
---------------------------------------------------------------------------
    \28\ In a leaked meeting minutes of a regional command in 2008, the 
regional commander asked battalion commanders to speed up operations to 
subdue existing insurgency before the election.
---------------------------------------------------------------------------
    To prepare for the 2010 elections, the ministers are touring 
various townships outside major cities. The sources said the military 
will form a new political party with existing ministers, older 
generation senior officers and community leaders with the support of 
the United Solidarity and Development Association (USDA), the regime's 
civilian-based support pillar. But the USDA will likely remain a civic 
organization rather than a party. The post-2010 military will likely be 
dominated by ``new blood'' of younger officers.
    Despite the enactment of constitutional clauses to guarantee the 
military 25 percent of parliamentary seats and dominance in security 
sector, civilian representatives can overpower promilitary 
parliamentarians in the government if prodemocracy candidates acquire 
majority of seats in the elections. This possibility of opposition 
dominance worries the military especially if opposition hard-liners 
take majority of seats in the Parliament.
    The regime is facing four dilemmas. First, the military is 
reluctant to allow opposition to campaign for their candidates prior to 
the election because the regime is worried by the possibility of 
another mass protest inspired by relaxation of political 
restrictions.\29\
---------------------------------------------------------------------------
    \29\ The regime learned a hard lesson after it had released former 
student leaders and allowed them to organize limited political actions 
after 2005. Liberalization snowballed to the monk-led protest in 2007. 
The regime is very careful this time not to repeat the previous 
mistake. See more details about the nature of regime crackdown at ICG. 
2008. Burma/Myanmar: After the crackdown. Brussels. International 
Crisis Group. <http://www.crisisgroup.org/home/getfile.
cfm?id=3290&tid=5273&type=pdf&l=l> Hlaing, Kyaw Yin 2008. Challenging 
the Authoritarian State: Buddhist Monks and Peaceful Protests in Burma. 
The Fletcher Forum of World Affairs 32 (1). <http://fletcher.tufts.edu/
forum/archives/pdfs/32-1pdfs/Kyaw.pdf>.
---------------------------------------------------------------------------
    Second, the regime is concerned with the repetition of the NLD's 
another landslide victory in the 2010 election. In the regime's view, 
the dominance of the NLD in the Parliament will encourage the 
oppositions to challenge the military after the election.
    Third, the regime is bothered by the possibility that the emerging 
civilian-dominated government will undermine the military's 
institutional interests. The military wants to avoid creating a 
Frankenstein's monster by its own Road Map. Moreover, there has been no 
viable moderate ``third force'' to which the military can build 
civilian partnership in the new government.
    Fourth, the military is uncertain of the outcomes of the 
transition, especially security concerns. The military is fully aware 
of potential post-transitional instability.\30\ Despite its intention 
to hold the elections, the military is not very confident with an 
eventual outcome.
---------------------------------------------------------------------------
    \30\ In a discussion with government official, they expressed their 
concerns on post-transitional instabilities based on Burma's post 
independence turmoil where insurgency drove the country to state 
failure.
---------------------------------------------------------------------------
                    potential instability after 2010
    Some opposition members to contest the election are hard-liners who 
view the election as an opportunity to revive mobilization after 2010. 
Many exile groups in Thailand also share this perspective. For them, a 
chance to emulate another mass protest to force the military out of 
politics is still thriving. Dissidents in this hard-line camp will 
endeavor to revise the constitution to strip away the military's 
political privileges by instigating popular unrests.
    Burma's transition in 2010 will be an illiberal democracy. 
Illiberal transition accompanied by economic destitution and political 
factionalism is a perfect recipe to instability.\31\ According to the 
U.N. figure, more than 30 percent of overall population is facing acute 
poverty, not being able to meet basic needs of food and shelter.\32\ 
The situation is much worse in remote areas and conflict zones, 
especially populated by ethnic minorities. Local NGOs operating in 
cyclone-devastated Delta areas have observed the beginning episode of 
robbing riots among villages because of rice shortage.\33\
---------------------------------------------------------------------------
    \31\ A number of studies on transitions have stressed the potential 
for instabilities. Low quality of life and factionalism are the most 
potent drivers for instability after transition. See more at Goldstone, 
J., Robert Bates, Ted Gun & et al. (2005). ``A Global Forecasting Model 
of Political Instability.''--Annual Meeting of the American Political 
Science, Political Instability Task Force.
    \32\ U.N. resident Coordinator. 2008. End of Mission Report. 
Yangon: United Nations.
    \33\ In an unpublished report compiled by a research team from 
Harvard University in early 2009 concluded that Burma is facing food 
shortage in coming years.
---------------------------------------------------------------------------
    In the last 20 years, Burma suffers relatively the worst brain 
drain in Southeast Asia. New generations of intellectuals have left the 
country to resettle in the West or more developed countries in the 
region. As a result, almost no Ph.D.-level researchers, who are trained 
in accredited institutions, remain in Burma except those who belong to 
older generations, which are closer or beyond retirement age. 
Government ministries lack capable technocrats to properly run 
administrative functions. Even security sectors are suffering from 
deficit of technical and intellectual capability.
    Another challenge for the new government is disarmament and 
demobilization of cease-fire groups. It is unlikely that the current 
regime will be able to disarm all existing cease-fire groups. Many of 
them will still possess functional armed forces after 2010 even if they 
accept token transformation into the government's border guard units. 
Any misstep in the 2010 transition can trigger the revival of major 
armed conflicts as well.
    The new government will inherit the legacies of 50-year-old 
political and economic predicaments. Regardless of the characteristics 
of transition, any new government will not be able to revive the 
country from economic pauperization in a short term. Poverty will 
remain pervasive. Post-2010 Burma will be a country with a lot of angry 
people who are just granted relative civil liberty to vent out their 
frustration. Under poverty, people are vulnerable to political 
instigation.
    The military is well aware of potential repercussions from the 
transition. Purposefully, the current constitution is designed to allow 
the military to intervene in national crisis if the government fails to 
tackle the impediment. According to the constitution article 40(c), 
``the Commander-in-Chief of the Defense Services has the right to take 
over and exercise State sovereign power'' if the country faces serious 
crises which threaten disintegration of the union. Post-transitional 
instability will reverse the course of political progress benefited by 
the 2010 elections.
    The only way to avoid potential instabilities, destructive 
confrontation and the revival of military rule is to purse realistic 
reconciliation after 2010. The transition will create political space 
to collectively explore common grounds between the military and the 
opposition to restore confidence. Both civilian politicians and the 
military representatives will be sitting under the same roof in the 
Parliament. It will be the venue for both the military and the 
opposition to interact in policymaking and mutually envisioning the 
future. Against all odds, the transition in 2010 will offer an 
opportunity to jump-start confidence building to seek much need 
reconciliation for the country.

----------------
    Min Zaw Oo is a pro-democracy activist in exile who was extensively 
involved with student protests during the 1988 mass uprising. He later 
joined the All Burma Students' Democratic Front and fought a guerrilla 
war for four years in the Burmese jungle before he came to the United 
States to continue his education in 1996. Min Zaw Oo is currently a PhD 
candidate at George Mason University, completing his dissertation on 
the analysis of 115 worldwide transitions to democracy from 1955 to 
2007. He received M.S. in conflict analysis and resolutions from George 
Mason University, and M.A. in security studies from Georgetown 
University.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

          Prepared Statement of the International Crisis Group

    The International Crisis Group appreciates the opportunity to offer 
written testimony to the Senate Foreign Relations Committee on ``U.S. 
Policy toward Burma: Its Impact and Effectiveness.''
    International Crisis Group is an independent, nonpartisan, 
nongovernmental organization that provides field-based analysis, policy 
advice and advocacy to governments, the United Nations, and other 
multilateral organizations on the prevention and resolution of deadly 
conflict. Crisis Group publishes annually around 90 reports and 
briefing papers, as well as the monthly ``Crisis Watch'' bulletin. Our 
staff are located on the ground in 12 regional offices and 17 other 
locations covering between them over 60 countries and focused on 
conflict prevention and post-conflict stabilization. It maintains four 
advocacy offices, in Brussels (the global headquarters), Washington, 
New York, and London; and as liaison presences in Moscow and Beijing.
    For several years, the Crisis Group has called for a more pragmatic 
approach to the situation in Burma/Myanmar that would allow for greater 
engagement in several areas but particularly inhumanitarian action. We 
applaud Senator Webb's recent visit and courageous new approach to the 
issue. We believe the administration's new strategy, opening the door 
to dialogue with the military regime, also presents important 
opportunities.
    The United States must be engaged because:

  <bullet> Elections, however flawed, and a potential generational 
        change in the military may open opportunities for change.
  <bullet> Democracy, peace and prosperity will be denied even longer 
        if the state fails.
  <bullet> Lack of engagement expands the influence of others and 
        raises tensions in U.S. relations with ASEAN.

    The unfortunate reality is that there will be no rapid positive 
change in Burma. It has been at war with itself since the 1940s. It has 
been under military rule since the 1960s. Its economy has stalled since 
the 1990s.
    None of the building blocks for democracy are in place: political 
parties have been crushed, the civil service destroyed, the judiciary 
reduced to impotence and the press silenced.
    But next year the country will hold elections that may open up a 
small political space. A central legislature and seven regional 
Parliaments will open following the elections. All will have a 
significant military component and none of the elections will even 
remotely approach the ``fair and free'' standard. In a country where 
democracy has been stifled for decades, these polls are a first and 
therefore possibly important step away from an authoritarian past. They 
will coincide with a change in the top military leadership, which again 
opens up the possibility of movement. New figures are likely to emerge 
as potential interlocutors, particularly among ethnic minority groups 
that have signed cease-fires. We do not know how this will play out but 
the United States needs to be poised to make the best of any 
opportunities.
    A reengagement by the United States also may offer the chance to 
put in place some of the building blocks needed for sustainable 
improvements. Burma needs educated people who are familiar with the 
outside world. It needs a civil service and a civil society. The people 
need contact with the outside world. If Burma continues down a path to 
collapse and failure it will become an enduring, possibly insoluble 
problem like Afghanistan or Somalia, societies that are struggling to 
get back to where they were 40 years ago. U.S. and international help 
could stop that decline.
    The U.S. absence from Burma has left a vacuum that has been filled 
by China and Burma's other neighbors. That has meant investors who do 
not place a priority on the environment, training staff, labor rights 
or improving the skills of the Burmese workforce. We have seen U.S. 
investment in Vietnam and China have a profound impact on those 
societies, widening the political and social space for ordinary people. 
The U.S. and others need to reengage to ensure that the Burmese have as 
many opportunities as possible to bring change to their own country. 
More foreigners means more scrutiny and a greater likelihood that 
abuses will be uncovered.
    Burma's military rulers will not relax their grip any time soon. 
Nor will the country do what it should in the way of releasing 
prisoners including Aung San Suu Kyi and allowing political activity. 
It will continue to jail the innocent and crush the outspoken. But the 
U.S. will only be able to influence change if it has a voice in Burma.
    We have a number of suggestions for U.S. policy, even in the 
absence of removing targeted sanctions at this time:

  <bullet> While recognizing that the polls will not be fair, keep an 
        open mind to contacts with the government that will emerge. 
        Many people in Burma think that while this election will not 
        come close to meeting international standards, the next one 
        could be a clearer step to enhance democracy in the country.
  <bullet> Expand aid contacts, particularly at the local level. 
        Following an initial intransigence by the military government, 
        the eventual response to Cyclone Nargis shows that it is 
        possible to get aid to people without it being lost of 
        government corruption or mismanagement.
  <bullet> Allow the World Bank and IMF to open offices in Naypyidaw or 
        Yangon. Burma will not be eligible for help unless it makes 
        substantial changes to its economy but if that time comes, it 
        is better that the IFIs are prepared with expanded 
        understanding and assessment of conditions and that they have 
        had a chance to build managerial capacity in the country.
  <bullet> Normalize the UNDP mandate, lifting restrictions on dealing 
        directly with civil servants, teachers, and government health 
        workers. These are people who would be vital in any transition 
        and exposure to international practices would enhance their 
        role.
  <bullet> Establish educational links for Burmese. Educational 
        exchange programs open minds and expand capacity.
  <bullet> Meet as often as possible with the leadership in Nyapyidaw 
        to press the case for the release of political prisoners and 
        for allowing greater democratic freedoms.
  <bullet> Encourage microloans and programs that help the many women 
        living in poverty and vulnerable to the abuses of the sex trade 
        and trafficking.
  <bullet> Slowly expand contacts with the Burmese military by 
        expanding the search for U.S. MIAs from World War II.

    This also should be a moment when the U.S. engages with China, 
particularly in the aftermath of the recent crisis along its border, 
and ASEAN members in discussing how to improve the conditions of the 
Burmese people and advance toward democratic change.
                                 ______
                                 

             Open Letter from Nongovernmental Organizations
                      on U.S. Policy Toward Burma

    We, the undersigned, write to thank Senator Jim Webb and the Senate 
Foreign Relations Subcommittee on East Asian and Pacific Affairs for 
holding a hearing on U.S.-Burma relations, and applaud efforts to find 
new ways to encourage dialogue with the Burmese people. The policy 
review being undertaken by the Senate and the administration come in 
the wake of heightened U.S. involvement with Burma in response to the 
tragedy of Cyclone Nargis. We encourage the U.S. Government to continue 
to increase humanitarian assistance to the people of Burma to alleviate 
the suffering of ordinary Burmese, to strengthen civil society, and to 
encourage dialogue between the international community and the Burmese 
Government. At a time when so much of the world's relationship with 
Burma is deadlocked, humanitarian assistance is one of the few areas 
where concrete progress is being made.
    Burma is one of the poorest countries globally. The United Nations 
Development Program estimates that the GDP per capita in Burma is the 
13th lowest in the world. The average Burmese family spends 75 percent 
of that meager income on securing adequate food supplies. Less than 50 
percent of children complete primary school and, according to UNICEF, 
under-5 child mortality averages 103 per 1,000 children. This is the 
second-highest rate outside Africa, after Afghanistan. Burma has the 
highest HIV rate in Southeast Asia, and malaria, a treatable and 
preventable disease, is the leading cause of mortality and morbidity.
    While the Burmese military regime bears most responsibility for the 
situation in Burma, international humanitarian aid for the Burmese 
people has not kept pace with their needs. According to the 
Organization for Economic Cooperation and Development (OECD), for 
example, Burma receives less overseas development assistance, $4.08 per 
person (2007), than any of the poorest 55 countries. The average 
assistance in this group of countries is more than $42 per person. Many 
other countries with similar levels of poverty receive much larger 
assistance packages, such as Sudan ($51/person); Zimbabwe ($41/person); 
and Laos ($58/person).
    U.S. policy toward Burma has traditionally focused on the 
government and not the millions of people in Burma, whose living 
conditions have steadily deteriorated. The Burmese people perpetually 
live on the brink of a humanitarian crisis, and Cyclone Nargis proved 
that further disruption can have disastrous consequences. The U.S. was 
the second largest donor for the Cyclone Nargis response, contributing 
$75 million to emergency efforts. This funding was carefully monitored 
and provided lifesaving emergency health care, shelter, and livelihood 
support to help Burmese citizens recover.
    In fiscal year 2010, the Obama administration requested $21 million 
for humanitarian assistance to assist people inside Burma, an important 
step toward greater U.S. involvement in alleviating their suffering. At 
a time when other countries are looking to the U.S. for leadership, 
such an increase will help ensure a more unified approach among major 
U.S. allies. Great Britain, the European Community, Australia and 
others are already moving to significantly ramp up their assistance. As 
the Senate and the administration consider new approaches to Burma, it 
should increase humanitarian assistance to Burma gradually, with at 
least $30 million for FY 2010, $45 million in 2011, and $60 million in 
2012. This type of assistance should be available to people in need not 
only in the delta and along the border but throughout Burma. It should 
also be expanded beyond the current emergency assistance and limited 
health interventions to include agriculture, health, education, 
microfinance, capacity-building, and income-generation.
    Humanitarian assistance in Burma has the added impact of supporting 
the development of civil society organizations in a country where it is 
important to encourage nonstate actors. Almost all international aid 
agencies work closely with civil society partners throughout the 
country to implement their programs. Humanitarian aid organizations now 
employ over 10,000 Burmese citizens who are directly exposed to new 
ideas and international standards of work. Their experience has a 
multiplying effect, as these staff work in villages countrywide. These 
efforts should be supported and expanded to allow the Burmese people to 
have a greater role in shaping their own future.
    The international community has also seen how engagement can 
produce concrete changes in government policy through dialogue that 
contributes to improving the well-being of the Burmese people who have 
suffered as a result of current circumstances. Because of their long-
term presence in the country, principled engagement with the 
government, and the efficacy of their programs, many international NGOs 
have been able to have a direct role in shaping national policy. 
International actors have been pivotal in gaining changes to nationwide 
HIV/AIDS, tuberculosis, education, and disaster response policies. They 
have gotten to know which government officials are encouraging of 
greater engagement with the outside world, and how to best engage the 
government in sensitive issues. Promoting this type of dialogue should 
be supported.
    Humanitarian assistance alone cannot solve Burma's problems. It is 
an effective tool for helping a suffering people with direct aid, and 
for encouraging some officials to adopt more effective social policies. 
And it provides space for civil society to grow in a country where few 
opportunities exist. It must be seen as only one policy amongst many 
whose aim is to improve the lives of all Burmese. But the U.S. should 
continue to embrace humanitarian assistance as a proven and effective 
way for achieving important policy goals.

                    International Agencies: Refugees International; 
                            Save the Children; International Rescue 
                            Committee; Oxfam America; Population 
                            Services International; International 
                            Development Enterprises Myanmar; World 
                            Concern; Church World Service; Medecins du 
                            Monde; International HIV/AIDS Alliance; 
                            Welthungerhilfe; Medical Action Myanmard; 
                            Norwegian Refugee Committee; Norwegian 
                            People's Aid; and Merlin.
                    Burmese Civil Society: Myanmar Egress; Capacity 
                            Building Initiative; and Tampadipa Relief 
                            and Development.
                                 ______
                                 

        Prepared Statement of Thet Win, Founder and President of
                   US Collection, Humanitarian Corps

    ``He did not need man's testimony about man, for He knew what was 
in a man.'' (John 2:25). Indeed, the Lord God knows what is in our 
hearts. All the problems of Burma are man-made. And now man seeks 
solutions to these problems he made for himself. Some say that in 
Burma, the world's ``longest civil war'' is going on. In recent 
decades, we have come to be very aware of the political struggle in 
Burma. And now, leaders have gathered and there is new activity and 
perhaps new hope and a chance for a new beginning for reconciliation 
and peace in Burma. However, we need one more element for success. Man 
cannot solve his problems alone. Only God can solve his problems. In 
the case of Burma, we need to give up. We need to let go . . . and let 
God.
    ``Fair is foul and foul is fair'' (Macbeth). Things are not how 
they appear for the Western eye on Burma. The image of Burma has been 
reduced to a black-and-white picture. Even a caricature drawing of good 
vs. evil is the portrayal. But things are not this clear. Burma is 
beyond black-and-white; even beyond a murky grey-zone; it is colorful 
and complex. The reality hidden under decades of political spin and 
weaving to create the monochrome long drawn out tapestry of political 
stalemate we have today. Up to now sanctions have been the way to go. 
In the beginning sanctions backed up a moral stand. Now sanctions hurt 
the ordinary Myanmar people, a new moral stand takes its place. Lifting 
sanctions would help ? How would it bring liberty to Burma? 
Nevertheless, at this time, allowing investments in the building of 
schools and hospitals funded by certain business models that are self-
sustaining should be allowed.
    How can the United States trust the SPDC of Myanmar? ``I have but 
one lamp by which my feet are guided; and that is the lamp of 
experience.'' These are the words of Patrick Henry and serve as good 
guide for the way to move forward on Burma. However, as mentioned 
knowing the way forward is not all as it seems. If we judge from the 
past we can see that the prodemocracy exile movement has been 
ineffective and at best gave the United States information about what 
is happening in Burma. But this information is provided through a 
narrow lens of the reality in Burma. It is purely from a biased 
perspective. It is not helpful for the people of Myanmar. We are all 
involved in this prodemocracy campaign as Americans because we have 
given moral support and funds that keep their industry functioning. To 
go forward in Burma requires persons and agencies that are in Burma to 
foster and forge good honest relations which are for the welfare and 
freedom of the people. Visit Myanmar to see the reality for yourself. 
Engagement does not legitimize
the regime. Freedom loving people all want to see Aung San Suu Kyi 
free. And in
the meantime, we must address the humanitarian crisis in Myanmar. 
Together
we can visit, work, and pray and bid all comfort and peace. Please 
visit our US Collection Web page to see the work we do and to learn 
about Myanmar--www.USCollection.org. I invite you on behalf of US 
Collection to visit Myanmar and to see the reality for yourself.
    It is my honor to provide this written testimony to the Senate 
committee. I have not indulged in facts and figures to impress you for 
you are already supplied with this information by your competent staff. 
However, I will supply you with feelings of hope and commitment for 
peace and justice. In the end, this is a problem of the Myanmar people. 
Tocqueville says that the future of a nation can be judged like by the 
way a baby rests in his cradle. Myanmar is no infant. It has an 
ancient, rich, and proud history. It has evolved in recent years in the 
Asian sphere but apparently out of sight in the West because the 
reality of its recent history has not been properly presented. The U.S. 
must learn all about Myanmar. After learning about the Myanmar reality, 
engaging will go more smoothly. Engagement must be done with 
understanding of Asian/Confucian values too. It is important for the 
SPDC to save face in order to move forward. There will be sacrifices 
needed from all sides to move forward for lasting peace and prosperity. 
Indeed it is my own fault too, for not having done more to tell the 
representatives of the United States in order to have greater security 
in the U.S. and to help those struggling with poverty in Myanmar. My 
conscience has always compelled me to help the people of Myanmar 
through my humanitarian cause.
    US Collection, Humanitarian Corps is making a difference in the 
lives of those struggling with poverty in Myanmar. And it is securing 
greater peace between the United States and Myanmar through dialogue, 
collaboration, and friendship. The SPDC of Myanmar may stand before us 
with ``spear, and helmet, and armor'' but like young David, we come to 
them in the name of the Lord. With this stand, they are disarmed. There 
is no war between our nations, but a greater peace needs to be built. 
US Collection is an agent for change because it is an organization made 
up of Myanmar expatriates and Myanmar citizens who understand how to 
work in Myanmar. Please investigate us and consider supporting our 
work.
    By consulting officials and experts in the U.S. and officials of 
the SPDC in Myanmar, and being deeply in touch with all the Myanmar 
people, US Collection has these five recommendations:
    (1) Appoint the Special Envoy to Myanmar.
    (2) First, the Special Envoy must lead a commission to resolve the 
ethnic rebels' resistances and establish the principles of nonviolence 
to which all parties in ethnic territories must adhere and subsequently 
lead to an armistice, peace negotiations, and reconciliation with 
Myanmar authority.
    Ethnic rebel insurgencies lead to international security threats by 
fostering criminal activity, criminal industries, human trafficking, 
spread of HIV/AIDS, refugee flows, and terrorism.
    (3) The Special Envoy must be allowed to meet Aung San Suu Kyi. 
Envoy must discern the potential of the SPDC's tolerance to allow Ms. 
Suu Kyi to participate in the political process. Envoy must discern the 
potential pliability of Ms. Suu Kyi to deal with SPDC in a new way 
forward.
    (4) The Special Envoy must set the tone of sincere engagement--by 
first removing attitudes of animosity from the U.S. side. Animosity can 
be removed by reserving judgment and bid the SPDC to show proof that it 
has made overtures to Ms. Suu Kyi to participate in the political 
process in a new way forward. There must be verification that Ms. Suu 
Kyi has been entreated by the SPDC to participate in the political 
process.
    (5) The U.S. and Myanmar should engage in cultural, scientific and 
higher education, and humanitarian endeavors. Grants and scholarships 
should be created to support such projects.
    Thank you for allowing me on behalf of US Collection to make this 
written statement. I am confident the Representatives of the United 
States have the desire and wisdom to move forward in engaging Myanmar. 
Please publicly and privately engage the SPDC, the individual officials 
of the SPDC, the political opposition, and the ordinary people with 
finesse and patience. ``There's no such thing as a conflict that cannot 
be ended. Conflicts are created, conducted and sustained by human 
beings. They can be ended by human beings.''--George Mitchell (former 
U.S. Senator). But I must add, ``only by the grace of God.'' I would 
like to end with the Serenity Prayer--God grant me the serenity to 
accept the things I cannot change; Courage to change the things I can; 
and wisdom to know the difference.
    Thank you.
                                 ______
                                 

  Prepared Statement of Chris Beyrer, M.D., MPH, Director, Center for 
   Public Health and Human Rights, Johns Hopkins Bloomberg School of 
                             Public Health

    All those concerned with the welfare of the Burmese people and with 
the hoped-for return of Burma to the international family of free 
nations welcome the engagement of Senator Jim Webb and his Senate 
colleagues. I would like to thank Senator Webb for his staff's kind 
offer to submit this testimony for the record.
    As a physician, and public health and human rights researcher, I 
have been involved with health and human rights in Burma since 1993, 
and can say without hesitation that this is a critical moment for Burma 
and her people. Both opportunities and risks abound. The U.S. policy 
review, underway for much of the year, is near completion.\1\ The 
policy calls for a new level of dialogue between the U.S. and the 
ruling State Peace and Development Council.\1\ The new U.S. policy will 
increase much-needed humanitarian assistance, and could bring relief 
and improved health and well-being to the long-suffering Burmese 
people. And Assistant Secretary Campbell's statement that the U.S. will 
continue targeted financial sanctions, could keep political pressure on 
the dictatorship of Senior General Than Shwe and his financial 
partners.\1\ Such pressure could assist in the beginning of genuine 
political dialogue with the democratic opposition led by Daw Aung San 
Suu Kyi, her party, and the leaders of Burma's Ethnic Nationalities.
    In a letter dated September 25 of this year and released by the 
Central Executive Committee of the National League for Democracy in 
Rangoon on September 28, Ms. Suu Kyi called for direct dialogue with 
Senior General Than Shwe.\2\ This call for dialogue should be 
vigorously supported by the United States. But it should be noted that 
Ms. Suu Kyi, as stated by United Nations Secretary General Ban Ki-moon, 
has called for direct dialogue with the SPDC in the past, and her 
overtures have been rebuffed:

        Sept. 24, 2009--Excerpt: Ban Ki-moon, United Nations General 
        Assembly

           . . . the Special Adviser again encouraged the Government 
        [Of Myanmar] to (a) raise the level of the Government 
        interlocutor with Daw Aung San Suu Kyi, and (b) give further 
        consideration to the proposal made by Daw Aung San Suu Kyi in 
        March 2008 to issue a joint statement of commitment between her 
        and the Government to work together in the national interest 
        with a view to creating conditions conducive to the lifting of 
        sanctions against Myanmar. Subsequently, on 24 February 2009, 
        NLD issued a correction to its special statement No. 2/02/09, 
        in which it stated that: `` . . . Daw Aung San Suu Kyi had 
        already informed the authorities through the Minister for 
        Relations, that she is ready to cooperate to avoid these 
        matters and to issue statements reached by both sides. 
        Therefore it is declared once again that NLD requests with 
        sincere intention that the two leaders who can make decisions 
        regarding these matters shall unavoidably and practically hold 
        [a] dialogue immediately.'' \3\

    Supporting Ms. Suu Kyi's effort to begin genuine dialogue with the 
SPDC will require that the U.S. be consistent and unyielding in its 
call for genuine political participation for Burma's democratic 
leadership. This will also require the U.S. not yield on its call for 
the immediate and unconditional release of all political prisoners.\1\ 
There may be an opportunity for real change in Burma, but all concerned 
must be realistic about the recent activities of the SPDC, most 
importantly their current treatment of the civilian political forces in 
the country and their recent activities in ethnic minority areas.
                         the political context
    This is also a period of enormous risks for all concerned with 
Burma's future. The SPDC, despite the recent release of some 200 
political prisoners, continues to imprison more than 2,000 political 
prisoners.\4\ The junta's prisoners include Ms. Suu Kyi and many key 
leaders of her party, the NLD; ethnic leaders, including Khun Tun Oo, 
the Chairman of the Shan Nationalities League for Democracy; Generation 
88 leaders, including MM Ko Niang; and labor activists such as the 
courageous Su Su Nwe.\4\ Other prisoners include leaders of the clergy 
such as Buddhist Monks from the nonviolent Saffron Revolution of 2007, 
including U Gambira and U Indaka and at least 237 other monks, 
according to the Assistance Association for Political Prisoners in 
Burma (AAPPB) \5\; humanitarian relief workers jailed for their work in 
the Cyclone Nargis response, including the beloved comedian Zarganar; 
and most recently, a United States citizen of Burmese origin, Kyaw Zaw 
Lwin (aka Nyi Nyi Aung) a resident of my state, Maryland, who is being 
tortured at this writing, according to Amnesty International.\6\ 
Indeed, the leaders of virtually every progressive force in Burma are 
currently in detention or prison, and many are being held in remote 
rural prisons far from families and far from the most minimal standards 
of nutrition, hygiene, and health care.\4\ As long as these leaders 
remain imprisoned and imperiled, genuine political dialogue within 
Burma will remain stalled no matter what discussions are underway 
between the SPDC and the wider world.
    The SPDC's proposed roadmap for democracy in Burma hinges on the 
discredited constitutional referendum of May 2008, conducted just days 
after the devastation of Cyclone Nargis. The referendum was neither 
free nor fair. The possible elections of 2010 are based on this 
constitution, and deliberately exclude Ms. Suu Kyi from participation 
in her country's political process. An expanded engagement with Burma 
must not mean U.S. acceptance of the referendum, nor agreement to the 
terms of Burma's unfree and unfair constitutional process.
                    attacks on ethnic nationalities
    The recent attacks on Burma's Ethnic Nationalities, including in 
the Karen, Shan, and Kokang ethnic areas, are the second major cause 
for concern in Burma today. In Shan State the attacks on civilians have 
been particularly intense: Some 39 Shan villages were attacked, with 
villagers forcibly displaced in July and August of this year--part of a 
systematic and brutal scorched earth campaign documented by the Shan 
Human Rights Foundation and the Shan Women's Action Network, and 
reported by Human Rights Watch on August 14, 2009.\7\ State Department 
Spokesman Ian Kelly addressed these attacks in an August 31, 2009, 
briefing: ``The United States is deeply concerned over the attacks by 
the Burma Army in eastern Burma against several ethnic nationality 
groups, and we continue to monitor developments carefully. The brutal 
fighting has forced thousands of civilians to flee their homes for 
safety in Thailand and China, and reduced both stability and the 
prospects for national reconciliation. We urge the Burmese authorities 
to cease their military campaign and to develop a genuine dialogue with 
the ethnic minority groups, as well as with Burma's democratic 
opposition.'' \8\
    Such mass atrocities are not new to Burma. In population-based 
health and human rights assessments conducted by our collaborative 
Burmese and American team in 2006-07, among over 2,900 ethnic 
households in eastern Burma, the Shan villagers suffered among the 
highest rates of abuses of any group.\9\ More than a quarter of all 
Shan families had been forcibly relocated in the last year, 24 percent 
had at least one family member taken by soldiers for forced labor, and 
an astonishing 9 percent of households had at least one family member 
injured by a landmine--one of the highest rates ever documented.\9\
    Other ethnic groups, most recently the Karen in eastern Burma, have 
also faced intensified fighting and egregious rights violations this 
summer--some 5,000 Karen have recently fled into Thailand according to 
Human Rights Watch.\7\ The plight of the Rohingyas, a Muslim minority 
persecuted in Western Burma, has also caused international concern. 
Human Rights Watch called for an end to the junta's systematic abuses 
against the Rohingya in May of this year.\10\ And the attacks against 
the Kokang, a Mandarin-speaking minority in northern Shan State, drove 
some 37,000 refugees into China's Yunnan province in August 2009, 
raising concerns about regional stability, and eliciting a rare rebuke 
from China. China took the unusual step of officially calling on the 
SPDC to maintain peace along their shared border.\11\ PRC Foreign 
Ministry spokeswoman, Jiang Yu, stated ``Safeguarding stability along 
the China-Myanmar border is in the vital interest of the two peoples 
and is the common responsibility of the two governments.'' \11\
    These renewed assaults on Burma's ethnic peoples appear to be part 
of the junta's strategy for the 2010 elections. The generals are 
attempting to force their ethnic opponents to become border patrol 
forces and to participate in the proposed elections. Most of the larger 
ethnic groups and political parties have rejected these offers, and 
have rejected the junta's new constitution. Two of the largest and most 
heavily armed groups, The United Wa State Party and Kachin Independence 
Organization, also appear likely to reject the junta's offers, 
increasing the likelihood of more ethnic conflicts. In preparation for 
the potential refugee flows from this fighting, China has taken the 
extraordinary step of preparing three refugee camps on its border with 
Kachin State.\12\ The junta is creating new humanitarian emergencies 
with its current campaign for political control of ethnic areas and 
destabilizing its border regions with China. Burmese refugees continue 
to flee not only into China, but to Thailand, India, Bangladesh, and 
Malaysia, making this a truly regional concern.<SUP>7,8,10,11</SUP>
    In the central and urban regions of Burma the health and 
humanitarian situation remains dire as well. As reported by the 
Australian Economist Sean Turnell, the SPDC is estimated to hold more 
than US$5 billion in foreign exchange reserves, yet expenditures on 
health and education remain among the lowest worldwide.\13\ The 
official government expenditure on health is some $0.70 per capita per 
annum, or 0.3 percent of the national GDP according to Doctors Without 
Borders--a figure that does not reflect the gross disparity of care 
within the country: health and social services are markedly scarcer in 
rural and ethnic minority areas.\14\ The SPDC can and should do much 
more, and any calls for increased humanitarian support should be 
coupled with calls for the SPDC to spend the resources of the Burmese 
people on their well-being. The argument that Burma's remarkably poor 
health outcomes are due simply to limited foreign aid ignores the 
reality that the SPDC has divested in health and education funding, 
while spending lavishing on its military.\15\ Policy reform, as 
Professor Turnell has argued, could have enormous impacts on the social 
sector in Burma, with or without increased overseas development aid. 
Without such reform, aid may have limited impacts on the outcomes all 
wish to see--improved well-being for the people of Burma.
                           what can be done?
    What can the United States do at this critical juncture to support 
democracy in Burma and alleviate suffering?

  <bullet> Expand humanitarian assistance throughout the country and 
        through support for community-based organizations (CBOs), 
        faith-based organizations (FBOs), local civil society groups, 
        and Ethnic National health services that can work in border 
        regions and other areas that are restricted by the SPDC--and 
        couple this giving with pressure on the SPDC to expand its own 
        funding for humanitarian assistance, health care, and 
        education.
  <bullet> Continue to exert positive political pressure for true 
        progress toward democracy and freedom in Burma. This means 
        continuing to call for the release of all political prisoners, 
        including U.S. citizens, and mandating that the NLD and the 
        ethnic leadership be part of the greater engagement of the U.S. 
        with all potential dialogue partners in Burma.
  <bullet> Support Daw Aung San Suu Kyi's recent call for her party's 
        direct engagement in dialogue with the SPDC leadership.
  <bullet> Continue and implement targeted ``smart sanctions'' against 
        the SPDC and its business partners to maintain pressure on the 
        junta for real and meaningful change. Make explicit the pathway 
        toward which sanctions could be progressively lifted as 
        political reform occurs.
  <bullet> Expand multilateral diplomacy with the U.N., the EU, ASEAN, 
        with India, and Russia, and most importantly with China, where 
        the U.S. has a unique strategic opportunity, given China's 
        public discord with the junta over refugees and China's 
        legitimate concerns over the treatment of both ethnic Chinese 
        Burmese nationals, and Chinese nationals resident in Burma.
  <bullet> Work with the international community on an expanded arms 
        embargo which should be in place as long as the Burmese 
        military continues to terrorize civilian populations.
  <bullet> Actively support the U.N. investigation of the regime's 
        crimes against humanity to continue political pressure and to 
        hold the SPDC accountable for any crimes it has committed. 
        Tolerance for the SPDC's impunity will not further 
        democratization but could hinder the long-term prospects for 
        lasting national reconciliation in Burma.

----------------
    References:

    1. Office of the Spokesman, U.S. Department of State. Assistant 
Secretary of State for East Asian and Pacific Affairs Kurt Campbell On 
Burma. September 28, 2009. (On-The-Record Briefing.)
    2. Burma Update--28 September. Statement by the Central Executive 
Committee (CEC) of the NLD, Rangoon, September 28, 2009.
    3. UNSG Ban Ki-moon, Statement to the United Nations General 
Assembly: ``Daw Aung San Suu Kyi, NLD Statement, Dialogue and 
Sanctions.'' September 24, 2009.
    4. Human Rights Watch. ``Burma's Forgotten Prisoners.'' Special 
Report, September 16, 2009.
    5. Assistance Association for Political Prisoners (Burma) (AAPP), 
September 22, 2009.
    6. Amnesty International. ``Myanmar: U.S. Citizen Tortured in 
Yangon.'' ASA 16/006/2009. September 24, 2009.
    7. Human Rights Watch. ``Burma: Army Attacks Displace Thousands of 
Civilians.'' August 14, 2009.
    8. Statement of Ian Kelly, Department Spokesman, East Asia and the 
Pacific: ``Urging an End to the Violence in Eastern Burma.'' August 31, 
2009.
    9. Mullany LC, Lee C, Yone L, Paw P, Shwe Oo E, Maung C, Lee TJ, 
Beyrer C. ``Access To Essential Maternal Health Interventions and Human 
Rights Violations Among Vulnerable Communities in Eastern Burma.'' PLoS 
Medicine 2008 December 23;5(12):1689-98.
    10. Human Rights Watch. ``Perilous Plight: Burma's Rohingya Take to 
the Seas.'' May 25, 2009.
    11. AFP. ``China Urges Myanmar to Maintain Peace Along Border.'' 
September 1, 2009.
    12. Kachin News Group. ``China Sets Up Three Refugee Camps for 
Burmese in Anticipation.'' September 25, 2009.
    13. Sean Turnell. ``Burma Isn't Broke: The Junta, Not a Lack of 
Resources, Is To Blame for the People's Poverty.'' The Wall Street 
Journal, August 6, 2009.
    14. Medecins Sans Frontiers. ``Beyond the International Spotlight, 
Critical Health Needs in Myanmar Remain Unmet,'' Special Report, MSF, 
2008.
    15. Stover E, Beyrer C, Suwanvanichkij V, Moss A, Tuller D, Lee TJ, 
Whichard E, Shigekane R, Mathieson D. ``The Gathering Storm: Infectious 
Diseases and Human Rights in Burma.'' Special Report. The Human Rights 
Center, University of California Berkeley, The Center for Public Health 
and Human Rights, Johns Hopkins University. July 2007.
                                 ______
                                 

                    Prepared Statement of USA*ENGAGE

    USA*ENGAGE appreciates the opportunity to comment on U.S. relations 
with Myanmar on the occasion of the Senate Foreign Relations hearing. A 
part of National Foreign Trade Council (NFTC), USA*ENGAGE is a broad-
based coalition representing Americans from all regions, sectors, and 
segments of our society concerned about the proliferation of unilateral 
economic sanctions at the federal, state, and local level. Despite the 
fact that unilateral sanctions fail to achieve their intended policy 
goals, but instead harm U.S. companies, they continue to have political 
appeal. Unilateral sanctions give the impression that the United States 
is ``doing something,'' while American workers, farmers, and businesses 
absorb the costs.
    The U.S. approach to Myanmar's human rights violations over the 
last 12 years perfectly illustrates the counterproductive nature of 
sanctions. President Clinton instituted a ban on new investment in 
Myanmar by U.S. citizens in 1997. More than 6 years later, President 
Bush ratcheted up sanctions by banning imports from Myanmar into the 
U.S.\1\ These measures have the commendable goal of aiming at toppling 
the regime or pressuring it into democratic reforms. The result, 
however, has been to increase the regime's independence from the U.S. 
and the West.
---------------------------------------------------------------------------
    \1\ http://www.treas.gov/offices/enforcement/ofac/programs/burma/
burma.pdf.
---------------------------------------------------------------------------
    Other countries that have not adopted similar sanctions have 
adroitly filled the void created by our absence. China, India, and 
members of the Association of South-East Asian Nations (ASEAN) have 
stepped up trade and investment with Myanmar. Myanmar's combined 
exports to China, India, Malaysia, Vietnam, Thailand, Cambodia, and 
Indonesia increased fivefold from 1998 to 2003. Following the second 
round of U.S. sanctions, Myanmar's exports to these countries more than 
doubled by the end of 2007.\2\
---------------------------------------------------------------------------
    \2\ IMF Direction of Trade (DOT) Statistics: http://
www.imfstatistics.org/imf/.
---------------------------------------------------------------------------
    Foreign Direct Investment (FDI) by other countries has also risen 
substantially. Russia and Vietnam invested USD 94 and 20 million 
respectively in September 2008 in Myanmar's energy sector but the most 
striking investment came from China. Myanmar ``received USD 985 million 
during fiscal 2008-2009, ended March 31 this year, up 5.7 times from 
fiscal 2007-2008's USD 173 million, the official statistics released by 
the National Planning Ministry showed.'' \3\ The increase was mostly 
from new investment in Myanmar's mining industry.
---------------------------------------------------------------------------
    \3\ http://www.thehindu.com/holnus/006200907191570.htm.
---------------------------------------------------------------------------
    Despite exemptions for investment in certain humanitarian 
nongovernment organizations (NGO) in Myanmar, the sanctions have 
constrained NGO efforts, as the example of Caterpillar illustrates. 
Caterpillar in Myanmar donates to Helen Keller International, 
participates in the Myanmar Business Coalition on AIDS, and has started 
an apprenticeship program for service technicians aimed at young 
people. It would like to do more but without the ability to invest more 
in its business, the humanitarian activities Caterpillar supports are 
effectively frozen.
    The United Nations' (U.N.) appeals to Myanmar's regional allies 
have yielded little. Some hoped the crackdown on protesting Buddhist 
monks that took place in September 2007 would trigger more cooperation 
with the West from Myanmar's regional allies. Those hopes were soon 
dashed. One month later, the United Nations' special envoy to Myanmar 
visited Asia and received very tepid responses from its leaders. 
Malaysia even refused to entertain the suspension of Myanmar from 
ASEAN.\4\ This episode has increased the leadership's confidence that 
it can survive with just its regional enablers.
---------------------------------------------------------------------------
    \4\ ``Asia: Sticks and Carrots; Myanmar Diplomacy,'' The Economist. 
London: Oct. 20, 2007. Vol. 385, Issue 8551; p.84.
---------------------------------------------------------------------------
    Reevaluation of U.S. policy is long overdue, as the administration 
recognizes. Political prisoner Daw Aung San Suu Kyi, whom Washington 
has considered the legitimate leader of Myanmar since 1990, enjoys 
well-deserved admiration among Members of Congress. She has endorsed 
the new engagement efforts of the administration.\5\
---------------------------------------------------------------------------
    \5\ ``Burmese Opposition Supports New U.S. Approach,'' New York 
Times. Seth Mydans (9/25/2009).
---------------------------------------------------------------------------
    USA*ENGAGE recommends that Congress go further and adopt the 
position described in Senator Jim Webb's recent public statement that 
sanctions should
be reduced ``carefully but immediately.'' \6\ USA*ENGAGE believes a 
diplomatic approach based on engagement that generates incremental 
reform is preferable to a hostile one that has demonstrably generated 
none. We hope, after its review of U.S. policy toward Myanmar that the 
committee will agree that an easing of sanctions is the correct course.
---------------------------------------------------------------------------
    \6\ ``We Can't Afford to Ignore Myanmar,'' New York Times. Senator 
Jim Webb (8/26/2009).
---------------------------------------------------------------------------
                                 ______
                                 
                                                September 29, 2009.
Senator Jim Webb,
Russell Senate Office Building,
Washington, DC.
    Dear Senator Webb: We were happy to hear of your intent to hold a 
hearing on U.S. relations with Myanmar/Burma on September 30th. Your 
recent trip to the region helped bring light to the complex and 
difficult situation on the ground, and we applaud your intention to 
open the discussion on U.S. policy to wider debate.
    On May 8th, The National Bureau of Asian Research, the US-ASEAN 
Business Council, and the Atlantic Council, with the support of 
Refugees International, co-sponsored a forum held in the Senate Foreign 
Relations Committee Room entitled, ``Burma/Myanmar: Views from the 
Ground and the International Community.'' Representatives of the 
international community, humanitarian workers with on-the-ground 
experience, experts, and the policy community in Washington, D.C., 
joined together for a wide-ranging discussion. Experts and aid workers 
addressed questions about the humanitarian situation, which is on the 
verge of crisis, highlighting what programs have been successful and 
where the needs are greatest. Members of the international community 
shared their approaches and explored avenues for better international 
coordination.
    We respectfully request to submit the report from our forum for the 
record.
            Sincerely,
                                   Richard Ellings,
                                           President, National Bureau 
                                               of Asian Research.
                                   Alexander Feldman,
                                           President, US-ASEAN Business 
                                               Council.
                                   Joel Charny,
                                           Acting President, Refugees 
                                               International.

    Attachment.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                  Prepared Statement of Kyi May Kaung

``We must take sides. Neutrality helps the oppressor, never the 
oppressed. Sometimes we must interfere . . . There is so much injustice 
and suffering crying out for our attention . . . writers and poets, 
prisoners in so many lands governed by the left and by the right.''--
Elie Wiesel, Nobel Peace Prize Acceptance Speech, 1986, Oslo.

    Senator Webb, I was disappointed by your hearing yesterday, which I 
saw as rather one-sided. No representatives of Daw Aung San Suu Kyi, 
her lawyer Jared Genser, representatives of the National League for 
Democracy, or the NCGUB (the Exile Government, elected to their 
constituencies in Burma in the 1990 elections), Burmese refugees and 
dissidents, Burmese monk survivors of the 2007 Saffron Revolution, the 
U.S. Campaign for Burma, scholars who have not advocated removing 
sanctions, representatives of major non-profits working for change in 
Burma, other stakeholders or known strong supporters of Aung San Suu 
Kyi such as Speaker Nancy Pelosi, Barbara Boxer, Diane Feinstein, or 
Mitch McConnell were present. Here is Sen. McConnell's ``two tests for 
the new U.S. policy from his Web site: http://mcconnell.senate.gov/
record.cfm?id=318402&start=1.
     I request that you place this statement on the official record of 
the hearing of September 30, 2009.
     You conducted the Hearing single-handed and was noticeably harsher 
in your questions toward Kurt Campbell, who explicated the new U.S. 
policy and took a measured approach, and toward Professor David 
Williams, who was the only one among the witnesses who mentioned gross 
human rights violations in Burma and the stepped-up military campaigns 
against the ethic minorities, being conducted right now as military 
attacks against the Kokang Chinese, the Rohingya in the west, the 
Kachin in the north and in addition to the on-going longest civil war 
against the Karen in the east. In many cases it was the Naypyidaw 
(former Rangoon government) which violated the cease-fires.
     Professor Williams said, ``Before the 2010 elections, the 
mountains will flow with blood.'' The continuous and constantly 
increasing stream of refugees into all the neighboring countries are 
evidence of this.
     Dr. Williams also testified that he thought after 2010 it would 
not be a civilian government, though it would be civilianized. As 
Burmese, we have seen too much of the trick of army brass changing into 
civilian clothes and continuing in power, directly or from behind the 
scenes, to think much of the promises of the 2010 so-called 
``election.'' Professor Williams concluded by saying ``This effort 
won't shift the game, it will only give the game away.''
     I am relieved that the U.S. State Department's new Burma policy 
will in fact be a limited engagement policy, subject to concrete and 
substantial changes (political and economic reforms of a structural 
nature) on the part of the Burmese military regime, and that the U.S. 
Government reserves the right to impose or extend sanctions whenever it 
sees fit.
     Please allow me to tell you who I am and my qualifications for 
talking about Burma.
     I am a Burmese-born scholar and long-time democracy advocate who 
has been studying Burma all her adult life. My 1994 Ph.D. dissertation 
from the University of Pennsylvania was on the detrimental effects of a 
highly centralized command economy and the political economy of Burma 
in relation to those of Zaire, the then-Soviet Union, India, and the 
People's Republic of China. I studied the design of political-economic 
systems and the rundown economies produced by having a dictatorship or 
one party system. My thesis is on Scholarly Commons (http://
repository.upenn.edu/dissertations/AAI3116650/) available from Proquest 
(http://repository.upenn.edu/dissertations/index.221.html) and a 
summary available from Asian Survey (http://caliber.ucpress.net/toc/as/
35/11).
     I also study the economic relationship between nations and I was 
the first to start pointing out in 2002 that to study Burma we also 
need to look at China and India. Today, I am happy to see this view is 
being increasingly taken up, including by you at yesterday's hearing.
     In addition I have publicly debated David Steinberg and others 
about sanctions and Burma several times since 2002. Here are some 
links: http://www.fpif.org/fpiftxt/3917; http://news.bbc.co.uk/2/hi/
programmes/hardtalk/7026645.stm.
     For the BBC ``Hardtalk'' interview, I went at the request of the 
NCGUB or National Coalition Government of the Union of Burma or the 
Exile Government, as one of the members of their Technical Advisory 
Network.
     I have been closely associated with The Free Burma Coalition when 
it was working on sanctions, with The Burma Fund and the NCGUB. Most 
recently (winter of 2008-2009), I worked on a Transition Plan for 
Burma, commissioned by the NCGUB. I compiled the plans and ideas of 6-7 
internationally recognized scholars and Burma experts; several 
economists; including an expert on money and banking and economic 
development; a human geographer who has studied Burmese agriculture 
extensively and is alarmed about the mass landlessness taking place in 
Burma as the junta takes over the land of Cyclone Nargis victims; an MP 
of a Western government friendly with Burma and constitutional 
scholars. I also looked at past papers prepared for the democracy 
movement since 1990. These consultants published and unpublished works 
are much more detailed and show a much better understanding of Burma 
than anything that David Steinberg or Thant Myint-U have ever written. 
In fact these two and others in the same camp are widely known as 
regime apologists. Maybe that is why they were invited onto your panel.
     To my knowledge (I stopped work on this project in mid-March 
2009), none of the scholars and dissidents consulted advocated lifting 
sanctions. Most of the experts instead advocated structural reforms of 
a political and economic nature. The sentence ``Sanctions will be 
gradually lifted'' did work its way into the official report, after it 
had passed from my hands, but this can be seen as subject to concrete 
changes from the SPDC's side, and in line with Daw Suu's recent letter 
indicating her willingness to help lift sanctions and asking to be 
better informed. She cannot truly make an informed decision without 
access to the Internet and other international media as she continues 
under a more severe house arrest since the sham trial conducted against 
her, toward the end of which you were allowed to see her.
     My advice to you and Secretary Clinton and everyone working on 
this new policy is to be extremely careful that you are all not used by 
the junta, while Burma is left worse off than before 2010.
     In my opinion you need to show you are not more motivated by 
playing to an American audience by going to secure American Mormon John 
Yettaw's release, and talking about recovering the bones of U.S. war 
dead from World War II in Burma, but not even issuing a statement or 
making any moves to help in the case of Burmese-born U.S. Citizen Kyaw 
Zaw Lwin (Nyi Nyi Aung) who was arrested on September 3 as he arrived 
at Rangoon airport from Bangkok. See--Jonathan Hulland ``As an American 
is Tortured in Burma, Where's the Outrage?'' (http://www.
huffingtonpost.com/jonathan-hulland/as-an-american-is-
torture_b_303297.html).
     This article was published 2 days ago and has already been widely 
cited and linked on the Internet.
     Daw Aung San Suu Kyi, U Tin Oo of the NLD, Kyaw Zaw Lwin and all 
the more than 2,000 political prisoners need to be free and able to 
freely organize and conduct their political activities. Otherwise 2010 
will remain the farce it is.
     I will be cc.ing this statement to Amnesty International and other 
organizations and individuals.
     I commend you for your spearheading efforts, but much more needs 
to be done.
     The SPDC needs to be held accountable for its actions. Otherwise 
you are sending the wrong message.
            Sincerely,
                                     Kyi May Kaung (Ph.D.),
                                                  Words and Images.
                                 ______
                                 

  Prepared Statement of Dr. Lawrence Sein Myint, Princpal Consultant, 
               Fire & Risk Consultants, LLC, Columbia, MD

    Mr. Chairman and members of the committee, it is a privilege and 
honor to present my testimonial in support of a review on U.S. Policy 
toward Burma at today's Senate hearing, which I believe is for the 
benefit of the people of Burma and their place in the world of nations. 
My name is Lawrence Sein Myint and I am a Burman. First of all, I would 
like to commend Senator Webb on traveling to Burma and meeting with Sr. 
Gen. Than Shwe of the State Peace and Development Council (SPDC) and 
Daw Aung San Sui Kyi of the National League for Democracy (NLD). 
Although the results of the initial meetings might not have been at an 
acceptable level for some critics, at least it could be seen as the 
start of a political process whereby the U.S. has taken a pivotal role 
in talking directly to both leaders.
    We would like to support the continuation of U.S. initiative in the 
political process, enhanced by the U.N. A meeting of all stake holders, 
not only the leaders of the SPDC and the NLD, but also other Burmese 
and Ethnic political organizations, senior politicians and prominent 
individuals would be desirable. At the same time, it is vital 
importance to include Burma's neighboring countries such as China, 
India, and the Association of South East Asian nations (ASEAN) in this 
political dialogue process.
    In this testimonial, I have incorporated the views and opinion of a 
prominent Burmese politician, U Ye Htoon, who is not only part of the 
current political process but has long been involved in the country's 
political history. I am also including comments of one of the 1988 (8-
8-88) student leaders, Mr. Ko Win Moe, a resident of Fort Wayne, IN, 
who is a former general secretary-1 of the All Burma Student Federation 
Union (ABSFU).
                         on the 2010 elections
    The year 2010 could be marked as a milestone in Burma's political 
history. If the elections are to be held as scheduled according to the 
military government's 7-Steps Road Map plan, it would likely create 
opportunities for generational and institutional changes despite major 
short comings, analyzed and reported by the International Crisis Group 
(ICG).
    At this point I would like to quote U Ye Htoon, Vice Chairman of 
the Democratic Party Myanmar (DPM). The DPM is an independent political 
party soon to be registered with the 2010 Elections Commission. On the 
question of why the DPM was formed and on its decision to participate 
in the 2010 elections, U Ye Htoon has this to say: ``We would like to 
have the opportunity to speak out at a legal forum, i.e., at the 
national parliament on the country's economy, poverty, health, 
education, infrastructure and redevelopment programs.'' He went on to 
say that: ``We have a responsibility to speak out on behalf of the 
people, participate and work toward achieving these objectives. We had 
been arrested and jailed when we had voiced our opinions on these 
matters in the past as well as at present. But after the elections, we 
would be able to speak within the legal fold in the national 
parliament. Although we might not have a majority, our voices can be 
heard as representatives of the people in these matters for 
consideration and implementation.''
    U Ye Htoon also added that: ``Since the NLD had declared that they 
would only participate in the 2010 elections if the military government 
(SPDC) would allow an amendment to their 2008 Constitution, allegedly 
approved by more than 90 percent of the populace, and due to the SPDC's 
rejection of this condition, making it impossible for the NLD to 
contest in the 2010 elections, therefore, unable to speak on behalf of 
the people in the national parliament.''
    The former student leader, Mr. Ko Win Moe stated that: ``An 
election is not a panacea for Burma's problems. It is just a part of 
the solution of a long political process,'' adding, ``the international 
community should closely monitor the 2010 elections.'' He also outlined 
three important criteria that must be met to have a free and fair 
election. The criteria being: (1) Unconditional release of all 
political prisoners (which the SPDC has partly done so); (2) 
establishing of a free and responsible media; and (3) freedom of all 
political parties' activities.
    The democratic opposition inside Burma has asked for a political 
dialogue with the military government, the SPDC, for many years now--
even without any preconditions--to start the national reconciliation 
process. The UNSG along with other leaders from the Western democracies 
had also made similar calls for political dialogue between the major 
stake holders.
    I would agree with other independent analysts and institutions 
inclined to believe that this direct political dialogue between the 
SPDC and democratic opposition leaders could not be achievable, amidst 
sanctions and political pressure imposed by the international community 
on Burma. Thus, they have become more convinced that the alternate 
political dialogue between the military government and democratic 
opposition parties could take place at the national parliament after 
the 2010 elections. That is to say between elected political 
representatives and selected military personnel.
    However, critics have legitimate doubts and of short comings on the 
full representation of this national parliament formed with those 
elected political representatives and selected military personnel. This 
doubt is due to the powers invested in the Head of State and the Chief 
of Staff of the Armed Forces outlined in the 2008 Constitution.
    Nevertheless, I would argue that though it is a limited 
participation and representation in the governance of the country it 
would lead onto a path of full representation and participation in 
future parliaments. I would argue that the end result of continuous 
dialogue and debate, would lead toward establishing various working 
committees among the elected representatives for the formulation and 
implementation of respective policies that would be of benefit to the 
people of Burma.
                               sanctions
    With regard to the current economic sanctions imposed on Burma, U 
Ye Htoon stated: ``To lift the sanctions on Myanmar, we have to prove 
to the U.S. Congress and the administration that Burma has a democracy 
whereby elected representatives from independent political parties take 
an independent stand speaking out on issues in the national parliament, 
meeting one of the prime reasons set by the U.S. administration on 
sanctions. In turn, it could ask the U.S. Congress to consider lifting 
the sanctions imposed on Burma.'' He further urged that the U.S. 
``recognize'' independent groups within Burma, improve bilateral 
relations, and increase humanitarian assistance in the health, 
education, and social fields.
    Numerous debates have been held in both public academic forums as 
well as on Internet chat forums with regard to the sanctions imposed on 
Burma. Sometimes it became contentious among the participants in these 
forums. The fact of the matter is that the subject itself has become 
more of a political nature rather than economical, and highly 
sensitive, effecting long political standing and conviction on both 
sides of the debate.
    I concur with most independent analysts that selective sanctions 
imposed by the U.S. and the EU upon Burma have not been effective 
economically because it never had any effect on its border trade with 
her immediate neighbors. The Foreign Direct Investment (FDI) still 
remain high especially in the oil and gas sector, mainly from China, 
India, Thailand, Singapore, and South Korea.
    Incidentally, there are no shortages of arms suppliers to Burma as 
well, apart from the traditional suppliers like China, Russia, and 
Singapore. New suppliers have emerged from the eastern European 
countries as well as Israel, South Africa, and India. All previous 
efforts at the UNSC to impose trade and/or arms embargo on Burma have 
been blocked or vetoed by its two UNSC permanent members, China and 
Russia.
    Advocates of prosanctions would argue that these sanctions have 
been effective as import ban from Burma directly to the U.S. and EU 
have severely limited or stopped hard currency earnings for the 
military government. They also claimed that many of these export 
products are manufactured in the factories owned and operated either on 
a joint-venture basis with foreign investors or solely by the 
military's own corporations, namely, the Myanmar Economic Holding 
Corporation and the Myanmar Economic Corporation.
    However, independent analysts observed that those products have in 
turn been exported to many third countries before proceeding to the 
U.S. and EU markets under different labels, thus circumventing the 
import ban imposed by the sanctions.
    Nevertheless, sanctions provide some political leverage. This is 
namely to the democratic opposition and exile ethnic groups, as they 
have political and social effect on the top-level military leaders, 
their Cabinet Ministers, and their close business associates. Many 
international and regional human rights groups claim justification of 
the imposed sanctions as penalty for the human rights violations 
committed by the Burmese military, especially on the ethnic 
nationalities and minority groups living in the border regions.
     International media have given constant attention and highlighted 
these issues at all available opportunity, reinforcing the political 
message and grievances of the ethnic minority groups.
    Imposed visa ban by the U.S. and EU upon the Burmese junta members 
have some implications socially, resulting in a lost opportunity to 
visit these countries either for medical treatment or for their 
children's education or simply for shopping. Instead, they would travel 
most exclusively to regionally developed countries like Singapore, 
Malaysia, or Thailand for these purposes.
    An exemption made by the State Department on Burma's Foreign 
Minister on his recent visit to the Embassy in Washington, DC, while in 
the U.S. to attend the U.N. General Assembly is an encouraging 
development worthy to be noted.
                        national reconciliation
    One of the most important steps in the national reconciliation 
process is the complete cessation of the armed conflict with various 
ethnic nationalities in the border regions. The ``civil war'' has been 
ongoing since Burma's independence. Stepping up to a political dialogue 
with the respective representatives of the ethnic nationalities to 
formulate and in turn recognize their rights and autonomy within the 
legal framework of the country most certainly is desirable for all.
    Mr. Ko Win Moe gave a conditional support to the SPDC for its 
efforts to dismantle armed cease-fire groups which are not accepting to 
become border guard forces. He strongly believes that, ``If there is 
going to be a free and fair election, there ought not to be any 
political forces that are closely affiliated or enjoy support from any 
armed group whatsoever.''
    In order to have a genuine reconciliation with all stake holders in 
the political dialogue process, general amnesty should be given to all 
politicians and activists, living inside and outside of the country. 
Particularly for those who are willing and prepared to accept and work 
within the legal framework.
    Problems and conflicts related to ethnicity are not found only in 
Burma but also in many countries in the world, in the developed as well 
as in the underdeveloped nations. These issues become more sensitive 
and complicated to solve when the diversity of the cultural, racial, 
and religious segments of each ethnic nationality are taken into 
account.
    We have witnessed many civil wars, the direct result from 
ethnicity-based conflicts; once every party involved resort to take up 
arms when political negotiations of the disputes fall apart or face 
road blocks. Similarly in Burma, these conflicts started since 
independence is still going on to this day.
    Successive governments including the present military government in 
Burma have tried solving these ethnic-based conflicts both politically 
as well as militarily. But have not been successful. Thus, one of the 
first priorities and responsibilities of those elected political 
representatives and selected military personnel of post 2010 elections 
is to form an all inclusive ethnic nationalities commission to explore 
and formulate recommendations and guidelines on solving these issues 
and submit to the national parliament for its approval and mandate.
               national reconstruction and redevelopment
    I would like to touch briefly upon the national reconstruction and 
redevelopment in Burma. My professional expertise, knowledge and 
industrial experience over 30 years working in multiple engineering 
disciplines at various parts of the globe, could be utilized and 
employed to the benefit of the people of Burma.
    Traditionally, Burma has been agriculture-based economy and still 
employs millions of farmers all across the nation. However, since 
independence, successive governments have undertaken several 
industrialization developments through multiple 5-year programs. 
However, due to the continuing civil wars, ethnic insurgencies, the 
introduction of a centralized socialist economy compounded by 
mismanagement had reduced Burma to become one of the poorest countries 
in the world despite its rich natural resources.
    Reintroduction of a market economy after 1988 and the subsequent 
opening of oil and gas explorations to foreign companies led to the 
discovery and development of several commercially exploitable offshore 
natural gas fields. Many hydroelectric dams have been built across the 
country over the decade to supplement the electricity needed by the 
industrial sector and domestic households.
    However, the country still faces severe shortage of electricity due 
to fluctuation of the power supply and inefficient transmission lines. 
The price of gasoline and diesel fuel remain relatively high, due to 
imported crude oil and limited domestic refining capacity regardless of 
abundant natural gas available offshore.
    Naturally, the oil and gas sector should be the main engine for 
national economic redevelopment in Burma. By utilizing its abundant 
natural gas in offshore fields, and introduction of gas-to-liquid 
technology, it would lead to meet domestic fuel demands. Implementing 
gas processing plants and petrochemical plants toward producing raw 
materials for the domestic manufacturing industries is another part of 
the development process. Perhaps utilization of underground coal 
gasification (UCG) technology to produce electric power from vast area 
coal beds available in the country is also an idea.
                               conclusion
    There are many Burmese professionals living in the U.S. and other 
countries. These men and women have years of experience and technical 
knowledge in various fields and engineering disciplines and are ready 
and willing to help in the reconstruction and redevelopment programs if 
given the opportunity and a conducive working environment.
    Thus, it is necessary for the U.S. and the Western Governments to 
lead and introduce more pragmatic and engagement policies in dealing 
with Burma's military government. These democracies could help 
alleviate poverty, and in rebuilding the social and economic structures 
for the benefit of the people.
    We would like to urge and encourage the SPDC leadership to invite 
all stake holders to participate in the 2010 elections, reinforcing the 
call made by the U.N. Secretary General and many leaders of the ASEAN 
countries. Thus, continuing release of political prisoners is a 
significant and important step in the national reconciliation process 
as requested by the UNSG and members of the international community.
    Thank you for allowing me to submit my testimony and for your help 
toward peace and reconciliation in Burma.
                                 ______
                                 

 Prepared Statement of U Khin Maung Htay, Former Chief of the Burmese 
                 Service of the Voice of America (VOA)

    Mr. Chairman, allow me first to congratulate you and express my 
sincere thanks to you for your wisdom, vision, and contribution to this 
important policy concept of the United States reengaging with Burma and 
helping it take tangible democratic reforms for the larger good of its 
citizens.
    In the same breath, I would like to share with you, Mr. Chairman, 
and members of your esteemed committee, the enormous joy I felt when 
Secretary of State Hillary Clinton talked about what is to be included 
in the new United States-Burma policy, in broad strokes, to the U.N. 
Group of Friends on Burma on September 23 in New York.
    I am sure the people of Burma, who have been the unwitting victims 
of political and economic malaise for so long, will also be overjoyed 
with this turning of a page in the United States-Burma relations that 
have been strained, to say the least, for decades. In our own Burmese 
cultural parlance, this welcome development deserves the ``blessings of 
all humanity and of the heavenly divine spirits.''
    This new U.S. policy manifests a distinct departure from the long-
established one in tone and tenor if not in content. It is prudent, 
pragmatic, well-considered, well-balanced and in keeping with the call 
of the times.
    There could not be a more realistic, humane, and goal-centered 
approach, in terms of policy prerogatives, than the declared 
simultaneous employment of the tools of ``engagement'' and 
``appropriate sanctions'' and ``humanitarian assistance'' as postulated 
by Secretary Clinton.
    The whole objective is, as Secretary Clinton puts it, ``to ensure 
the Burmese people that they can live in a united, peaceful, and 
prosperous country, led by a democratic government that respects the 
rights of its citizens.''
    As far as this contentious issue of sanctions is concerned, things 
could improve, down the line, because Secretary Clinton has said that 
the U.S. is, in her words, ``willing to discuss the easing of sanctions 
in response to significant actions on the part of Burma's generals that 
address the core human rights and democracy issues that are inhibiting 
Burma's progress.''
    Mr. Chairman, looking at the on-going developments and the new U.S. 
Burma policy enunciation by Secretary Clinton, on the surface, it seems 
like the ball is now in the court of the ruling military alone.
    However, if we look deeper, we will find that the ball is in each 
of the courts of all the parties aspiring to turn Burma into a land of 
milk and honey, stable, peaceful, and democratic where human rights 
prevail.
    Secretary Clinton, in defining the new U.S. Burma policy said, and 
I quote: ``The U.S. policy seeks credible, democratic reform, immediate 
release of all political prisoners, including Aung San Suu Kyi and 
serious dialogue with opposition and minority ethnic groups.
    So, it goes without saying that all hands on deck--the ruling 
military, democratic opposition, and minority ethnic groups--must pull 
this ship of state called Burma, in unison, all by themselves, to safer 
shores, if they truly wish to do the most good to the passengers of 
that ship--the people of Burma.
    At this point, it would be remiss on my part, if I did not mention 
the Associated Press report, datelined Rangoon Friday, September 25, 
that Nobel laureate Daw Aung San Suu Kyi welcomes a U.S. initiative to 
stepup contacts with Burma's military government, quoting her party's 
spokesperson. He said and I quote: ``(Daw Aung San) Suu Kyi said she 
accepted the idea of engagement by the U.S. administration. She said 
she has always espoused engagement. However, (she) suggested that 
engagement had to be done with both sides--the government as well as 
the democratic forces.''
    Mr. Chairman, if I may, I would now like to draw the attention of 
the leaders of Burma from the ruling military, democratic opposition 
and minority ethnic groups, to what President Obama said in his address 
to the U.N. General Assembly on September 23, so that they can weigh 
and consider in their efforts to establish democracy in Burma.
    President Obama said, and I quote: ``Democracy cannot be imposed on 
any nation from the outside. Each society must search for its own path, 
and no path is perfect. Each country will pursue a path rooted in the 
culture of its people and in its past traditions. And I admit that 
America has too often been selective in its promotion of democracy. But 
that does not weaken our commitment; it only reinforces it. There are 
basic principles that are universal; there are certain truths which are 
self evident--and the United States of America will not waver in our 
efforts to stand up for the right of people everywhere to determine 
their own destiny.
    Mr. Chairman, the U.S. State Department spokesman, Ian Kelly, said 
at a daily briefing on Friday, September 25, that Assistant Secretary 
of State for East Asian and Pacific Affairs, Kurt Campbell, will be 
leading U.S. policy for Burma as of now, and more interlocutors would 
be announced in the coming days to engage with the Burmese military 
government and Burmese people.
    In the interest of the Burmese people, I wish Secretary Campbell 
and his team and also his Burmese counterparts all the success.
    Every long journey begins with a small step. A step has been taken.
    In the meantime, with all alacrity, let the drums roll, Mr. 
Chairman, and thank you.

                                  <all>

</pre></body></html>
